<html>
<title> - MAYOR AND SUPERINTENDENT PARTNERSHIPS IN EDUCATION: CLOSING THE ACHIEVEMENT GAP</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
    MAYOR AND SUPERINTENDENT PARTNERSHIPS IN EDUCATION: CLOSING THE 
                            ACHIEVEMENT GAP

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 17, 2008

                               __________

                           Serial No. 110-102

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                     U.S. GOVERNMENT PRINTING OFFICE

43-311 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 17, 2008....................................     1

Statement of Members:
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     4
        Prepared statement of....................................     5
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        Letter from the National Alliance of Black School 
          Educators..............................................    67

Statement of Witnesses:
    Bloomberg, Hon. Michael R., Mayor, the City of New York......    20
        Prepared statement of....................................    23
        Questions for the record and responses submitted.........    70
    Duncan, Arne, Chief Executive Officer, Chicago Public Schools    33
        Prepared statement of....................................    36
        Questions for the record and responses submitted.........    77
        ``FY2008 Recruitment & Workforce Planning Initiatives''..    83
    Fenty, Hon. Adrian M., Mayor, District of Columbia...........    10
        Prepared statement of....................................    12
        Questions for the record and responses submitted.........    87
    Hall, Beverly L., Superintendent, Atlanta Public Schools.....    28
        Prepared statement of....................................    30
        Questions for the record and responses submitted.........    89
    Klein, Joel I., Chancellor, New York City Department of 
      Education..................................................    24
        Prepared statement of....................................    27
        Questions for the record and responses submitted.........    70
    Rhee, Michelle, Chancellor, District of Columbia Public 
      Schools....................................................    13
        Prepared statement of....................................    17
        Questions for the record and responses submitted.........    87


                        MAYOR AND SUPERINTENDENT
                       PARTNERSHIPS IN EDUCATION:



                      CLOSING THE ACHIEVEMENT GAP

                              ----------                              


                        Thursday, July 17, 2008

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:12 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Woolsey, 
Hinojosa, McCarthy, Tierney, Wu, Holt, Davis of California, 
Davis of Illinois, Bishop of New York, Sarbanes, Hirono, 
Altmire, Yarmuth, Hare, Clarke, Shea-Porter, McKeon, Castle, 
Biggert, Platts, Kline, and Kuhl.
    Staff present: Alice Cain, Senior Education Policy Advisor 
(K-12); Lynne Campbell, Legislative Fellow for Education; 
Alejandra Ceja, Senior Budget/Appropriations Analyst; Fran-
Victoria Cox, Staff Attorney; Adrienne Dunbar, Education Policy 
Advisor; Sarah Dyson, Investigative Associate, Oversight; 
Denise Forte, Director of Education Policy; David Hartzler, 
Systems Administrator; Lloyd Horwich, Policy 
Advisor,Subcommittee on Early Childhood, Elementary and 
Secretary Education; Fred Jones, Staff Assistant, Education; 
Ann-Frances Lambert, Special Assistant to Director of Education 
Policy; Ricardo Martinez, Policy Advisor,Subcommittee on Higher 
Education, Lifelong Learning and Competitiveness; Stephanie 
Moore, General Counsel; Alex Nock, Deputy Staff Director; Joe 
Novotny, Chief Clerk; Rachel Racusen, Communications Director; 
Meredith Regine, Junior Legislative Associate, Labor; Daniel 
Weiss, Special Assistant to the Chairman; Margaret Young, Staff 
Assistant, Education; Mark Zuckerman, Staff Director Stephanie 
Arras, Minority Legislative Assistant; James Bergeron, Minority 
Deputy Director of Education and Human Services Policy; Robert 
Borden, Minority General Counsel; Chad Miller, Minority 
Professional Staff; Susan Ross, Minority Director of Education 
and Human Services Policy; Linda Stevens, Minority Chief Clerk/
Assistant to the General Counsel; and Sally Stroup, Minority 
Staff Director.
    Chairman Miller [presiding]. A quorum being present, the 
hearing will come to order.
    Today, the committee is conducting a hearing on mayor-
superintendent partnerships in education and closing the 
achievement gap.
    In recent years, one of the bright spots in education 
reform in this country has been the strong interest mayors and 
superintendents have taken to improve inner-city public 
schools. The purpose of today's hearing is to learn more about 
these admirable efforts and their successes in raising student 
achievement across the board.
    At a time when our nation faces extreme economic 
challenges, we know that providing every child with a solid 
education is the ticket to building a more competitive 
workforce, a stronger economy, and a brighter future for our 
nation.
    For decades, America's public education system has not 
served all children equally. Far too many children, especially 
low-income and minority children, were allowed to fall through 
the cracks. Many of us knew that this type of system was 
unacceptable and a serious threat to our democracy.
    Six years ago, we set out to close the growing student 
achievement gap. We enacted the No Child Left Behind Act at the 
federal level to increase accountability in our schools and to 
ensure that no group of students could go ignored, and although 
the law itself is in need of significant changes, it has 
provided us with critical information on how our students are 
learning.
    We know now that while the achievement gap has narrowed 
over the last 6 years, our schools and students are still not 
making enough progress. We also know that our students are 
falling behind students in other countries when it comes to 
mastering the basic skills, like math, science, and reading. As 
a nation, we cannot afford to continue on this path.
    We know we need to do a better job of providing all 
students with an excellent education and that we prepare them 
to take the jobs of tomorrow, to be our next generation of 
innovators, discoverers, and leaders.
    Today, we will hear from the mayors and superintendents of 
major U.S. cities about the innovative strategies they are 
using to try and close the achievement gap among our students. 
What is especially striking about the four cities represented 
here today--New York City, Washington, Chicago, and Atlanta--is 
that they all have had remarkable success with the very student 
populations that No Child Left Behind is designed to help.
    In Atlanta, 100 percent of the city's elementary schools 
made Adequate Yearly Progress last year, even with 76 percent 
of the students living in poverty.
    In Chicago, a city where nearly 85 percent of the children 
live in poverty, the number of students meeting, exceeding 
expectations of the Illinois Standards Achievement Test rose by 
23 percent to 69 percent proficiency in math over the past 2 
years. Similarly, student achievement in reading comprehension 
rose by 13 percent to 61 percent proficiency over the same 
period.
    In New York City, 74 percent of the students were 
proficient in math this year, up from 57 percent last year, and 
58 percent of the students were proficient in reading, up from 
51 percent last year.
    And here in D.C., elementary students increased their 
proficiency in math by 11 percent last year and increased their 
proficiency in reading by 8 percent.
    None of these are small feats. As Congress considers how we 
can best improve our federal education laws, we need to pay 
attention to the impressive work that these members are doing 
and how they are doing it, and most importantly what you have 
learned along the way.
    Keeping in mind that No Child Left Behind is a fundamental 
civil rights law, we need to know what tools you have found to 
be effective, what we can do to help empower, expand, and build 
upon your successes. I think that we can all agree that nothing 
is more important to making sure that every child in this 
country, regardless of race or income, receives a world-class 
public education.
    And, again, I want to thank you for your time, your 
expertise, and your dedication in appearing before the 
committee today.
    And with that, I would like to yield to Congressman McKeon, 
the senior Republican on the committee, for his opening 
statement.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning and welcome.
    In recent years, one of the bright spots in education reform in 
this country has been the strong interest that mayors and 
superintendents have taken to improve inner-city public schools. The 
purpose of today's hearing is to learn more about these admirable 
efforts, and their successes in raising student achievement across the 
board.
    At a time when our nation faces extreme economic challenges, we 
know that providing every child with a solid education is the ticket to 
building a more competitive workforce, a stronger economy, and a 
brighter future.
    For decades, America's public education system has not served all 
children equally. Far too many children, especially low-income and 
minority children, were allowed to fall through the cracks.
    Many of us knew that this type of system was unacceptable--and a 
serious threat to our democracy.
    Six years ago, we set out to close this growing student achievement 
gap. We enacted the No Child Left Behind Act to increase accountability 
in our schools and ensure that no group of students could go ignored.
    And although the law itself is in need of significant changes, it 
has provided us with critical information on how our students are 
learning.
    We know now that while the achievement gap has narrowed over the 
last six years, our schools and students are still not making enough 
progress. We also know that our students are falling behind students in 
other countries when it comes to mastering basic skills, like math, 
science, and reading.
    As a nation, we cannot afford to continue on this path.
    We know we need to do a better job of providing all students with 
an excellent education that will prepare them to take on the jobs of 
tomorrow, to be our next great generation of innovators and leaders.
    Today we will hear from the mayors and superintendents of major 
U.S. cities about the innovative strategies they have used to close the 
achievement gap among their students.
    What is especially striking about the four cities represented here 
today--New York City, Washington, D.C., Chicago, and Atlanta--is that 
they have all had remarkable success with the very student populations 
that No Child Left Behind was designed to help.
    In Atlanta, 100 percent of the city's elementary schools made 
adequate yearly progress last year, even with 76 percent of students 
living in poverty.
    In Chicago, a city where nearly 85 percent of children live in 
poverty, the number of students meeting or exceeding expectations on 
the Illinois Standards Achievement Test rose by 23 percent, to 69 
percent proficiency in math over the past two years.
    Similarly, student achievement in reading comprehension rose by 13 
percent, to 61 percent proficiency over the same period.
    In New York City, 74 percent of students were proficient in math 
this year, up from 57 percent last year. And 58 percent of students 
were proficient in reading, up from 51 percent last year.
    And here in DC, elementary students increased their proficiency in 
math by 11 percent last year, and increased their proficiency in 
reading by 8 points.
    None of these are small feats. As Congress considers how we can 
best improve our federal education laws, we need to pay attention to 
the impressive work you are doing, how you are doing it--and most 
importantly--what you have learned along the way.
    We need to know what tools you have found effective, and what we 
can do to help empower, expand, and build upon your successes.
    I think we can all agree that nothing is more important than making 
sure that every child in this country--regardless of race or income--
receives a world-class public education.
    I'd like to thank all of our witnesses for joining us.
    I look forward to your testimony and learning more about how--
together--we can make this vision a reality for America's 
schoolchildren.
    Thank you.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller, and good morning.
    It is a great privilege to be here among some of the most 
fearless education reform leaders in the country, and lest 
there be any doubt, fearlessness is exactly what we need from 
education reformers. We need leaders willing to take a chance 
on innovation over the status quo, leaders who are not afraid 
to buck the establishment and put the interests of the students 
ahead of the system.
    Each one of our witnesses has risen to that challenge, and 
it is with great excitement that we bring you here today to 
share your success stories and offer your thoughts on systemic 
reform. We have leaders from some of the largest and most 
challenging school districts in the country, from New York to 
Chicago and from Atlanta to right here in the nation's capital.
    The school system here in D.C. has been particularly 
troubling for many of us in Congress over the years, both 
because of its proximity to the Capitol where we work each day 
and because of its systemic struggles unmatched anywhere in the 
country.
    Here in D.C., we spend more and get less than anywhere else 
in the country. For that reason, D.C. has been an ideal 
incubator for reform. There is nothing to lose and everything 
to gain by investing in these schools and testing innovative 
strategies that will benefit students.
    I have been particularly pleased by the success of the D.C. 
Opportunity Scholarship Program which has proven beyond a 
shadow of a doubt that parents are desperate for new 
educational choices for their children. Today, some 1,900 
children are attending the public or private school of their 
parents' choosing.
    Although we expect it to take years for measurable academic 
gains to become evident, the early findings show that students 
receiving Opportunity Scholarships have made gains in reading 
and math. Their parents are much more satisfied with their new 
schools, believing them to be safer and more productive 
learning environments.
    The D.C. Opportunity Scholarship Program is an integral 
component of a much broader reform strategy. Along with the 
scholarship program, we are investing in strategies to improve 
the public school system and replicate high-performing charter 
schools. Both of these tactics are essential for long-term 
reform.
    But neither of these approaches will provide the immediate 
lifeline to children trapped in underperforming schools that 
can be offered through a scholarship, and so neither of these 
approaches would be complete without that essential third 
element: the D.C. Opportunity Scholarship Program.
    Of course, we know there are many ingredients necessary to 
successful education reform, and I believe most of them are 
rooted in the notion of parental empowerment and a students-
first mentality. Initiatives from tuition tax credits to 
funding portability should all be part of our national dialogue 
on educational reform.
    This panel is extraordinarily qualified to discuss the 
range of policies that are making a difference in their 
schools. One of the common elements among the districts 
represented is that they all recognize the importance of good 
teachers. In fact, there are few factors that have a greater 
impact on student academic achievement than the quality of 
their teachers. I am anxious to hear about how these schools 
are recruiting the best and the brightest and rewarding them 
for their successes in the classroom.
    There are so many cutting-edge strategies to reform our 
schools that I could continue all morning, but, in the interest 
of time and to give each of you as much of an opportunity to 
testify as possible, I will conclude my remarks with this: 
Education reform is one of the most difficult challenges facing 
our nation's mayors and local leaders, but it is also one of 
the most important.
    Today, as we recognize the work being done, I hope it will 
serve as a wakeup call about just how much work remains to 
ensure that every child in America has access to the high-
quality education he or she deserves.
    Chairman Miller, I want to thank you for holding this 
important hearing, thank our witnesses for being here, and I 
yield back.
    [The statement of Mr. McKeon follows:]

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you Chairman Miller, and good morning. It is a great 
privilege to be here among some of the most fearless education reform 
leaders in the country.
    And lest there be any doubt, fearlessness is exactly what we need 
from education reformers. We need leaders willing to take a chance on 
innovation over the status quo. Leaders who aren't afraid to buck the 
establishment and put the interests of the students ahead of the 
system. Each one of our witnesses has risen to the challenge, and it is 
with great excitement that we bring you here today to share your 
success stories and offer your thoughts on systemic reform.
    We have leaders from some of the largest and most challenging 
school districts in the country, from New York to Chicago, and from 
Atlanta to right here in the nation's capital.
    The school system here in D.C. has been particularly troubling for 
many of us in Congress over the years, both because of its proximity to 
the Capitol where we work each day and because of its systemic 
struggles, unmatched elsewhere in the country.
    Here in D.C., we spend more and get less than anywhere else in the 
country. For that reason, D.C. has been an ideal incubator for reform. 
There is nothing to lose and everything to gain by investing in these 
schools and testing innovative strategies that will benefit students.
    I have been particularly pleased by the success of the D.C. 
Opportunity Scholarship Program, which has proven beyond a shadow of a 
doubt that parents are desperate for new educational choices for their 
children. Today, some 1,900 children are attending the public or 
private school of their parents' choosing. Although we expect it to 
take years for measurable academic gains to become evident, the early 
findings show that students receiving opportunity scholarships have 
made gains in reading and math. Their parents are much more satisfied 
with their new schools, believing them to be safer and more productive 
learning environments.
    The D.C. Opportunity Scholarship Program is an integral component 
of a much broader reform strategy. Along with the scholarship program, 
we are investing in strategies to improve the public school system and 
replicate high-performing charter schools. Both of these tactics are 
essential for long-term reform.
    But neither of these approaches will provide the immediate lifeline 
to children trapped in underperforming schools that can be offered 
through a scholarship. And so neither of these approaches would be 
complete without that essential third element, the D.C. Opportunity 
Scholarship Program.
    Of course, we know there are many ingredients necessary to 
successful education reform, and I believe most of them are rooted in 
the notion of parental empowerment and a ``students first'' mentality. 
Initiatives from tuition tax credits to funding portability should all 
be part of our national dialogue on education reform.
    This panel is extraordinarily qualified to discuss the range of 
policies that are making a difference in their schools. One of the 
common elements among the districts represented is that they all 
recognize the importance of good teachers. In fact, there are few 
factors that have a greater impact on student academic achievement than 
the quality of their teachers. I am anxious to hear about how these 
schools are recruiting the best and the brightest, and rewarding them 
for their successes in the classroom.
    There are so many cutting-edge strategies to reform our schools 
that I could continue all morning. But in the interest of time, and to 
give each of you as much of an opportunity to testify as possible, I 
will conclude my remarks with this:
    Education reform is one of the most difficult challenges facing our 
nation's mayors and local leaders. But it is also one of the most 
important. Today, as we recognize the work being done, I hope it will 
serve as a wakeup call about just how much work remains to ensure that 
every child in America has access to the high-quality education he or 
she deserves.
    Chairman Miller, I want to thank you for holding this important 
hearing and I yield back.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    And pursuant to Committee Rule 12(a), any member may submit 
an opening statement in writing which will be made part of the 
record of this hearing.
    And now I would like to introduce our witnesses.
    First will be Adrian Fenty who is the mayor of Washington, 
D.C., and before his election as mayor, Mayor Fenty worked as 
the lead attorney for the D.C. Council Committee on Education, 
Libraries, and Recreation. He was elected to Ward 4 council 
seat in 1999 and then was elected to mayor in 2006--and my 
colleagues will appreciate this--he was the first person in 
history to win all 142 precincts in the District, and that is 
quite a feat. We all want to win every precinct in our 
district.
    Since he has become mayor, he has made it very clear to the 
citizens of D.C. that their public schools are his highest 
priority and reorganizing the Department of Health and 
reforming child welfare and emergency medical services, all 
which come together around our children in the public schools.
    Michelle Rhee is the chancellor of the D.C. schools, and 
she was earlier recruited by Teach for America to teach in 
Harlem Park, Baltimore, for 3 years. She founded the New 
Teachers Project, a non-profit organization that helps recruit 
and train new teachers for high-needs schools. In 2007, Mayor 
Fenty appointed her to the chancellor of the schools, and she 
has since implemented multiple initiatives aimed at improving 
Washington, D.C. public schools.
    My colleague, Yvette Clarke, will introduce our next two 
witnesses, Mayor Bloomberg and Chancellor Klein.
    Ms. Clarke. Thank you, Chairman Miller.
    To Chairman Miller, Ranking Member McKeon, and my 
colleagues, it is my honor to present to you Michael R. 
Bloomberg.
    Michael R. Bloomberg is the 108th mayor of the City of New 
York. He attended Johns Hopkins University where he paid his 
tuition by taking loans and working as a parking lot attendant 
during the summer.
    In 1966, he was hired by Solomon Brothers to work on Wall 
Street after having received an MBA at Harvard Business School. 
In 1988, Solomon was acquired, and he was squeezed out by a 
merger.
    Chairman Miller. Poor guy. [Laughter.]
    Ms. Clarke. He began a small startup company called 
Bloomberg LLP in 1988, and, today, Bloomberg LLP has over 
250,000 subscribers to its financial news and information 
service. Headquartered in New York City, the company has 9,500 
employees in more than 130 cities worldwide.
    He officially entered public life in 2001 when he entered 
the race for mayor of the City of New York. His election came 
just 2 months after the tragic attack of 9/11 at a time when 
many believed that crime would return, business would flee, and 
New York might never recover.
    In his first term, Mayor Bloomberg cut crime 20 percent, 
created jobs by supporting small businesses, unleashed a 
building boom of affordable housing, expanded parks and worked 
to revitalize the waterfront, implemented ambitious public 
health strategies, including the successful ban on smoking in 
restaurants and bars, expanded support for the community arts 
organizations, and improved the efficiency of government.
    In 2005, Mayor Bloomberg was reelected by a diverse 
coalition of support that stretched across the political 
spectrum. In his second term, while balancing the budget and 
driving unemployment to a record low, Mayor Bloomberg has taken 
on a number of new challenges.
    He launched an innovative program to combat poverty that 
encourages work and makes work pay. He has undertaken a far-
reaching campaign to fight global warming and prepare New York 
for an estimated million more residents by 2030, and as co-
founder of a bipartisan coalition of more than 200 mayors from 
every region of the country, Mayor Bloomberg is working to keep 
illegal guns out of the hands of criminals and off the city 
streets.
    Mayor Bloomberg is the father of two daughters, Emma and 
Georgina.
    It is, indeed, my honor to present to you, my colleagues, 
Mr. Chairman, Mr. Ranking Member McKeon, Joel I. Klein.
    Joel Klein became New York City school chancellor in July 
of 2002 after serving in the highest levels of government and 
business. As chancellor, he oversees more than 1,450 schools 
with over 1.1 million students, 136,000 employees, and a $15 
billion operating budget.
    Mr. Klein's comprehensive reform program, Children First, 
is transforming the troubled public school system that existed 
when the mayor was elected into a system of great schools.
    Before Mr. Klein became chancellor, he was chairman and 
executive officer of Bertelsmann, Inc., and chief U.S. liaison 
officer to Bertelsmann AG from January of 2001 to July of 2002. 
Bertelsmann, one of the world's largest media companies, has 
annual revenues exceeding $20 billion and employs over 76,000 
people in 54 countries.
    From 1997 to 2001, Mr. Klein was an assistant attorney 
general in charge of the U.S. Department of Justice's antitrust 
division. Mr. Klein was widely credited with transforming the 
antitrust division into one of the Clinton administration's 
greatest successes. He also served as acting assistant attorney 
general and as the antitrust division's principal duty 
assistant attorney general. His appointment to the U.S. Justice 
Department came after Klein served 2 years, 1993 through 1995, 
as deputy counsel to President William J. Clinton.
    Mr. Klein began his career as a law clerk, first to Chief 
Justice David Bazelon on the U.S. Court of Appeals of the D.C. 
Circuit from 1973 to 1974 and then Justice Lewis Powell on the 
U.S. Supreme Court from 1974 to 1975. He next worked in the 
public interest law firm, the Mental Health Law Project, in 
1975 to 1976. For the following 5 years, he was an associate 
and partner at the law firm of Rogovin, Stern & Huge, from 1976 
to 1981.
    Active in community work, Mr. Klein has participated in Big 
Brothers, served as chairman of the board of the Green Door, a 
pioneer community-based treatment program for mentally ill 
residents of the District of Columbia, and as the treasurer for 
the World Federation of Mental Health.
    During a leave of absence from law school--we are going 
back here. [Laughter.]
    Well, we just thought it was so interesting. Let me----
    Chairman Miller [continuing]. Longer than our witnesses.
    Ms. Clarke. I am going to close. I am going to close.
    During a leave of absence from law school in 1969, he 
studied at New York University's School of Education and later 
taught math to sixth graders at a public school in Queens.
    That gives you a full picture, Mr. Chairman, Ranking 
Member, of the dynamism of our chancellor, Chancellor Klein.
    Chairman Miller. I did not hear anything about his 
preschool experience----
    [Laughter.]
    Ms. Clarke. Thank you, my colleagues.
    Chairman Miller. Our next witness will be Dr. Beverly Hall 
who was appointed superintendent of Atlanta Public Schools in 
1999. Born in Jamaica, Dr. Hall immigrated to the United States 
upon completion of her high school education. Dr. Hall 
previously served as superintendent of the Newark Public 
Schools in New Jersey. She also served as deputy chancellor for 
instruction in New York City and as principal of two New York 
City public schools. She was recently honored with the Council 
of Great City Schools National Urban Superintendent of the Year 
Award.
    And my colleague, Mr. Davis, will introduce Arne Duncan, 
the CEO of the Chicago city schools, and we will stop at high 
school.
    [Laughter.]
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman, 
Ranking Member McKeon, members of the committee.
    Chicago is not quite as big as New York and, therefore, my 
introduction is not quite as long.
    But since 1992, Arne Duncan has been an integral part of 
the education scene in Chicago, the third largest city in the 
United States of America. Prior to joining the public schools, 
Arne directed the Ariel Education Initiative established by 
John Rogers, founder and head of Ariel Capital, one of the 
nation's most successful businessmen.
    In 1988, Arne joined the Chicago school system and, in 
2001, he was appointed CEO. In partnership with the mayor of 
the City of Chicago and the Chicago City Council, the business 
community, colleges and universities, other educational 
programs and institutions, local communities, and our unique 
system of local school councils, Arne has transformed education 
in Chicago. Using a concept of smaller class sizes, smaller 
schools, charter schools, interaction with local communities, 
innovative approaches to recruiting teachers, providing 
opportunities for teachers to grow and develop, education has 
become a citadel of hope in Chicago.
    Arne is intimately involved and associated with the 
communities where the schools are. It is not that uncommon to 
see him at a block club meeting or one of the local churches or 
community organization meetings or out on the school grounds 
involved in a pickup basketball game with some of the young 
persons.
    I think that this approach has made him as successful as he 
has been. He provides not only leadership, but motivation and 
inspiration, and it is my pleasure, Mr. Chairman, to have him 
here today and introduce him to all of you.
    Chairman Miller. Thank you very much.
    And I want to welcome all of our witnesses.
    The Chair is going to use its privileges to recognize two 
young women from my district who just came into the committee 
room to listen to part of this hearing, Cara Chin and Emma Lynn 
Tringali from Benicia High School in California.
    Welcome. Stand up. Yes. Come on. There you go. Thank you 
very much for being here. [Applause.]
    I would say that the purpose of this hearing is, as you 
will hear from Chancellor Rhee, to make sure that our education 
system is focused on the students and not just on the adults. 
So welcome, and I hope you enjoy your tour of Washington, D.C.
    Yes? What we are going to do is a little bit different this 
morning. A number of years ago before she was speaker, the 
speaker took us to Stanford University when Democrats were 
working on an innovative agenda, and we listened to the CEOs of 
the biotech companies and the high-tech companies and the 
venture capital community about education, about what it means 
to create an innovative agenda, and five members of Congress 
sat and listened to these individuals for over 2 hours until 
one of the CEOs raised a hand and said it was the first time 
they had ever been in a room with Members of Congress where 
they listened as opposed to talking.
    We have a system here. When you begin to speak, a green 
light will go on, and then a yellow light will go on, which 
usually is after 4 minutes, and then a red light when we would 
like you to sum up your testimony. We are going to be a little 
liberal with the lights because I think it is very important 
that this committee hear about not only your accomplishments, 
but what it is you think the federal government could do to 
better deploy its assets, its resources, as I said, to 
reinforce and expand the changes that you and other school 
districts have brought about to bring about this growth in 
achievement and the closing of the gap. So I think it is very 
important that we hear from you.
    We will then go to questions from members, but I want to 
make sure that we--this was a difficult hearing to assemble, 
given the busy lives of everybody at the witness table. So that 
is how I would like to begin, and we have discussed this with 
the minority, and I think there is agreement on this.
    So, Mayor Fenty, we are going to begin with you.

   STATEMENT OF HON. ADRIAN M. FENTY, MAYOR, THE DISTRICT OF 
                            COLUMBIA

    Mayor Fenty. Thank you very much, Chairman Miller, Ranking 
Member McKeon, and distinguished committee members.
    I am extremely honored to appear before you in the company 
of my esteemed fellow mayor and friend Michael Bloomberg and 
with representatives from the great cities of Atlanta and 
Chicago and New York. These are four of the great chancellors 
in the country right now.
    On behalf of the residents of the District of Columbia, I 
would like to briefly talk to you about the daunting scholastic 
hurdles district students face, and what their government and 
community have done and continue to do to provide them the 
educational opportunities they both need and deserve.
    I assumed the mayoralty of the District of Columbia in 
January 2007 with a determination and a mandate to completely 
transform a school system that spent more per pupil than any 
other system in the country, yet languished at or near the 
bottom of every national measure of academic achievement. 
Simply put, the District of Columbia was failing its children.
    Many doctoral dissertations analyzing the merits of 
competing educational theories could be written to explain this 
failure, but, at its heart, the explanation was frustratingly 
simple: zero accountability. Because the multilayer bureaucracy 
created plenty of places for the buck to stop, we were caught 
in a never-ending cycle of finger-pointing and blame.
    In municipal government, if the city fails to pick up the 
garbage, the mayor knows exactly which member of his or her 
Cabinet is answerable and what steps need to be taken to 
address the problem. Yet, when it came to perhaps the most 
vital charge of municipal affairs, the future of our children, 
no one could be held to account. As counterintuitive as it 
sounds, the mayor had absolutely no say whatsoever in the 
administration of the school system of the city.
    My approach was, in objective terms, confoundingly simple: 
Just as much as the mayor is accountable for keeping the 
streets clear of snow, he or she must be responsible for 
ensuring that the city's children are afforded the very best 
life skills and educational resources that the nation's capital 
ought to provide them, and, if the mayor failed in this charge, 
he or she then must accept the blame and the consequences.
    I then selected a proven educational maverick and 
innovator, Michelle Rhee, as the first-ever chancellor of the 
District of Columbia Public Schools, and we got to work 
performing such radical yet obvious tasks as ensuring timely 
delivery of textbooks to appropriate classrooms, clearing out 
warehouses where textbooks and teaching supplies lay unused 
while our teachers were spending their own money to buy these 
same supplies, and establishing for the first time an 
integrated recordkeeping system that tracked school records--
all four million pieces of paper that had previously been 
strewn on the floor in a storage room at our central 
administration offices.
    And in the short time that we have been running the school 
system, we have recruited the business community to participate 
in a school cleanup program, begun an intensive facilities 
construction program to repair buildings that have been 
dilapidated for decades, and hired an ombudsman as a resource 
for parents needing help.
    We have made the tough decision to close or consolidate 23 
underenrolled schools to best utilize our resources. We 
installed more than 6,300 computers in schools around the city, 
created a Saturday tutoring program for our children that 
needed extra help. We have prepared the restructuring process 
for 27 schools to begin the process of helping failing schools 
achieve adequate yearly progress as required by the federal No 
Child Left Behind Act.
    There truly also is a sense in the streets of this city, in 
the homes and the classrooms, that we are all in this together. 
Parents, teachers and, most of all, students truly understand 
that the bar has now been raised. But if more has been 
invested, it is because more is being expected. Our students 
seem to understand this and they have delivered.
    I am extremely proud to be able to say that in the 13 
months since taking over the schools, we have already made 
dramatic, meaningful, lasting changes. We have seen impressive 
gains in reading and math scores for our elementary and 
secondary students. We have brought innovative reforms to 
staffing and personnel, including a framework for outstanding 
teachers to trade tenure for bonuses based on student 
achievement that will make them some of the highest-paid 
teachers in the country.
    This fall, we will take our first steps toward a 
comprehensive school staffing model that puts art, music, and 
physical education teachers, nurses, and counselors, and other 
key staff in every school building. We have developed an 
individualized reform plan for each of the schools that is in 
restructuring status under No Child Left Behind.
    And we are also making tremendous progress on facilities 
improvements. Students must get the message that they can be 
successful in school and we are committed to their success by 
providing appropriate environments for learning.
    Mr. Chairman, you may know that I spend a few weekends a 
year taking part in marathons and triathlons and this type of 
thing. We have done a great deal in our first year in charge of 
the schools, but I look at our work so far as just the warm-up. 
We have much further to go.
    Chairman Miller, Ranking Member McKeon, and other members 
of the committee and really of the entire Congress, because of 
the District of Columbia's unique status, we have had to come 
to the Congress for support, both in getting our initial 
authorizing legislation passed and additional things along the 
way. I personally want to thank you and all of the Members of 
Congress for their support. It has truly made a difference in a 
short period of time in the lives of the students of the 
District of Columbia.
    This concludes my prepared remarks, and I am happy to 
answer any questions.
    [The statement of Mayor Fenty follows:]

Prepared Statement of Hon. Adrian M. Fenty, Mayor, District of Columbia

    Chairman Miller, Ranking Member McKeon and distinguished committee 
members: I am honored to appear before you in the company of my 
esteemed fellow mayor and friend Mike Bloomberg and with 
representatives from the great cities of Atlanta and Chicago. On behalf 
of the residents of the District of Columbia, I would like to briefly 
talk to you about the daunting scholastic hurdles District students 
face, and what their government and community have done and continue to 
do to provide them the educational opportunities they need and deserve.
Accountability
    I assumed the mayoralty of the District of Columbia in January 2007 
with a determination to completely transform a school system that spent 
more per pupil than any other system in the country, yet languished at 
or near the bottom of every national measure of academic achievement. 
Simply put, the District of Columbia was failing its children.
    Many doctoral dissertations analyzing the merits of competing 
educational theories could be written to explain this failure, but, at 
its heart, the explanation was frustratingly simple: Zero 
accountability. Because the multi-layer bureaucracy created plenty of 
places for the buck to stop, we were caught in a never-ending cycle of 
finger pointing and blame.
    In municipal government, if the city fails to pick up garbage, the 
mayor knows exactly which member of his or her cabinet is answerable, 
and what steps need to be taken to address the problem; yet, when it 
came to perhaps the most vital charge of municipal affairs--the future 
of our children--no one could be held to account. As counterintuitive 
as it sounds, the mayor had absolutely no say whatsoever in the 
administration of the school system of the city.
    I was determined to ensure an immediate and decisive end to the 
cycle of blame. My approach was, in objective terms, confoundingly 
simple: just as much as the mayor is accountable for keeping the 
streets clear of snow, he or she should--and must--be responsible for 
ensuring that the city's children are afforded the very best life 
skills and educational resources that the nation's capital ought to 
provide them. And, if the mayor failed in this charge, he or she must 
accept the blame and consequences.
    I then selected a proven educational maverick and innovator, 
Michelle Rhee, as the first-ever Chancellor of the District of Columbia 
Public Schools, and we got to work performing such radical, yet obvious 
tasks as ensuring timely delivery of textbooks to appropriate 
classrooms, clearing out warehouses where text books and teaching 
supplies lay unused while our teachers were spending their own money to 
buy these same supplies, and establishing--for the first time--an 
integrated record-keeping system that tracked school records. Records, 
all 4 million pieces of paper, that had previously been strewn on the 
floor in a storage room at our central administration offices.
Results of Reform
    There truly is a sense in the streets, homes and classrooms of this 
city that we are all in this together. Parents, teachers and, most of 
all, students, truly understand that the bar has been raised. But if 
more has been invested, it is because more is being expected. Our 
students seem to understand this and they have delivered.
    I'm extremely proud to be able to say that in the 13 months since 
taking over the schools, we've already made dramatic, meaningful, 
lasting changes. We've seen impressive gains in reading and math scores 
for our elementary and secondary students. We've brought innovative 
reforms to staffing and personnel, including a framework for 
outstanding teachers to trade tenure for bonuses--based on student 
achievement--that will make them some of the highest-paid teachers in 
the United States.
Next Steps
    This fall, we'll take our first steps toward a comprehensive school 
staffing model that puts art, music and physical education teachers, 
nurses and counselors, and other key staff in every school building. 
We've made the tough decision to close or consolidate under-enrolled 
schools to do this. We've developed an individualized reform plan for 
each of the schools that is in restructuring status under the No Child 
Left Behind Act. We're also making tremendous progress on facilities 
improvements. Students must get the message that they can be successful 
in school and that we're committed to their success by providing 
appropriate environments for learning.
    Mr. Chairman, you may know that I spend a few weekends a year 
taking part in marathons and triathlons. We've done a great deal in our 
first year in charge of the schools, but I look at this work as just 
the warm-up. We have much, much further to go.
    Chairman Miller, Ranking Member McKeon, and other members of the 
Committee, I want to thank you for your support and for your interest 
in urban education. I look forward to working together to ensure a 
prosperous future for generations of District of Columbia students.
    This concludes my prepared remarks, and I'm happy to answer any 
questions.
                                 ______
                                 
    Chairman Miller. Thank you.
    Ms. Rhee?

 STATEMENT OF MICHELLE RHEE, CHANCELLOR, DISTRICT OF COLUMBIA 
                         PUBLIC SCHOOLS

    Ms. Rhee. Thank you.
    Good afternoon, Chairman Miller, Ranking Member McKeon, and 
members of the committee.
    I am honored to testify today about mayoral governance and 
closing the achievement gap. Considering the great challenges 
of D.C. Public Schools, we are fortunate to be the new kids on 
the mayoral governance block, and I am grateful to the leaders 
in New York and Chicago who have created incredibly strong 
models for mayoral governance. We have already been able to 
apply their lessons for reform to the unique needs and promise 
of Washington, D.C.
    I have been proud to work with urban public school systems 
across the country for the last 15 years and for 1 year now as 
the chancellor of the D.C. Public Schools. Last summer, I 
entered a system that showed a 70 percentage point gap in 
achievement between our core minority students and our 
wealthier white students. We are the only district in the 
country on high-risk status with the Department of Education, 
and only 9 percent of our entering freshmen class graduate from 
college within 5 years.
    I entered a system in which one-third of our schools had 
proficiency rates lower than 20 percent in either reading or 
math. In other words, four out of five students in those 
schools, or about 14,000 children, were not even meeting the 
most basic levels of proficiency. In a district that is 81 
percent African-American, this is one of the greatest 
institutionalized injustices imaginable.
    The old ways of addressing this longstanding injustice have 
not been working. No matter how difficult, the solutions to 
these problems must be radical and unprecedented.
    Many have asked me why, considering the severe dysfunction 
of the system, I would take on such a challenge. In fact, when 
Mayor Fenty first asked me about the possibility of my 
appointment as chancellor, I declined. But it was not for the 
reasons that you might expect.
    I have met enough students in this district to know that 
their proficiency levels do not reflect their ability. I know 
firsthand from speaking and working with students that our poor 
and minority kids have the aptitude that rivals anyone. Rather, 
I knew that I would not be able to create a system that was 
strong and just if I had to bow to the adult and political 
priorities that have prevented progress for children for years. 
I was not willing to lead a system that asked children to wait 
another patient moment while adult priorities and timelines 
diminished students' life outcomes.
    When I raised this concern with the mayor, his response was 
clear and immediate. Education was his first and highest 
priority. He would back our students every step of the way, mo 
matter what the political cost. I knew I was talking to someone 
who knew that the health and vitality of the city was dependent 
on the quality of education it delivered to its children, whose 
skills would be critical for driving the city's progress in 
future years.
    Now, after 1 year as chancellor under the mayoral 
governance structure, I see even more clearly that it takes 
tremendous courage to stand by this kind of commitment. The 
deepest and most far-reaching results will be seen long after a 
leader has left office. With this in mind, placing self-
interest and preservation behind student needs may be the most 
difficult and human challenge of every publicly elected 
official. But to truly honor the letter and spirit of Brown vs. 
Board of Education, it is absolutely necessary.
    I can unequivocally say that without mayoral governance and 
without a mayor who is willing to prioritize educational reform 
no matter how muddy the political waters become, we would not 
have been able to achieve what we have in the past year in D.C. 
Public Schools.
    For years in school districts across the country, school 
boards, sometimes led by principled and competent officials, 
have had difficulty making deep reforms that have equalized 
education. They are bound by the political tug-of-wars that 
block swift action.
    Many superintendents have similar ideas to mine regarding 
school policy and education reform. In most cases, they know 
the same best practices that I do and they know the research 
that tells us what will be most effective, and they also know 
that they would apply these practices to meet their own 
district's needs. But they do not have the adequate authority 
to assess their students' needs and take action to meet those 
needs.
    They spend much of their time jockeying with school boards 
who are as bound to politics as they are to the interests of 
children. Despite good intentions and the hard work of 
competent professionals over the years, this structure is one 
of the reasons that 54 years after desegregation we still 
struggle to achieve justice in education.
    What is it about this governance structure that can enable 
us to change the tide?
    First, unlike most superintendents, I report to a boss who 
knocks the barriers out of the way. He runs political 
interference when necessary and has not flinched once in 
supporting a decision that I felt was in the best interests of 
kids. Under mayoral governance, I believe we can finally 
reverse the longstanding failures of urban public education. In 
many ways, D.C. is a microcosm of urban public education 
systems across the country. As our most pressing challenges 
exist on a national level, reform here can be used as a model 
across the country.
    Second, one of the most striking challenges we face in 
Washington, D.C., and in other urban districts is the complete 
and utter lack of accountability. This year, I met students who 
appealed to me about teachers who did not show up to class. On 
one occasion, one of my staff members took a call from a 
teacher who had applied to teach summer school. After 20 
minutes of conversation, the teacher told my staff member, 
``Hold on. I have to go dismiss my kids.'' And he knew at the 
time of this phone that he was talking to a member of the 
chancellor's staff.
    In another example in the fall, I learned that one of our 
employees had failed to fill out one form for a special 
education child, and for another child, had failed to conduct a 
meeting. Her mistakes resulted in a half-a-million dollar cost 
to the system when by law we had to provide those students with 
private placements.
    I called that employee into my office to ask her what had 
happened. I said, you know, ``Tell me a little bit about why, 
because you failed to fill out the form for one child and you 
failed to have a meeting for another child, you cost this 
district a half-a-million dollars,'' and she replied to me, 
``You need to understand that I have a very difficult job, I 
have too much to do, and sometimes things are going to fall 
through the cracks.''
    I replied to her, ``Well, no, you need to understand that 
if you are going to have this job, you have to take personal 
responsibility for ensuring that everything within your job 
purview gets done and gets done well. If you are going to take 
the paycheck home every 2 weeks, you have to take that on.'' 
And she looked at me very puzzled, and she said, ``Well, that 
is not very fair.''
    So this is the kind of culture that we were actually 
dealing with in the public schools, and, at that time, I did 
not have the authority to make this employee and others 
accountable for meeting their job responsibilities. As a 
result, the mayor and I lobbied for a change in the law that 
would allow us to convert central office school district 
employees into at-will employees. With the support of the D.C. 
City Council, we became better able to ensure that our central 
office employees are now working within the best interest of 
students.
    Also this year, we created a new performance evaluation 
system because many employees who had been with DCPS for years 
had never formally been evaluated. Already the combination of 
these two actions has begun to change the culture to one of 
accountability and professional striving.
    Third, like many other school districts, DCPS has 
historically had a culture driven more by politics and adult 
concerns than by the needs of children. This tension is 
especially clear during the discussions of school closings and 
consolidations.
    In D.C., the previous superintendent, after an extensive 
period of community engagement, released a Master Education 
Plan in which multiple collaborators concluded that due to 
underenrollment, it was necessary to close schools. The 
community agreed that it would save the system millions of 
dollars that could be redirected towards classrooms.
    Yet even for schools that are not performing at high 
levels, few families wanted their schools to close, and because 
elected officials must often serve their constituents in their 
particular ward, even in cities led by mayoral governance, a 
debate ensues in which everyone agrees that schools must close, 
but few politicians want to close schools in their own 
jurisdictions.
    Fortunately, with the backing of our mayor, we were able to 
address this underenrollment by effectively closing 23 schools 
in the District and redirecting those resources for next school 
year. Next year, for the first time in the history of 
Washington, D.C. Public Schools, every single school in the 
District will have a librarian, a music teacher, an art 
teacher, and a physical education teacher.
    In the years to come, I am confident that we can turn our 
children's potential into achievement. Due to much hard work in 
our schools this year, and with greater authority to act on and 
build upon the strong foundations built by those before me, our 
achievement gap between African-American and Caucasian students 
in 1 year has decreased by 6 points in reading and 5 points in 
math. The gap between Hispanic and Caucasian students has 
decreased 8 points in reading and 7 in math. And in one school, 
Lafayette Elementary, we have decreased the achievement gap 
between African-American and Caucasian students by 19 
percentage points.
    In the year before I became chancellor, 52 schools had 
raised their math and reading scores over the course of 1 year. 
Considering the significant systemic challenges that we saw, 
when we set our performance goals, we really wanted just to see 
a movement in that number of plus 57. We actually increased it 
to 99 this past year. One hundred and seventeen of our schools 
have increased their math scores, and 110 have increased their 
reading scores.
    The number of schools with proficiency rates below 20 
percent has been cut almost in half, decreasing from 50 to 29. 
Some schools have even doubled or tripled their average reading 
and math scores. While we still have significant challenges 
ahead, this kind of growth shows promise for the reforms that 
mayoral governance has enabled.
    To further these gains and decrease the achievement gap, we 
must continue to increase the level of accountability for 
everyone in the system, including teachers. There is no other 
profession that simultaneously requires the most competent and 
innovative professionals and at the same time can discourage 
these professionals from bringing their gifts to our kids.
    We must be able to significantly reward teachers who are 
successful and to exit those teachers who, even with the 
correct supports, are unable to increase student achievement 
and academic growth. We can do this by working closely with our 
teachers' union officials to create the contracts that will 
support these goals.
    When we consider the difficulty of what we were asking 
teachers to do and the consequences to our students if we do 
not do those, it actually puzzled me that the issue of 
rewarding teachers for their success rather than seniority is a 
controversial one. Quality teachers in urban districts 
successfully raise academic achievement results in the face of 
poverty, violence, high rates of AIDS and other STDs, low 
expectations, obesity, teen pregnancy, and other issues that 
enter our schools with our children. We should not be afraid to 
reward those who meet the very high demands we place upon them. 
Without investing in our teachers by rewarding them in a 
tangible, meaningful way, we make it very difficult for 
districts like ours to attract and retain the best teachers who 
can close the achievement gap.
    We have seen through the years that desegregation has not 
been enough to bring the racial justice to education that we 
need. It has not yet become the great equalizer that Horace 
Mann intended public education to be. As we work to become what 
he envisioned for public education in this country, this year, 
we are introducing the most dramatic and rapid changes this 
system has seen since the desegregation of our schools.
    If there has been one complaint that I have heard most 
frequently since I started, it is that we are moving too 
quickly. But our children have been waiting since long before 
1954 for a just, challenging, and equal public education 
system. With mayoral governance under a mayor who is willing to 
make the education of the district's young people the number 
one priority, we can create accountability in systems that have 
not seen it before, we can support principals and teachers in 
setting high expectations for students, and we can ensure that 
we have the tools to meet those expectations. In D.C. and 
across the country, we can deliver high-quality public 
education to students that is theirs by right.
    Thank you for your support, for your commitment to closing 
the achievement gap in D.C. and across the country, and I am 
happy to answer your questions.
    [The statement of Ms. Rhee follows:]

 Prepared Statement of Michelle Rhee, Chancellor, District of Columbia 
                             Public Schools

    Good afternoon, Chairman Miller, Ranking Member McKeon and members 
of the Committee. I am honored to testify today about mayoral 
governance and closing the achievement gap. Considering the great 
challenges of DC Public Schools, we are fortunate to be the `new kids' 
on the mayoral governance block. I am grateful to the leaders in New 
York and Chicago who have created strong models for mayoral governance. 
We have already been able to apply their lessons for reform to the 
unique needs and promise of Washington, DC.
    I have been proud to work with urban public school systems across 
the country for the past 15 years, and for one year as chancellor of 
the District of Columbia Public Schools. Last summer I entered a system 
that showed a 70% achievement gap in some of our schools. We are the 
only district in `high risk' status with the Department of Education, 
and only 9% of our entering freshmen graduate from college within 9 
years of beginning high school. I entered a system in which one-third 
of our schools have proficiency rates below 20% in either reading or 
math. In other words, four out of five students in those schools--about 
14,000 children--were not even meeting the most basic level of 
proficiency. In a district that is 81 % African-American, this is one 
of the greatest institutionalized injustices imaginable. The old ways 
of addressing this long-standing injustice have not been working. No 
matter how difficult, the solutions to this problem must be radical and 
unprecedented.
    Many have asked me why, considering the severe dysfunction of the 
system, I would take on such a challenge. In fact, when Mayor Fenty 
first raised the possibility of my appointment as chancellor, I 
declined; but it was not for the reasons you might expect. I have met 
enough students to know that their proficiency levels do not reflect 
their ability. I know first-hand from speaking and working with 
students that our poor and minority students have aptitude that rivals 
anyone. Rather, I knew that I would not be able to create a system that 
was strong and just if I had to bow to the adult and political 
priorities that have prevented progress for children for years. I was 
not willing to lead a system that asked children to wait another 
patient minute while adult priorities and timelines diminished 
students' life chances. When I raised this concern with the mayor, his 
response was clear and immediate. Education was his first and highest 
priority. He would back our students every step of the way, whatever 
the political cost. I knew I was talking to someone who knew that the 
health and vitality of a city depends upon the quality of education it 
delivers to its children, whose skills will be critical for driving the 
city's progress in future years.
    Now, after one year as chancellor under a mayoral governance 
structure, I see even more clearly that it takes enormous courage to 
stand by this commitment. The deepest and most far-reaching results 
will be seen long after a leader has left office. With this in mind, 
placing self-interest and preservation behind students' needs may be 
the most difficult and human challenge of every publicly elected 
official. But to truly honor the letter and spirit of Brown vs. the 
Board of Education, it is absolutely necessary. I can unequivocally say 
that without mayoral governance, and without a mayor who is willing to 
prioritize educational reform no matter how muddy the political waters 
become, we would not have been able to achieve what we have achieved in 
DCPS this year.
    For years in school districts across the country, school boards led 
by principled and competent officials have had difficulty making deep 
reforms that have equalized education. They are bound by the political 
tug-of-wars that block swift action. Many superintendents have ideas 
similar to mine regarding school policy and education reform. In most 
cases they know the same best practices that research tells us will be 
most effective, and they know how they would apply these practices to 
meet their own district's needs. But they do not have adequate 
authority to assess their students' needs and take action to meet those 
needs. They spend much of their time jockeying with school boards who 
are as bound to politics as they are to the needs of children. Despite 
good intentions and the hard work of competent professionals over the 
years, this structure is one of the reasons that 54 years after 
desegregation we still struggle to achieve justice in education.
    What is it about this governance structure that can enable us to 
change the tide? First, unlike many other superintendents, I report to 
a boss who knocks barriers out of the way. He runs political 
interference when necessary and has not flinched once in supporting a 
decision I felt was best for students. Under mayoral governance I 
believe we can finally reverse long-standing failures of urban public 
education. In many ways DC is a microcosm of urban public education 
systems across the country: as our most pressing challenges exist on a 
national level, reform here can be used as a model for the country.
    Second, one of the most striking challenges we face in DCPS and in 
other urban districts is an utter lack of accountability. This year I 
met students who appealed to me about teachers who did not show up to 
class. On another occasion, one of my staff members took a call from a 
teacher who had applied to teach summer school. After 20 minutes of 
conversation he told my staff member, ``Hold on, I have to dismiss my 
class.'' This was a person who knew he was talking to someone in the 
chancellor's office.
    In another example, in the fall I learned that an employee had 
failed to fill out a form for one of our special education students, 
and to conduct a meeting with another. Her mistakes resulted in a half-
million dollar cost to the system when by law the students had to 
receive private placements. I called in the employee and asked her what 
happened. She told me ``You need to understand. I'm a very busy person. 
Sometimes things fall through the cracks.'' I explained that this 
student's placement was under her job responsibility, and that if she 
did not feel up to these responsibilities then she may want to consider 
another job. She responded that this was ``not fair.'' At the time I 
did not have the authority to make this employee and others, 
accountable for meeting their job responsibilities.
    As a result, we lobbied for a change in the law that would convert 
central office employees to `at-will' status. With the support of the 
DC Council we became better able to ensure that our central office 
employees are working in the best interest of students. Also this year, 
we created a new performance evaluation system. Many employees had been 
with DCPS for years and had never been formally evaluated. Already the 
combination of these two actions has begun to change the culture to one 
of accountability and professional striving.
    Third, like many other school districts, DCPS also has historically 
had a culture driven more by politics and adult concerns than by the 
needs of children. This tension is especially clear during discussions 
of school closings and consolidations. In DCPS, the previous 
superintendent--after an extensive period of community engagement--
released a Master Education Plan, in which multiple collaborators 
concluded that due to under-enrollment, it was necessary to close 
schools. The community agreed that it would save the system millions of 
dollars that could be redirected to classrooms. Yet even for schools 
that are not performing at high levels, few families want their schools 
to close. Because elected officials must serve the constituents in 
their particular wards, even in cities led by mayoral governance a 
debate ensues in which everyone agrees that schools must close but few 
politicians want any schools to close in their own wards. Fortunately, 
with the backing of the mayor we were able to address under-enrollment 
effectively by closing 23 schools and re-directing resources to schools 
for next year. The mayoral governance structure has allowed us--for the 
first time--to bring a librarian, teacher, music teacher, psychologist, 
and physical education teacher to all schools that need them.
    In the years to come, I am confident that we can turn our 
children's potential into achievement. Due to much hard work in our 
schools this year, and with greater authority to act on and build upon 
the strong foundations built by those before me, our achievement gap 
between African American and Caucasian students has decreased over the 
past year by 6 points in reading and 5 points in math. The gap between 
Hispanic and Caucasian students has decreased by 8 points in reading 
and 7 in math. One school, Lafayette Elementary School, has decreased 
its achievement gap between African American and Caucasian students by 
19 percentage points. In the year before I began as chancellor, 52 
schools had raised both their math and reading scores over the course 
of one year. Considering the significant systemic challenges we saw, 
when we set our performance goals we projected that as a district 
students could move that number to 57 for the next year. They moved it 
to 99. 117 of our schools have increased their math scores and 110 have 
increased their reading scores. The number of schools with proficiency 
rates below 20% has been almost cut in half, decreasing from 50 to 29. 
Some schools have even doubled or tripled their average reading and 
math scores. While we still have significant challenges ahead, this 
kind of growth shows promise for the reforms mayoral governance has 
enabled.
    To further these gains and decrease the achievement gap, we must 
continue to increase the level of accountability for everyone in the 
system, including teachers. There is no other profession that 
simultaneously requires the most competent and innovative professionals 
and at the same time can discourage them from bringing their gifts to 
our students. We must be able to significantly reward teachers who are 
successful and to exit those who, even with the right supports, are 
unable to increase their students' academic growth. We can do this by 
working closely with union leaders to create the contracts that will 
support these goals. When we consider the difficulty of what we are 
asking teachers to do and the consequences to our children and cities 
for not doing it well, it puzzles me that the issue of rewarding 
teachers for success rather than seniority, is a controversial one. 
Quality teachers in urban districts successfully raise student 
achievement levels even in the face of poverty, violence, high rates of 
AIDS and other STDs, low expectations, obesity, teen pregnancy, and 
other issues that enter our schools with our children. We should not be 
afraid to reward those who meet the very high demands we must place 
upon them. Without investing in our teachers by rewarding them in a 
tangible, meaningful way, we make it very difficult to attract and 
retain the teachers who can close the achievement gap.
    We have seen through the years that desegregation was not enough to 
bring racial justice to education, which has not yet become the `great 
equalizer' that Horace Mann intended public education to be. As we work 
to become what he envisioned for public education in this country, this 
year we are introducing the most dramatic and rapid changes this system 
has seen since the desegregation of our schools. If there has been one 
challenge I have heard most frequently since I accepted this challenge, 
it has been that we are moving too quickly. But our students have been 
waiting since long before 1954 for a just, challenging, and equal 
system of public education. With mayoral governance under a mayor who 
is willing to make the education of a district's young people the 
number one priority, we can create accountability in systems that have 
not seen it before. We can support principals and teachers in setting 
high expectations for students and we can ensure that they have the 
tools to meet those expectations. In DC and across the country, we can 
deliver the public education to students that is theirs by right.
    Thank you for your support and for your commitment to closing the 
achievement gap in DC and across the country. I am happy to answer your 
questions.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mayor Bloomberg?

STATEMENT OF HON. MICHAEL R. BLOOMBERG, MAYOR, CITY OF NEW YORK

    Mr. Bloomberg. Chairman Miller, Ranking Member McKeon, 
ladies and gentlemen, thank you for convening this hearing on 
urban education reform. There is nothing that you will ever do 
in your lives that is as important as what you are trying to do 
here.
    I just wanted to say as an aside that you have just seen a 
demonstration of the brilliance of Mayor Fenty who had the good 
common sense, as I hope I did, of appointing a chancellor that 
is smarter than we are and supporting them. That is what is 
happening across this country. There are a lot of bright, young 
people. That is the nicest thing I have ever said about you----
    [Laughter.]
    [off mike] I know you are not talking about me.
    Mr. Bloomberg. We all know what has to be done. What we 
have to do is find ways to do it.
    Chairman Miller was in New York last winter. We did an 
event together. And I just wanted to thank him for playing an 
important role in the No Child Left Behind Act, which has 
brought accountability to public schools from coast to coast. 
It is hardly a perfect piece of legislation, but I think, in 
all fairness, Congress and the President and you in particular, 
sir, deserve credit for at least trying to address one of the 
issues that has not been faced in this country basically since 
public schools were founded.
    And you are working towards authorizing a new and improved 
Act, and I think anything that we can do to help you, we will 
be there.
    We have to focus on the achievement gap that Michelle and 
Mayor Fenty talked about between different races, different 
ethnicities, and if you take a look, it is between different 
economic groups because we tend to talk about minorities, but 
there are plenty of districts in this country where you see 
poor whites that have exactly the same gap between their 
performance and wealthier communities.
    Our country is built on the principle that all those 
willing to work have a shot at success, and, in fact, if you 
take a look at our poverty measures, the new programs we are 
trying, what we are trying to do is to find those people who 
set their alarm clock and punch the time clock, but still 
cannot share in the great American dream.
    What we have to do is to give our children the wherewithal 
to, when they get to that stage, be able to earn a living and 
have the dignity of a job and be responsible for themselves and 
their families, and they cannot do that unless we here find 
ways to reduce this terrible gap that undermines that.
    Today in America, black and Hispanic 12th graders are 
reading at the same level as white eighth graders on average. 
Just think about that. It is a disgrace, and, unfortunately, 
there are too many people who are willing to accept the 
achievement gap as the inevitable result of social and economic 
factors that are out of the schools' control.
    We can have a debate about the history of this country and 
we can look for excuses or we can look forward and try to do 
something about it, and in New York City where more than 70 
percent of our 1.1 million public schoolchildren are black and 
Hispanic, we have chosen to not sit back. We have chosen to not 
look for explanations as to why it exists. Our focus has been 
on going forward.
    And over the last 6 years, where we have had a chancellor 
who has set a record as perhaps the longest-serving chancellor 
in our school system--and Dr. Hall can tell you in Atlanta one 
of the reasons that she has been successful is that she has had 
the time in office to really effect change and found ways to 
overcome the politics that constantly create this revolving 
door of management in our school systems which keep anybody 
from being able to succeed--we have done everything possible to 
reduce our achievement gap, and we have in some cases by as 
much as half.
    But to make great progress, we need to zero in on two areas 
that go to the heart of improving No Child Life Behind and that 
have been key to turning New York City schools around. One is 
people, and two is accountability. And now bear with me for a 
couple of minutes, and I would just like to focus on those.
    First, people: Studies have shown that if our best teachers 
taught our lowest-performing students, we would close the 
achievement gap to zero within 5 years, and by the best 
teachers, I mean those that have a proven track record of 
helping children to learn. Michelle mentioned it, but far too 
much emphasis is placed on seniority or academic credentials 
when what we should really be doing is looking at teachers' 
effectiveness, and that is what we are trying to do in New York 
City.
    First, we showed our teachers just how much we value their 
important work by raising their salaries over the last 6 years 
by 43 percent in over three contracts. In return for the 43 
percent, our teachers now teach longer days, more days in the 
year, give the principals more flexibility. Everybody has been 
a big winner.
    And when I came into office, we could not replace the 
12,000 teachers that quit or retired every year with certified 
teachers. Today, the number of teachers on a base of $80,000 
that quit or retire each year is down to 5,000, and we have 
between 50,000 and 60,000 teachers from across the country 
applying to get a job in the New York City Public School 
system, something that Joel Klein should be very proud of, but, 
most importantly, our children are the beneficiaries of it.
    Higher salaries will also help us attract a new group of 
bright, young graduates who might otherwise opt for jobs in 
other fields or in teaching in other locations.
    Second, we have improved the tenure process so that tenure 
becomes a meaningful decision based on student learning rather 
than a foregone conclusion. Sadly, our state legislature has 
hamstrung us a little bit, but the bottom line is if you want 
to teach in New York City public schools and you want to have a 
job for life, you have to earn it and show that if we are going 
to give you teaching tenure, then you have to teach.
    Third, we have created financial incentives to encourage 
the most effective teachers and principals to choose work in 
the schools that need them the most. You can earn extra money 
if you go to those schools where the pedagogical problems are 
the most severe. You can earn extra money if you have the skill 
sets that are in short supply. The private world works that 
way. The only place I know that does not work that way is in 
the educational system throughout this country.
    Finally, we have reached breakthrough agreements with both 
our principals' union and our teachers' union to establish pay-
for-performance bonuses, an idea that teachers' unions have 
traditionally opposed and opposed vehemently. But by 
structuring our pay-for-performance program in ways that puts 
the decisions in the hands of teachers and principals, we won 
support from the head of the local teachers' union, Randi 
Weingarten.
    You may know that Randi is now the president of the 
national AFT, and I think that is a good thing because her 
willingness to experiment could result in more school districts 
opting for pay-for-performance programs.
    It is very easy to blame the teachers' unions across the 
country, and I am certainly not going to let them off the hook, 
but we are responsible as well as they are. Having said that, 
we can change, and so can they, and if we work together, I 
think we have shown in New York that teachers' unions can be a 
force for progress and do not necessarily have to be the 
impediment to that progress.
    Now pay for performance leads us to the second key to 
closing the achievement gap, and that is accountability. In New 
York City, we have established data-driven progress reports 
that give every school a grade every year. We send them out to 
every public school parent. It was an idea that, when Joel 
announced it, people were shocked. They said, ``What happens if 
a school gets an F and the parent is told that their child is 
going to a school that is rated very low? Won't the parent 
scream?'' Yes, that is exactly what we want. We want the 
parents, we want the teachers, we want the students to say, 
``That is not acceptable.''
    Our schools' letter grade is a progress report determined 
by many different factors including its success in narrowing 
the achievement gap, and these are progress reports in the 
truest sense of the word because we do not measure how many 
kids at a given school are proficient. We also measure 
something that we care much more about, and that that is year-
to-year progress.
    We have some schools--Stuyvesant is the one people talk 
about--where a very large number of those kids are going to be 
Nobel prizewinners, Rhodes scholars, scientists, and leaders. 
We also have plenty of schools where kids do not have the 
skills to get a job working in the most menial labor-intensive 
tasks in our city, and we have to do something about both. So 
we are concerned about progress as opposed to just taking a 
look at the status quo.
    Based on the data we are collecting, there are now rewards 
for success in our schools and consequences for failure. If a 
school continuously fails its students, we will shut it down, 
and if a teacher continuously fails his or her students, we 
will work to give principals the tools to remove that teacher 
from the classroom.
    Unfortunately, that has not been very easy to do in New 
York or in many other cities because of inflexible contracts 
with the teachers, but I think that we have to come to 
understand we should be treating teachers like the 
professionals that they are and that means not only paying them 
as professionals, which we have tried to do, but holding them 
accountable as professionals. If you want to get paid more, you 
are going to have more responsibility and the consequences of 
failure are just going to be greater.
    And I think if everybody did that, that would go a long 
ways towards ensuring that we have top-quality teachers in 
high-needs schools, the single most important factor in closing 
the achievement gap. To do it, however, throughout this 
country, we do need federal leadership.
    And let me suggest one promising idea. Congress can use the 
power of the purse to withhold funds from districts that fail 
to take meaningful steps towards reform. Too often, I think, 
Congress, well meaning, votes money, but then does not have the 
procedures in place or perhaps the courage to stand up and say 
to the states and the cities and the districts that get federal 
money have a responsibility to perform or that money will not 
be there the next time around.
    Rewards for success and consequences for failures--that is 
how it works in the real world and the world that our students 
will enter when they finish school. I think too often we are 
coddling our children, we are trying to prevent them from 
facing the consequences of their actions when, if they make a 
mistake and we explain to them that they have made a mistake, 
they can fix it. When they get out into the real world, the 
consequences are much more serious, and nobody is going to give 
them a second chance.
    We have to do everything we can to prepare our students for 
that day and so that all of them, regardless of their skin 
color, regardless of their economic level, regardless of where 
they or their parents came from or where they live, really 
leave school with the ability to claim their piece of the great 
American dream.
    Mr. Chairman, Mr. Ranking Member, thank you.
    [The statement of Mr. Bloomberg follows:]

Prepared Statement of Hon. Michael R. Bloomberg, Mayor, the City of New 
                                  York

    Good morning. I want to thank Chairman Miller--whom we were pleased 
to welcome to New York last winter--and the members of this Committee 
for convening this hearing on Urban Education Reform. Chairman Miller 
played an important role in drafting the `No Child Left Behind' Act, 
which brought accountability to public schools from coast to coast. 
Now, in working towards authorizing a new and improved Act, this 
committee has rightly focused on one of the most pressing issues in 
public education: the achievement gap that exists among students of 
different races and ethnicities.
    Our country is built on the principle that all those willing to 
work hard have a shot at success. But the achievement gap undermines 
that. Today in America, Black and Hispanic 12th graders are reading at 
the same level as white 8th graders, and unfortunately, there are too 
many people who accept the achievement gap as an inevitable result of 
social and economic factors that are out of a school's control. In New 
York City--where more than 70% of our 1.1 million public school 
children are Black and Hispanic--that's not a conclusion we're willing 
to accept.
    That's why over the past six years, we've done everything possible 
to narrow the achievement gap--and we have. In some cases, we've 
reduced it by half. But to make even greater progress, we need to zero 
in on two areas that go to the heart of improving NCLB, and that have 
been key to turning around New York City schools: People and 
Accountability.
    First, people. Studies have shown that if our best teachers taught 
our lowest-performing students, we could close the achievement gap 
within five years. And by the best teachers, I mean those with a proven 
track record of helping children learn. Far too much emphasis is placed 
on seniority or academic credentials when what we really should be 
rewarding is effectiveness.
    That's exactly what we're doing in New York City. First, we showed 
our teachers just how much we value the important work they do by 
raising salaries across the board by 43%. Those higher salaries will 
also help us attract a new crop of bright graduates, who might 
otherwise have opted for jobs in other fields--or teaching jobs in 
other locations. Second, we've improved the tenure process so that 
tenure becomes a meaningful decision based on student learning rather 
than a foregone conclusion. Third, we've created financial incentives 
to encourage the most effective teachers and principals to choose to 
work in the schools that need them most. Finally, we reached 
breakthrough agreements with both the principals' union and the 
teachers' union to establish pay-for-performance bonuses--an idea that 
teachers' unions have traditionally opposed. But by structuring our 
pay-for-performance program in a way that puts the decisions in the 
hands of teachers and principals, we won support from the head of the 
local teacher's union, Randi Weingarten. As you may know, Randi is now 
the president of the national AFT, and I think that's a good thing, 
because her willingness to experiment could result in more school 
districts adopting pay-for-performance programs.
    Pay-for-performance leads us to the second key to closing the 
achievement gap: accountability. In New York City, we've established 
data-driven progress reports that give a letter grade to every single 
school, and we send them out to every public school parent. These are 
progress reports in the truest sense of the word, because they don't 
just measure how many kids at a given school are proficient, they also 
measure something we care about much more: year-to-year progress. A 
school's letter grade on its progress report is determined by many 
different factors--including its success in narrowing the achievement 
gap. Based on the data we're collecting, there are now rewards for 
success in our schools--and consequences for failure. If a school 
continuously fails its students, we will shut it down. And if a teacher 
continuously fails his or her students, we will work to give principals 
the tools to remove that teacher from the classroom.
    Unfortunately, this hasn't been very easy to do in New York--or in 
many other cities--because of inflexible union work rules. I believe we 
should be treating teachers like the professionals they are. And that 
means not only paying them as professionals, but also holding them 
accountable as professionals. That would go a long way toward ensuring 
we have top-quality teachers in high-needs schools--the single most 
important factor in closing the achievement gap. But to do it, we need 
federal leadership--and let me suggest one promising idea: Congress can 
use the power of the purse to withhold funds from districts that fail 
to take meaningful steps towards reform.
    Rewards for success and consequences for failure. That's how it 
works in the real world--the world that our students will enter when 
they finish school. We've got to do everything we can to prepare them 
for that day, so that all of them--regardless of skin color--leave 
school ready to claim their piece of the American Dream.''
                                 ______
                                 
    Chairman Miller. Thank you, Mr. Mayor.
    Chancellor Klein?

     STATEMENT OF JOEL I. KLEIN, CHANCELLOR, NEW YORK CITY 
                    DEPARTMENT OF EDUCATION

    Mr. Klein. Thank, Mr. Chairman, Mr. McKeon, members of the 
committee. It is a privilege to be back before you.
    Thank you, Ms. Clarke, for your generous introduction, but, 
more importantly, for your kind support and your constant 
vigilance on this issue.
    Mr. Chairman, I want to start with a point that I think is 
important because there are far too many people coming before 
this committee and in our nation today who are saying, ``Well, 
education really cannot do this,'' that to close the 
achievement gap, we have to look at a lot of other things. I 
agree we have to look at a lot of things, but I am here to tell 
you that education can, indeed, do this. The question is: Do we 
have the will as a people to get this work done?
    From the day I started this job, people told me, they said, 
``Joel, you will never fix education until you fix poverty.'' 
With all due respect, we will never fix poverty in this nation 
until we fix education, and we have to get on with the hard 
work of fixing education.
    How do I know it can be done? Because my colleagues across 
this table are doing it. Every one of them understands how much 
further they need to go, but every one of us also knows that we 
have seen it happen, that education can transform the lives of 
kids from the most dysfunctional, high poverty backgrounds. 
That is what is happening in New York City.
    This year, we won the Broad Prize as the best school 
district, and the feature of our success was closing the 
achievement gap. We did it. It is a multiple-year analysis, 100 
different urban districts. This year, in New York City, on 
grades three to eight exams, we went up as a city 7 points in 
English, 9 points in math. Our African-American and Latino 
students did twice as well as our white students in closing the 
achievement gap. Those gaps are not closed, but those gaps are 
closing.
    And I want to tell you a story because I think it is really 
powerful and puts the lie to those who say education cannot be 
the game-changer, and that is, under the mayor's leadership, we 
fought and we fought hard to make New York a charter-friendly 
city. We believe competition works. It works for the public 
schools. It gives options to our parents.
    You know what happened this year? We had some 8,000 charter 
students take those tests. Those 8,000 kids in New York City 
are over 90 percent African-American and Latino, and they are 
80 percent Title 1 high poverty students. That cohort, which is 
seen to be a ``hard-to-educate group,'' that cohort 
outperformed the State of New York, which is much, much more 
middle class, much, much less minority students. The fact of 
the matter is we can do this work.
    Now you asked a question, Mr. Chairman. What can the 
federal government do? The federal government, I think, is 
indispensible to showing the political will and muscle. Will it 
be easy? Of course not.
    Every one of us has spoken, talked about accountability, 
and the thing that made No Child most valuable is it put 
accountability into the DNA, and there are a lot of people that 
do not like accountability, and I can tell you, on days when I 
have had a bad day and I get a call from my colleague on the 
right over here and he tells me, ``Why did you screw that up?'' 
I am not so keen on accountability those days either. I can 
understand, but the truth of the matter is accountability is 
absolutely indispensable. Indeed, I would urge the federal 
government not to ratchet down, but to ratchet up 
accountability.
    The first time I ever heard that concept was from someone I 
think who will surprise you, the great labor leader Al Shanker, 
15 years ago at the Pew Forum. You know what he said when he 
talked about changing education? And I want to quote him. He 
said, ``The key is that unless there is accountability, we will 
never get the right system.'' ``Unless there is accountability, 
we will never get the right system.'' ``As long as there are no 
consequences if kids or adults do not perform''--if kids or 
adults do not perform--``as long as the discussion is not about 
education and student outcomes''--about student outcomes--
``then we are playing a game as to who has the power,'' and 
that is what Michelle was talking about, and as we talk about 
who has the power, our kids pay the price.
    Now I have two suggestions. Each one of them is something 
this committee has heard a lot about, but I think they are both 
important.
    We have to move to a growth model, and we have to move to 
the kind of robust growth model we have in New York City. You 
call the school failure or something. It diffuses public focus. 
Sure, when kids are in an F school in New York City, our 
parents scream. We actually give them the opportunity to 
transfer out. But if they do not scream, you do not create the 
political muscle for real change, and what is of greater shame 
than telling a parent that her kid is in an F school is not 
telling her and pretending it is not an F school, and I think 
we need to have an accountability system that is open, 
transparent, and known to every kid.
    Second of all--and I know this is hard, Mr. Chairman, but I 
know you are the man to get it done--we need national standards 
and national assessments. The kids in Idaho, the kids in 
California, the kids in New York are competing globally, and 
they are competing against countries that have national 
standards and rigorous assessments.
    A lot of people have knocked testing. I would be the first 
to tell you we can improve our testing, and one of the ways to 
do that is get the best minds in this country to study the 
global standards that are out there and bring to this nation an 
insistence on high-quality standards.
    You know, graduating high school is important, but, for 
many of our kids, they simply get a diploma. They do not get 
the skills necessary to finish college and compete in the 21st 
century, and believe you me our competitors throughout the 
world are focused on this issue, and for us to have 50 
different standards in all these different assessments and 
create all the problems with that is a huge mistake. Let's be 
tough. We owe it to our kids. We owe it to our nation.
    The second thing is invest, invest, invest in high-quality 
teachers, everything everyone is saying here. Do not diffuse 
federal funding. What is the biggest challenge? The recent 
ASPEN study pointed it out. The most important thing in a kid's 
education--we know it, you know it--is the quality of her 
teachers. As to that most important thing, that is where you 
close your achievement gap. Great teachers close achievement 
gaps. As to that most important thing, our poor kids, our 
minority kids, they are not getting remotely their equitable 
share.
    Where should the federal government play? It should play by 
incentivizing two things.
    Incentivize performance. Do not worry, as the mayor said, 
about all the qualifications, all right. I have met lawyers 
with the greatest degrees in the world. I would not let them 
handle a parking ticket for me. Incentivize. Incentivize 
performance. When Michelle Rhee taught in Baltimore, she moved 
her kids to an entirely different level. She does the work she 
does now because she knows what success with kids is all about. 
She does not make excuses. Those who do the kind of work she 
did, give them lots of financial reward. Those who do not have 
to exit the system.
    And, second, those who take on the toughest challenges, who 
in our city go to Central Brooklyn where Yvette is from, who go 
to Harlem, who go to South Bronx, the poorest congressional 
district in the nation, those people who take on the toughest 
challenges, they should be rewarded.
    Our principals in New York City--if they do that, we give 
them $25,000 a year if we think they are the top drawer, and 
for 3 years, they commit to turn around schools, and then there 
is another $25,000 that they can make if they have really good 
accountability system results.
    We can do this. It is not going to be easy. But I have to 
tell you the clock is ticking on us. I have been meeting with 
people throughout the world who come to New York to discuss 
what they are doing, and I will tell you people get it. It is 
time for us to get it.
    [The statement of Mr. Klein follows:]

    Prepared Statement of Joel I. Klein, Chancellor, New York City 
                        Department of Education

    Good morning Chairman Miller and members of the Committee on 
Education and Labor.
    Fifteen years ago, the iconic teacher's union leader, Al Shanker, 
made a point that we are still working to make real in American public 
schools.
    ``The key is that unless there is accountability, we will never get 
the right system,'' he said. ``As long as there are no consequences if 
kids or adults don't perform, as long as the discussion is not about 
education and student outcomes, then we're playing a game as to who has 
the power.''
    No Child Left Behind focused this nation on accountability. 
Chairman Miller, you and your colleagues deserve great praise for this. 
In New York City, we have refined accountability, giving schools and 
families tools to assess where students are and devise plans to improve 
and giving administrators the information necessary to ensure that 
schools are fulfilling their responsibilities to students.
    When the right people are held to high standards and expected to 
meet them, you see results.
    And that's what we've been seeing in New York City. We are getting 
results.
    Last September, we won the largest and most prestigious education 
award in the country, the Broad Prize for Urban Education, largely 
because of the progress we've made reducing the achievement gap.
    Since we started this work in 2002, our students have outpaced 
gains made by students in the rest of the State in math and reading--
and our African-American and Latino students have gained on their white 
and Asian peers.
    In fourth-grade math, for example, the gap separating our African-
American and white students has narrowed by more than 16 points. In 
eighth-grade math, African-American students have closed the gap with 
white students by almost 5 points. In fourth-grade reading, the gap 
between African-American and white students has narrowed by more than 6 
points. In eighth-grade reading, the gap has closed by about 4 points.
    Let's also look at our charter schools: the City's 60 charters 
serve a population that is more than 90% African-American and Latino 
and 80% poor, compared to 40% and 45%, respectively, in schools 
statewide.
    Yet charter students are head to head with students who, by 
anyone's prediction, would be much more likely to succeed. This year, 
about 85% of City charter students met State math standards, beating 
students statewide, and about 67% of City charter students met State 
reading standards, just shy of the statewide average.
    What does this show? Achievement for high-needs students is not a 
dream. It's happening. What we must do now is make this a reality for 
all students.
    We must make sure that as a country, the results we are seeing are 
meaningful in terms of our students' results. All schools--whether in 
New York or Kansas--must provide students with the same high-quality 
education and must be held to the same high standards.
    And we must track individual students over time, using a ``growth 
model,'' as we do in New York City. Comparing this year's fourth 
graders to next year's fourth graders as Federal law now requires does 
little to ensure that we're helping individual students advance.
    We must also not lose sight of the importance of our most important 
asset--our educators. Nationally, this means holding educators to high 
standards, and by that I mean student outcomes. That means making sure 
students, particularly those with the highest needs, have teachers who 
can produce results. Substantial Federal investment in pay 
differentials to attract the highest performing educators to the 
highest needs schools is critical. Similarly, substantial Federal 
financial support to attract successful math and science instructors to 
schools would help, and a major Federal commitment to reward teachers 
who get results would have a big impact.
    We know that we have much hard work ahead of us, but we are 
confident that we are on the right track and, with your help, we can 
get this done.
                                 ______
                                 
    Chairman Miller. Dr. Hall?

 STATEMENT OF BEVERLY L. HALL, SUPERINTENDENT, ATLANTA PUBLIC 
                            SCHOOLS

    Ms. Hall. Thank you, Chairman Miller, Ranking Member 
McKeon, and members of the committee.
    I have great respect for your work, and I have great 
respect for the work of my colleagues who join me here today.
    And thank you for giving me this opportunity to speak.
    We are clearly not here to declare victory. Nevertheless, 
seeing the academic gains that urban schools are making 
nationally is encouraging and, often, that is not heard enough.
    I invite everyone here, when you have an opportunity, to 
visit Atlanta public schools and see for yourself the tangible 
evidence of what I will be sharing today.
    First of all, I accepted the invitation to share with you 
the coming together of an entire community in Atlanta around a 
school system that was stagnant--stagnant--and is now being 
fixed. Atlanta has an elected school board. It is not under 
mayoral control.
    Since 2000, the district has posted academic gains every 
year with no slippage, even as the state continues to raise the 
bar, and our schools are closing dramatically the gaps with the 
state.
    Allow me to just give you four facts.
    Eight years ago, only 47 percent of our fourth graders met 
or exceeded standards in reading. We were trailing the state by 
18 points. Today, that gap has just about disappeared. Eighty-
six percent of our fourth graders meet or exceed standards, 
trailing the state now by 2 percentage points, and I am 
especially proud that 32 percent of those fourth graders are 
exceeding the state standard, and on this measure, they are 
actually leading the state.
    Again, the standards are much more rigorous than when I 
arrived there in 1999-2000.
    The other important factor is that Atlanta in 2006-2007 
made adequate yearly progress in every one of our elementary 
schools. The Council of the Great City Schools says they know 
of no other urban system that can make that claim. All of our 
elementary schools made adequate yearly progress.
    Graduation rates are up. Carver High School was our lowest-
performing high school that was left after I closed the two 
lowest, the two who were lower than Carver. The graduation rate 
tripled from 23 percent in 2003 to now 66 percent in 2007, and 
Carver has experienced a 50 percent increase in the number of 
neighborhood children enrolling.
    When I got to Atlanta, I realized that if we began to show 
these kinds of gains, people would question whether or not it 
was because of the tests, knowing that there is such disparity 
between and amongst all of the state tests, and so we 
volunteered to be a part of the 11 urban systems to participate 
in the Trial Urban District Assessment so that our success 
could be validated with the National Assessment of Educational 
Progress.
    And, by the way, I join my colleagues in really emphasizing 
that I, too, support national testing for all of our systems.
    However, it is important to note that on this Trial Urban 
District Assessment, Atlanta public schools was the only one of 
the 11 participating districts to demonstrate what is called 
significant improvement in all grades and subjects tested since 
2003. In writing, the most recent NAEP assessments show that 
Atlanta public schools have made gains at seven times the 
national rate.
    Now demographically Atlanta looks like all the other urban 
districts. Our student body is racially diverse. We are 91 
percent minority--84 percent black, 5 percent Hispanic, 9 
percent white, and 1 percent other. Seventy-six percent, or 
three in four of our students, are approved for free or reduced 
meals, which is 22 percentage points more than the State of 
Georgia as a whole, and the vast majority of Atlanta students 
really qualify for free lunch. That is 36,000 of our 50,000 
students living near or below the poverty line.
    Even with so many of our students facing challenging odds, 
each year, these academic gains have spread to more and more 
students in more and more grade levels, and the gains have 
spread from reading and mathematics to other subjects as well. 
When I got to Atlanta, you could predict by the geographical 
location of the school whether or not that school would be 
performing at a high level. Now that is clearly not the case. 
From north to south, east to west, we have schools that are 
performing across the board at very high levels.
    When I arrived, again, it was clear that the district 
needed total transformation like you hear being mentioned about 
Washington, D.C., and we have found that what works is a set of 
steps that are simple to describe, but complicated to implement 
in a system with so many constituents and so many moving parts.
    First, we have a powerful coalition of business and 
community leaders and parents who came together. They 
understood that comprehensive school reform was critical to 
Atlanta's revitalization and economic health. This coalition 
focused on recruiting quality candidates for the school board 
and supported the board and the superintendent and the schools. 
I was the fourth superintendent in 10 years, and having this 
coalition of supporters with a firm grasp of the work ahead was 
crucial in making my tenure stay stable enough to get the job 
done.
    This coalition also understood that, in the case of urban 
school district reform, patience really is a virtue. There are 
no quick fixes. Sustainable reform takes time, and at first, 
the rewards seem incremental. Eventually, however, they add up 
to dramatic improvement that is sustainable over time.
    Second--these are not ranked in order of importance, but 
for the purpose of presentation--we improved the quality of our 
staff, including those in the central office. You heard about 
the issues in Washington, D.C. That could be transferred to 
Atlanta as in many other urban areas. So we looked at improving 
the central office staff, our principals, and our teachers 
throughout hiring, through making it clear what expectations 
were, by using meaningful evaluations linked to student 
outcomes, and continuous professional development. We have, 
indeed, replaced 89 percent of Atlanta's principals since 1999.
    Third, we created a tailored accountability target for each 
school and based my annual evaluation and those of the 
principals and staff on meeting those targets.
    And, by the way, we began this before No Child Left Behind.
    These targets focus not just on increasing the percent of 
students that meets the standard, but also the percent that 
exceeds them because we know for our students to go on to be 
successful, particularly in post-secondary options, they must 
exceed the minimum standards that are set by the state.
    And, most importantly, at schools that meet 70 percent or 
more of their target, the entire staff from the bus driver to 
the custodian to the teacher to the principal all receive 
additional compensation.
    Fourth, we implemented comprehensive research-based reforms 
districtwide, focusing on, of course, job-embedded professional 
development, utilizing, through Title 2 funding and other 
supports, coaching. We have model teacher leaders and lots of 
mentors in our schools so that we can, indeed, change the 
practice where it is most important, where the rubber meets the 
road, between the teacher and the students.
    And, fifth, we continuously evaluate and refine our 
programs, based on the results that we are getting as well as 
feedback that we consistently seek from central office, 
principals, teachers, and students.
    The Atlanta public schools are still climbing the tough 
path to total transformation, but with the achievement gaps 
narrowing and the strong support of the community, we actually 
believe now that that goal is in sight.
    And so, Mr. Chairman and members of the committee, I thank 
you, again, for the opportunity to share Atlanta's story with 
you, and I will be pleased to respond to specific questions 
that you might have.
    [The statement of Ms. Hall follows:]

 Prepared Statement of Beverly L. Hall, Superintendent, Atlanta Public 
                                Schools

    Atlanta Public Schools is one of 35 school districts serving the 
metro area. Although the City of Atlanta's population has remained 
relatively static, declining birth rates in the city have lowered 
enrollment from about 60,000 students during the mid-1990s to our 
current level of 50,000 students.
    The racial make-up of our student body is relatively stable at 84 
percent black, 9 percent white, 5 percent Hispanic and 1 percent other. 
Three in four of our students are approved for free or reduced-price 
meals, and of these, 94 percent receive free meals--that's roughly 
36,000 of our 50,000 students living near or below the poverty line.
    The introduction of the Georgia Criterion-Referenced Competency 
Tests in 2000 gave us a needed, if depressing, baseline for student 
performance.
    <bullet> In grade 4, 47 percent of our students met or exceeded 
expectations in reading, compared with 65 percent statewide.
    <bullet> In grade 6, 40 percent of our students met or exceeded 
expectations in language arts, compared with 61 percent in the state.
    <bullet> In grade 8, 36 percent of our students met or exceeded 
expectations in mathematics, compared with 54 percent statewide.
    Atlanta Public Schools trailed the state by 14 or more points in 
every tested subject and grade level.
    Our students were also not performing as well as those in the state 
in writing. In 1999, Atlanta fifth- and eighth-graders trailed the 
statewide percentage of students who met or exceeded the standard on 
the state writing assessment, and two out of every three eighth-grade 
students did not meet expectations.
    Although graduation rates rose by 10 percentage points between 1996 
and 1999, by the end of 1999 a full 40 percent of those who had entered 
ninth-grade four years earlier did not receive diplomas.
What does APS look like today?
    Using our focus on instruction and student success, proven, 
research-based methods and an accountability system tailored to each 
school, more than eight years after initiating our comprehensive reform 
agenda, I am pleased to say that the transformation initiatives are 
paying off:
    <bullet> The district has demonstrated continued steady improvement 
as evidenced by increasing test scores over time. There has been no 
exception to this trend since 2000.
    <bullet> In 2008, APS students posted meaningful academic gains on 
the state assessments for the eighth consecutive year. In fact, our 
preliminary data suggest that in all grades and subjects tested last 
year, our students met or exceeded their 2007 performance.
    <bullet> The number of APS schools making Adequate Yearly Progress 
continues to increase. This year all 62 elementary schools, including 
our charter schools, met AYP for the first time in history. No other 
large urban school district can make that claim, according to the 
Council of Great City Schools. Venetian Hills Elementary, which was in 
Needs Improvement status in 2002, was named a 2007 ``Blue Ribbon'' 
school by the U.S. Department of Education--a total transformation.
    <bullet> Secretary Spellings recently called APS ``a model for the 
country,'' based on our students' performance on the 2007 National 
Assessment of Educational Progress. APS was the only one of the 11 
districts voluntarily participating in the Trial Urban District 
Assessment to demonstrate significant, consistent improvement in all 
grades and test areas since 2003. The most recent NAEP writing 
assessments show that Atlanta's scores have grown at seven times the 
national rate.
    <bullet> The local donor community stands behind me and my reform 
efforts.
    <bullet> Since 1999, I have implemented system-wide reform at each 
school level:
    <bullet> Elementary: APS maintained or closed the gap with the 
state on 28 of 30 comparable subject area assessments, and 100 percent 
of our elementary schools made Adequate Yearly Progress.
    <bullet> Middle school: Transformation of all middle schools is 
about to launch with a tailored strategic plan for each.
    <bullet> High school: by 2012, all APS high schools will be 
transformed into small, personalized learning environments focused on 
college and careers. Carver High School, now the four New Schools at 
Carver, has experienced a 50 percent increase in the number of 
neighborhood children enrolling, and the graduation rate has jumped 
from 23 percent in 2003 to 66 percent in 2007. The system's overall 
graduation rate is 68 percent which is comparable with the state and 
exceeds the national average of 50 percent for students of color. The 
number of students attending college in our Project GRAD target schools 
has increased by 400 percent.
How was this remarkable turnaround accomplished?
    The impetus for change came from the business community and the 
Atlanta Chamber of Commerce in the 1990s when, after realizing the 
direction in which the district was moving, and the negative impact it 
was having on economic development, they made a conscious effort to 
turn things around.
    First, a coalition of business and community leaders set out to 
improve the caliber of those running for school board. They did so by 
helping recruit candidates and holding seminars regarding effective 
boardsmanship.
    The second step was to hire a superintendent (for the 1999-00 
school year) who was reform-minded and had a sense of what needed to be 
done to turn things around.
    I made a comprehensive series of changes to reform the district, 
none of which can be discounted.
    1. Reorganized central office and revised central office job 
descriptions and annual staff evaluations in ways that signal (to the 
incumbents) that their major task is to support school-based staff in 
their efforts to improve the quality of teaching and learning.
    2. Incorporated the extent to which students perform at higher 
performance levels directly into central office staff and school-based 
staff annual evaluations, assuring that they all focus on this ultimate 
outcome.
    3. Did not tolerate the presence of chronically ineffective staff 
(at any level) who did not, or could not, benefit from professional 
development.
    4. Upgraded the quality of school principals through more effective 
recruiting, mentoring once they were hired, and through holding them 
accountable for the performance of their students. Those principals who 
were deemed not to be qualified were removed from those positions. 
Approximately 89 percent of our schools have gotten new principals 
since 1999.
    5. Required the development of a district-wide Strategic Plan, as 
well as individual School Achievement Plans, that required staff to 
specify how they were going to address system-wide initiatives. These 
plans also provided a roadmap by which supervisors could judge the 
progress of their staff and suggest program improvements.
    6. Established mechanisms for gathering input from central office 
staff, principals, teachers, and students regarding how the district 
was functioning and ways how it could be improved.
    7. Provided principals with the tools they needed to effectively 
monitor and adjust the quality of instruction in their schools.
    8. Provided schools with various forms of technology and taught 
staff how to use it to improve school efficiency and/or student 
learning.
    9. Set clear expectations for what constitutes ``best practices'' 
by teachers, and provided on-going training for teachers regarding how 
to meet those expectations at the highest levels.
    10. Improved the overall quality of teaching through aggressive 
recruiting techniques, and the use of alternatively prepared teachers 
like Teach for America corpsmembers.
    11. Upgraded the quality of classroom teaching by designing and 
implementing (on an on-going basis) targeted professional development
    12. Introduced a variety of specific program initiatives to give 
staff the necessary structure to help them address specific teaching 
and learning issues. These initiatives included the Comprehensive 
School Reform Models, Project GRAD, High School Learning Communities, 
etc.
    13. Conducted, on an on-going basis, special studies to respond to 
areas identified by data as problem areas. For example, data indicated 
weaknesses at the middle school level, the high school level and in 
science. Based on these analyses special program efforts were designed 
to address the weaknesses.
    14. Solicited, on an on-going basis, grants and other support from 
outside organizations to finance efforts that were beyond the funding 
that was raised locally.
    15. Provided public recognition (and bonuses) to staff in schools 
that were unusually effective.
    16. Taught staff at all levels (central office and in the schools) 
to access and use a wide variety of data for making resource allocation 
decisions, and for adjusting instruction for individual students.
    17. Enhanced security operations in the schools to assure the best 
possible environment for effective teaching and learning.
    18. Worked, in an on-going manner, with business, civic and parents 
groups to gain support for several tax levies that were used to enhance 
the reform efforts.
    19. Elevated the professionalism and quality of the school 
district's business functions in order to build and maintain the 
public's confidence in the district to wisely spend and account for 
public tax dollars.
    20. Improved the physical character of the schools, making them 
safer, more functional and more attractive.
    The Atlanta Public Schools hasn't claimed victory yet. We are still 
climbing the tough path to total transformation, but with achievement 
gaps melting away and the strong support of our community, our goal is 
in sight.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Duncan, one of the pioneers here.

  STATEMENT OF ARNE DUNCAN, CHIEF EXECUTIVE OFFICER, CHICAGO 
                         PUBLIC SCHOOLS

    Mr. Duncan. Thank you, Chairman Miller and members of the 
House Education and Labor Committee. Thank you so much for the 
opportunity to testify today on behalf of Chicago Public 
Schools.
    Let me also thank my good friend, Representative Danny 
Davis, for his longstanding commitment to public education and 
all of his hard work on our behalf. Thank you so much.
    I would further like to thank committee members Judy 
Biggert and Phil Hare for their bipartisan support and good 
common-sense approaches to education policy. Their work in this 
committee and devotion to promoting high standards, quality 
teachers, and viable school options has been a great benefit to 
me in Chicago.
    Our Chicago Public Schools serve over 400,000 children. 
Eighty-five percent of our children live below the poverty 
line, and 90 percent come from the minority community. All of 
them have potential.
    Tapping the great potential of underprivileged, inner-city 
children represents the greatest educational challenge and 
opportunity facing our country. In many ways, we are meeting 
this challenge, but we still have a long way to go and we must 
be relentless in challenging the status quo and courageous in 
staying the course.
    In Chicago, virtually every important indicator of progress 
is moving the right direction--test scores, attendance rates, 
and graduation rates. We are lucky enough to be on a winning 
streak.
    In 2001, less than 40 percent of our children met state 
standards. Today, almost two-thirds do, and more than two-
thirds of our eighth graders are at or above state standards.
    Over the last 5 years, our high school students have 
improved at twice the rate of the State of Illinois and three 
times the rate of the country on the ACT test that helps to 
determine college admission. More and more of our high school 
students are taking college-level classes, and more and more of 
them are doing well enough to receive college credit.
    On the national test comparing Chicago to other cities in 
NAEP that others have talked about, we have gone up 11 points 
since 2002 while the nation has gone up 3, so we are working 
hard to close the achievement.
    Hispanic students, who represent over a third of our 
population, scored the highest of any other big-city school 
district in the country, and so gains are being made among key 
subgroups as well.
    We began tracking college acceptance rates 3 years ago, and 
those numbers have risen every year. Today, over half our 
graduates go to college. One of the numbers I am most proud of 
is last year's. Our seniors' graduating class won $84 million 
in competitive grants and scholarships beyond the normal 
financial aid, and we are hoping for the class that just 
graduated that number will be over $100 million.
    This progress can be attributed to a few simple strategies 
that we have relentlessly pursued since the City of Chicago, 
under the leadership of Mayor Daley, assumed full control of 
the school system in 1995. I want to talk through five sort of 
core strategies that shaped our work.
    The first thing we did was to end social promotions, which 
is the shameless practice of passing children each year even 
though they are not ready and ultimately graduating them 
without the skills they need to succeed.
    Before the accountability and intervention measures of No 
Child Left Behind, Chicago took initiative to hold students 
accountable to annual state assessments, identified students in 
the most chronically failing schools, and to provide 
intervention services, including mandatory summer school, 
after-school programs, and alternative schools with smaller 
class sizes and extended-day programs.
    We got back to basics with our curriculum. We put great 
emphasis on literacy and placed hundreds of reading coaches 
into schools and created a daily requirement of 2 hours of 
reading every single day, every school, every grade, every 
child. We have since expanded this approach to math and 
physical science, and we are now looking at the social 
sciences.
    Third, we began opening a great new array of innovative 
schools through our Renaissance 2010 initiative. This fall, we 
will have about 75 charter schools operating amongst our 625 
schools in Chicago. We have many, many different approaches to 
education. Some are single-sex schools. We have many military 
academies. We want to open some residential schools in Chicago. 
Almost all of these new schools and charter schools are 
succeeding, and they all have waiting lists of parents eager to 
enroll their children in our system.
    I see myself as a portfolio manager. We need to continue to 
create more of what folks are looking for and we must continue 
to meet that demand that parents are asking for in terms of 
quality.
    More recently, we have become even more aggressive about 
opening new schools--we have 35 new schools opening this fall--
but also closing down schools that are failing. We are one of 
the few districts in the country that literally shut down 
underperforming schools and replaced the entire school staff.
    This turnaround school strategy has taken some of our 
lowest-performing schools and within just a couple of years 
doubled or tripled student performance--same children, same 
families, same socioeconomic challenges, same neighborhoods, 
same school buildings, but different teachers, new leadership, 
and a new educational approach--and the results are dramatic. 
As Chancellor Klein said, it puts the lie to any myth of what 
poor children can or cannot do.
    This is the kind of bold reform that simply would not be 
possible without the extraordinary support of Mayor Daley and 
other local elected officials. This is tough work. 
Superintendents across the country would love to have Chicago's 
governance structure because the buck stops with the mayor. He 
stands with us in challenging the status quo, pushing the 
envelope, and driving change.
    The fourth thing we have tried to do is to dramatically 
expand learning opportunities by investing heavily in 
preschool, after school, Saturday school, and summer school. 
The outmoded notion that school should only operate 5 days a 
week and 180 days per year makes no sense for any of our 
children, whether they come from two-parent working families, 
whether they come from single moms who are sometimes working 
one, two, even three jobs trying to make a living, or whether 
it is our 9,000 children who are homeless. All of our children 
need to be worked with as many hours as possible, and in an 
ideal world, every one of our children should be constructively 
engaged from birth to age 18 for as many hours as possible.
    Finally, our fifth and last major strategy involves raising 
the quality of principals and teachers, and this effort 
includes several important dimensions. As you have heard 
repeatedly this morning, in our world, talent matters 
tremendously, and nothing is more important than getting the 
best and brightest adults working with our children every 
single day.
    We have boosted the standards for principal selection and 
actually cut in half the number of people eligible to become 
principals and will challenge a new generation of school 
leaders to meet these higher standards. This past fall, we 
hired 171 new principals, creating a new generation of 
leadership in more than a quarter of our schools.
    At the same time, we are much more aggressively recruiting 
teachers, attracting more than 10 resumes now for every 
opening. A decade ago, we would have been lucky to receive two. 
As a recent independent report from the Illinois Education 
Research Council confirmed, the quality of teaching, even in 
hard-to-staff schools, is dramatically better today than it was 
a decade ago.
    Recruitment is critical, and we are very proud of those 
efforts, but retaining that great talent is probably even more 
important and is definitely a tougher challenge, and we will 
try to work equally hard in that area.
    In just 6 years, we have gone from 11 National Board 
Certified teachers to more than 860, and our goal is to get to 
2,400 National Board Certified teachers by the year 2011, and 
we track very closely the number of teachers leaving the 
system. The extent of the teachers leaving CBS after 3 years 
dropped from 36 percent in 2003 to 15 percent in 2007, so cut 
that in more than half, and we still have some hard work to do 
there.
    We recognize the need to continue to do a better job of 
retaining quality teachers in our lowest-performing schools. 
All new teachers get a mentor, and in particularly tough 
neighbors, about 300 teachers this year have worked more 
intensely with coaches from the Chicago New Teachers Center 
with plans to expand the two-year-old program to another 30 
schools.
    We must continue to think differently, not just about how 
we recruit and retain and support teachers, but how we 
compensate them, and thanks to the largest competitive grant we 
ever received, a $30 million federal Teacher Incentive Fund 
grant from the Department of Education, we have worked with our 
teachers' union to introduce the first pay-for-performance 
program in the history of Chicago Public Schools that offers 
bonuses to great teachers. In fact, the very first payments 
will be happening this summer based upon rising student 
achievements.
    Performance-based pay for teachers will be expanded from 10 
to 20 high-needs schools this fall, and there is tremendous 
demand amongst schools for this amongst the best teachers. For 
the initial pilot, we had over 120 schools apply, and we would 
only go to schools where 75 percent or more of the teachers 
wanted this. There is tremendous demand.
    Let me just conclude with a couple of ways in which we 
would love to continue to partner with the federal government. 
As others here have said, the No Child Left Behind Act with a 
focus on accountability was a huge step in the right direction. 
The focus on subgroups is a huge step in the right direction.
    But the one thing that was interesting is I think there is 
always this debate around what is loose and what is tight, and 
I want to echo my colleagues in saying that I think this part 
could really be improved, I think, fairly dramatically. It is 
pretty interesting. What was very loose was the goals that we 
were all shooting for. Fifty different bars do not make sense. 
What was tight was how you get there, and some of those things 
did not quite make sense, choice before tutoring and other 
things. I think, if we reversed that, if we were tight on the 
goals that hold us all to very clear standards, but were loose 
in how we got there and allowed creativity and economy at the 
local level to get to those standards, I think that would make 
a lot of sense.
    Secondly, I completely agree with Chancellor Klein, the 
focus on growth and gain, what we call value added, is so much 
more important than the absolute bar. Like other school 
systems, we have some of the best schools in the country, we 
have a lot in the middle, and, unfortunately, we also have some 
of the worst. I am not interested in what their absolute 
performance is. I am interested in how much better those 
schools are getting, how much better those students are doing 
each year. The only way to measure that is not by looking at 
absolute test scores. It is by looking at gains, by value 
added, and those growth models are so important.
    And then finally, continue to fund innovation. I know, 
Chairman Miller, you worked so hard on the Teacher Incentive 
Fund model. That is truly a cultural breakthrough for us in 
Chicago and other places. So continue to use, as the mayor 
said, the power of the purse to fund those things that really 
force us and push us to think outside the box and trying to 
dramatically change the life chances of our children.
    Thank you.
    [The statement of Mr. Duncan follows:]

  Prepared Statement of Arne Duncan, Chief Executive Officer, Chicago 
                             Public Schools

    Thank you for the opportunity to testify today on behalf of the 
Chicago Public Schools.
    Let me also thank Representative Danny Davis for his longstanding 
leadership on a myriad of policy issues from this committee that have 
benefited the Chicago Public Schools.
    I would further like to thank committee members Judy Biggert and 
Phil Hare for their bipartisan support and good commonsense approaches 
to education policy. Their work on this committee and devotion to 
promoting high standards, quality teachers, and viable school options 
too has benefited Chicago.
    Chicago Public Schools serve over 400,000 children. 85% percent of 
our children live below the poverty line. 90% are minorities. All of 
them have potential.
    Tapping the potential of underprivileged, inner-city children 
represents the greatest educational challenges facing our country.
    In many ways we are meeting this challenge. In many other ways we 
are still falling short.
    In Chicago, virtually every important indicator of progress is 
moving in the right direction: test scores, attendance, and graduation 
rates. We're on a winning streak.
    In 2001, less than 40 percent of our kids met state standards. 
Today, almost two thirds do and more than two-thirds of our 8th graders 
are at or above state standards.
    Our high school students are out-gaining the State of Illinois and 
the nation on the ACT test that is needed for admission to college.
    More and more of our high school students are taking college-level 
courses and more and more of them are testing well enough to earn 
college credits.
    On the national test comparing Chicago to other cities (NAEP) and 
to the nation--we've gone up 11 point since 2002 while the nation has 
gone up just 3, so we're closing the gap.
    Hispanic students scored the highest of any other big city school 
district on this test so gains are being made among key subgroups as 
well.
    We began tracking college acceptance rates three years ago and the 
numbers have risen every year. Today, over half of our graduates go to 
college.
    This progress can be attributed to a few simple strategies that we 
have relentlessly pursued since the City of Chicago--under the 
leadership of Mayor Richard Daley--assumed full control of the school 
system in 1995.
    The first thing we did was end social promotions--which is the 
shameless practice of passing children each year even though they are 
not ready--and ultimately graduating them without the skills they need 
to succeed.
    Before the accountability and intervention measures of NCLB, 
Chicago took the initiative to hold students accountable to annual 
state assessments, to identify students in the most chronically failing 
schools, and to provide intervention services including mandatory 
summer school, after school programs, alternative schools w/ smaller 
class sizes and extended day programs.
    We got back to basics with our curriculum, aligning it to the state 
academic standards all the way down to optional daily lesson plans. We 
put great emphasis on literacy with reading coaches in schools and a 
daily requirement of two hours of reading time--every school, every 
student, every grade, every day.
    We have since expanded this approach to math and physical science 
and now we are looking at the social sciences.
    We began opening new schools to offer more educational options 
including five citywide high school military academies ranging from the 
Army, Navy, and Marine Corps. This past year the military academies had 
some of the highest attendance rates in the city. We are looking at an 
Air force Academy for the fall of 2009 for students.
    This fall, Chicago will also have about 75 charter schools 
operating among the 625 schools in our system. Some of them are single-
sex high schools--many others have specialized areas of focus while 
others are simply traditional public schools operating outside of 
conventional restrictions.
    Almost all of them are succeeding--and they all have waiting lists 
with parents eager to enroll their children in our system.
    More recently, we have become even more aggressive about opening 
new schools--and closing down schools that are failing.
    We are one of the few districts in the country that has shut down 
underperforming schools and replaced the entire school staff.
    This turnaround school strategy has taken some of our lowest-
performing schools and doubled or tripled test scores within a few 
years.
    Same kids--different teachers--new leadership and a new educational 
approach--and the results are dramatic.
    This is the kind of bold reform that would not be possible without 
the strong support of the Mayor and local elected officials.
    Superintendents all across the country envy Chicago's governance 
structure because the buck stops with the Mayor and he stands with us 
in challenging the status quo, pushing the envelope and driving change.
    The fourth thing that we have done is to greatly expand learning 
opportunities by investing heavily in pre-school, after school, and 
summer school.
    The outmoded notion that schools should only operate for 6 hours a 
day and 180 days per year makes no sense in an information society 
where success is a function of knowledge.
    In an ideal world, every one of our children should be 
constructively engaged from birth to age 18--for as many hours as 
possible.
    The last major strategy involves raising the quality of principals 
and teachers and this effort includes several important dimensions.
    We boosted the standards for principal selection--cutting the 
eligibility list in half and challenging a new generation of school 
leaders to meet these higher standards.
    At the same time, we are much more aggressively recruiting 
teachers--attracting more than 10 resumes for every opening. A decade 
ago, we would get maybe two or three.
    As a recent independent report from the Illinois Education Research 
Council confirms, the quality of teaching--even in hard-to-staff 
schools is dramatically better today than a decade ago.
    Over six years, CPS has dramatically improved the quality of its 
teaching force.
    <bullet> We have gone from just 11 national-board certified 
teachers to more than 860--with hundreds more in the pipeline.
    <bullet> The percentage of teachers leaving CPS after just three 
years dropped from 36 percent in 2003 to 15 percent in 2007.
    We recognize that need to do a better job retaining quality 
teachers in our lowest performing schools.
    <bullet> All new teachers get a mentor, and in particularly tough 
neighborhoods about 300 teachers this year worked more intensely with 
coaches from the Chicago New Teachers Center, with plans to expand the 
two-year-old program to another 30 schools this fall.
    <bullet> CPS has narrowed (by 27 percent) the quality gap between 
CPS teachers and the area with the highest caliber teachers, near 
Urbana-Champaign between 2001 and 2006.
    Thanks to the federal Teacher Incentive Fund grant, we worked with 
our teacher's union to introduce a pay for performance program that 
offers bonuses for great teachers. In fact, the very first payouts are 
happening this month.
    Performance-based pay for teachers will also be expanded from 10 to 
20 high-need schools this fall.
    Our biggest challenges today are reforming high schools and 
increasing funding.
    Chicago has a comprehensive high school reform effort underway that 
includes intensive coaching and mentoring as well as an overhaul of the 
curriculum. It started in 14 schools two years ago and expands to 45 by 
this fall and we expect it will yield positive results.
    We have also developed a host of programs aimed at transitioning 
students into high school, increasing college enrollment, raising 
college entrance exam scores, and providing more coaching and 
counseling for high school students.
    For all our progress, however, we still have a long way to go to 
close the achievement gap--and getting there requires more support from 
every level of government.
    Our state ranks among the worst states in the country for education 
funding, providing barely a third of the overall cost. Today, Chicago 
spends $2000 less per student than Boston. We spend about half of what 
some of our suburbs spend.
    We are certainly grateful for every dollar we get from Washington--
and we welcome even more money to expand Head Start, tutoring and 
after-school programs.
    We also appreciate the core goals of the No Child Left Behind law, 
including performance transparency among subgroups and higher standards 
for all, but we think the law can be improved in other ways that will 
advance the same goals.
    Should you take up the issue of reauthorizing or reforming NCLB, we 
will gladly provide more detailed comments.
    I just want to thank you again for the opportunity to be here.
                                 ______
                                 
    Chairman Miller. Thank you.
    We are going to start with the questioning and try to be 
concise and not run over because I know my colleagues all have 
questions.
    But, Chancellor Klein and Chancellor Rhee, you both 
mentioned in your statement--and, to some extent, you, Dr. 
Hall--it is very often suggested that the system really cannot 
perform because these students in many cases are mired in 
poverty and bad health and lack of access to resources that 
others are, and I do not make light of that argument. I spent 
my whole life working with children and families at risk.
    But you both touched upon the idea that when you have been 
able to develop and work with teachers that have the capacity 
and have the effectiveness that they are able to work in these 
environments and achieve the results that we have been talking 
about or you have been talking about here this morning, and I 
just wonder if you might elaborate on that a little bit.
    Michelle, you mentioned that--you said, ``quality teachers 
in urban districts successfully raise student achievement 
levels even in the face of poverty, violence, and high rates of 
AIDS.'' Now, see, again, not to minimize that because we want 
those children to be free of those--and that is what the 
Congress should be working on, but that is not to suggest that 
you cannot have success in the schools in those areas as 
difficult as it is.
    Ms. Rhee. I mean, I see this every single day in our 
schools. So, for every one who says that it is not possible, I 
can take you into any one of our schools today and show you it 
is possible.
    I went to a school of ours not long ago where, you know, if 
you sort of looked at it from the outside, it was the typical 
D.C. public school. Across the street from the school, there is 
a liquor store and a nightclub. As I was walking up to the 
school, there are broken beer bottles and cigarette butts 
everywhere. So it was sort of, you know, a typical school in 
many ways.
    I walked into the school, walked into one classroom, and 
what I saw was absolutely amazing, the fourth grade teacher 
teaching a class, and she was teaching a unit on Greek 
mythology. So the class was all sort of reading this chapter 
book together, and when I walked in, they had gotten to the 
point in the story where the teacher said, ``Okay. Well these 
kids have traveled back in time, back into the time of Greek 
gods, and now they have to get back to the future. So look 
across the room at all the posters of the Greek gods and tell 
me which god do you think they should call on if they have to 
get back, you know, travel back in time?''
    So I looked at the wall, and I am looking and sort of 
choose my choice, and the first kid raises his hand, and he 
says, ``I would choose Zeus because Zeus is the god of gods. He 
is the boss of the other gods. If he tells you to do something, 
you have to do it. So I figure cut out the middle man and go 
straight with Zeus.'' I was like, ``That is a great answer.''
    The second kid raises her hand. She said, ``I would choose 
this god.'' It was the god of women, children, and families. 
``And she said, ``Because these kids who have to travel back in 
time, this god--she is going to take care of her people. She is 
going to make sure they are okay, so I would choose this god.'' 
Another great answer.
    The third kid raises his hand. He says, ``I would choose 
this god.'' It was the god of art, music, and literature. So I 
am thinking to myself, ``Okay, Kid. That was a total misfire.'' 
And then he goes on to say, ``If you remember, the way the kids 
traveled back in time is because they found an old Greek lyre, 
and they strummed the lyre, and they got transported back in 
time. So I figure if they have to go back, it has something to 
do with the lyre, they should talk to the god of music.''
    These kids gave five different answers before someone came 
up with my very lame answer of the god of travel, and what I 
saw in that classroom was that, I mean, this teacher was 
enthusiastic, she was engaging the kids, they were invested in 
what they were doing, 100 percent of them were focused on the 
classroom.
    I walked across the hallway to the next classroom, exact 
opposite----
    Chairman Miller. I am going to have you give Dr. Hall an 
opportunity here.
    Go ahead.
    Ms. Rhee. Walked across the hall to the other classroom, 
and I saw the exact opposite. It was literally, you know, a 
teacher standing at the door, you know, flicking the light 
switch on and off, counting down, you know, ``10, nine--I am 
waiting. I am waiting,'' you know. Kids were sitting there, and 
you are looking at them, and they are like, ``We are waiting, 
too, for something to happen,'' and literally in the same 
school, you know, the same very, very dilapidated school 
building with no air conditioning and, you know, the ceiling 
tiles falling off the roof, two groups of kids getting 
diametrically opposite schooling experiences because of the 
teachers who were in front of them every single day.
    Chairman Miller. Dr. Hall?
    Ms. Hall. One of the most depressing pieces of data that I 
will share with you today is when I got to Atlanta in 1999, we 
did a survey of the teachers to find out their perceptions of 
what was going on in the public schools at that time, and our 
kindergarten teachers, all of us know that kindergarten 
teachers are traditionally the most optimistic people. When I 
was a principal of an elementary school, if I was depressed, I 
would go down into the kindergarten classroom, and I would feel 
good again.
    Well, 90 percent of Atlanta's public schoolteachers at that 
time said they did not believe the children in their classrooms 
would graduate from high school--not college, from high school. 
It was very depressing.
    And as we tried to factor that into everything else we were 
doing, I was convinced that that was because the teachers 
themselves had not experienced success in terms of teaching and 
then ultimately the kids learning, and, of course, we are not 
able to change all the teachers, none of us can, but we decided 
that we would go at really providing those teachers with a kind 
of job-embedded professional development, coaching, mentoring, 
and support so that they would change their practices and begin 
to experience their success, success in terms of student 
outcomes.
    I would guarantee you today that if that survey was 
administered, 100 percent of our kindergarten teachers would 
say not only are they going to graduate high school, but they 
are going to graduate from really high-performing colleges 
because they now feel a sense of efficacy in terms of how they 
are teaching.
    At the same time that we got the results of that particular 
survey, we also were surveying teachers who had left Atlanta 
public schools after a year--anywhere from 1 to 2 to 3 years 
in, and 90 percent of them said they came from area colleges 
totally unprepared to teach in Atlanta Public Schools. So there 
is clearly a linkage between how the teachers feel about their 
being able to deliver instruction and how they feel about 
outcomes to kids.
    Once they begin to be effective, that is not to play down 
the impact of poverty and entrenched poverty on our children, 
but I still think that once teachers are able to deliver 
instruction the way that leads to children learning, it can 
help mitigate again some of the expectations that enter the 
classroom based on the economic levels of the children.
    Chairman Miller. Thank you.
    My time has run out. I wanted to ask Mayor Bloomberg and 
Mr. Duncan about community buy-in. I know that you now have a 
report card where the community gets to participate, and in 
visiting some of your charter schools, there is a sense that 
the community really has adopted this asset as critical to the 
future of their kids and their community. Some of the strategic 
learning programs that I visited----
    If I can impose on my colleagues, I would just like to give 
you a quick minute to discuss that kind of involvement where 
now the community is having that kind of say.
    Mr. Bloomberg. In New York, we have a wealthy business 
community. They want to be involved.
    Michelle, Joel, and I were out at a conference in Idaho 
last week, and somebody came up to Joel and I--we were having a 
cup of coffee--and said, you know, ``I am going out there. I am 
going to raise a billion dollars, and we are going to fix the 
public schools in this system.'' I did not have the heart to 
tell him that we spend $15 billion a year in New York City.
    Money is great, but the bottom line is this country needs 
doers. We can sit around and we can complain and we can talk 
about one of the ways of teaching reading versus another or 
teaching math versus another. The truth of the matter is we 
know what to do.
    And I think the parents are there. Parents want to be 
involved. They want to help their kids. They do not need to run 
the school systems. When we talk about parental involvement, 
there is this misconception that the teachers should have to 
sit there and let the parents tell them how to teach. They 
should not. The teachers are the professionals, and the 
management of the schools is who decide how you teach and what 
teaching methods.
    What the parents need to do is to know what the teachers 
need for help at home, and the teachers need to know what the 
situation is at home, and one of the things that Joel did, 
which I think is a game-changer--and the only thing I did not 
like about it was it was not my idea because it was so obvious 
when he came up with it. I thought, ``Oh, damn it. I should 
have thought of that.''
    He put a new person in every single one of our 1,400 public 
schools called a parent coordinator. That person's job is to 
provide the communications between parents and teachers that 
elected officials always talk about, but really do not ever 
deliver because they are talking about having another level of 
politics involved, another level of elected officials involved. 
What we need is the ability to share information, and the 
parent coordinators carry a cell phone. You can call 311 to get 
their phone number. You walk into the school. It is up on the 
wall.
    I cannot tell you it is a game-changer at the high school 
level, but certainly at the elementary school and even the 
middle school level, it is one of the best things, I think, 
that Joel ever did. It was adding 1,400 people, but we have 
120,000 people that work in our public school system. The 
difference is this is providing a real service, and it is that 
interaction you talked about.
    Chairman Miller. Mr. Duncan?
    Mr. Duncan. On the charter school issue, I am just very, 
very pragmatic. I just want more schools that work, and, to me, 
the ideological battle really misses what is right for 
children. What I always say is there is no second grade in the 
world that can tell you whether I go to a charter school or 
something else. They know whether their teacher cares about 
them. They know whether the principal has high expectations. 
They know what to say. And we just need to create more great 
schools.
    Our charter schools in Chicago work extraordinarily well. 
We have waiting lists of about 8,000 children, and these are 
all schools of choice. No child is ever assigned to them, and 
so I always say, you know, the day parents stop asking for 
these, I will stop creating them. But there is a tremendous 
demand that we need to continue to meet. I am a big fan of the 
charters, I have also closed three charters for non-
performance, and so we hold them to a very strict standard.
    We have done a couple things differently than other places 
around the country. First is a very rigorous front-end process. 
We make it very, very tough. We have many more applicants each 
year to create more schools than we select. So we are very, 
very tough in the screening process, a lot of community 
engagement on the front end.
    Secondly, every school opens with a 5-year performance 
contract, so there is very clear accountability. If they are 
not succeeding, we will close them down at the end of that. We 
also give them additional autonomy and sort of free them from 
the bureaucracy. But, at the end of the day, parents are 
desperately looking for these options, and we need to continue 
to create a supply to meet that demand.
    Chairman Miller. Thank you very much.
    And thank you to my colleagues.
    Mr. McKeon?
    Mr. McKeon. Thank you, Mr. Chairman.
    This has been one of the best hearings I have ever 
participated in. I want to commend all of you. I wish we could 
clone you and have you work in a lot of other places around the 
country.
    I think, Mayor Bloomberg, when you said we all know what to 
do, we just need more doers, I think that really hits the nail 
on the head. We all have lots of time. We talk about education, 
and then we get in fights about it, and then we get into 
partisanship about it, but, meanwhile, a day goes by, a week 
goes by, a month goes by, a kid is lost.
    I visited a prison in my district, and as I was walking 
through with the warden--1,700 inmates--I asked him kind of a 
naive question, ``How many of these inmates are college 
graduates?'' He looked at me like I was from another plant. You 
know, ``Where have you been all your life? None of them.'' I 
said, ``How many of them are high school graduates?'' He said, 
``Maybe a handful.''
    We are spending a lot of money keeping people locked up, 
but if we took care of them, a little more preschool education, 
a little more resources put into the teachers--you know, the 
talk about going into one classroom and seeing fantastic things 
happen, going across the hall to another one--we have six 
children, 29 grandchildren. Education to me is crucial, and I 
visit lots of classrooms. I see some exciting things happening. 
We never hear about that. We just hear about the bad things 
that are happening.
    And I know when our children were in school, we had like 
three third grade teachers. Everybody knew which was the best 
teacher and the way to get your student in that class. My wife 
became PTA president, you have to get involved, and then we 
were able to get our children into that class. You know, that 
teacher may have been paid less than the teacher on either 
side.
    We have a lot of screwed-up things that if we go back to 
some basics, yeas, we know we need the best teachers, we know 
there are different things that create that. Some of it, 
though, just is they either have it or they do not.
    I wish we could change the way we educate our teachers. You 
know, you get somebody that graduates from college. Then they 
take their student teaching. They walk in the classroom and the 
first day decide they do not like kids. Now they have 4 or 5 
years invested. Why don't we have them get in the classroom in 
their first year to see if maybe they might like this? And then 
why don't we have mentors there to help them to get through 
that first year, the second year, and work on their longevity, 
and then pay them what they are worth so that they do not move 
to private industry?
    You know, I was on a school board for 9 years. I was a 
mayor. I had a lot to do with education on the school board, 
nothing to do with it as mayor. I see, you know, where, as 
mayors, you not only have the responsibility, you have the 
ability to get something done. That is only in a few places in 
the country. Mostly, it is totally separate. The mayor gets 
blamed for everything, but has nothing to do with it. I am glad 
that we have a few places that are giving, you know, some 
authority to go along with the perceived responsibility.
    I have a district where we have some large schools, not 
compared to any of the cities you come from, but maybe 20,000 
students in a high school district. Then I have a district 
where we have six students in a high school academy, and we 
have a school that was built for 100, and we have 60 kids. Our 
problem probably is we cannot get enough kids, you know, 
because of declining population in a rural area, and that is 
one congressional district, and we sit here trying to solve 
problems throughout the whole nation, and there is such 
diversity in just my district, and then you compare to 
districts to districts.
    I have thousands of square miles. I was talking to a friend 
from New York who said, ``I can walk around my district in 1 
day,'' and then we sit here and try to grapple with those 
things and think we can solve all the problems from here, and 
what we really need are leaders like you in every school 
district in the country, every community in the country, 
committed teachers, leaders that make things happen.
    I think I could get on a soapbox, but maybe could I ask one 
question? You know, we have cut back funding and now, this 
year, it looks like almost eliminating the Reading First 
program. I would like to ask each of you: What has been the 
impact of Reading First program on the academic achievement 
scores for the schools in your district? What are some of the 
challenges your district faced in implementing the program? And 
what is the impact of last year's cut, and what will be the 
future impact of this year's elimination of the Reading First 
program on the students in your schools?
    Mr. Duncan. I am happy to start.
    As I talked about earlier, the heart of our education 
curriculum strategy is around reading. We think that is the 
fundamental school skill, and if our children can read and 
write, think critically, express themselves verbally on paper, 
they can do anything they want. If they do not do that well, 
frankly, nothing else we do matters.
    So we have invested very heavily to put reading coaches 
into schools, hundreds of reading coaches. Some schools have 
two. It was interesting to me that historically we had all 
kinds of other specialists, which is important, P.E., art, and 
music, but something so fundamental as reading coaches, reading 
specialists we did not have, and particularly at the primary 
grades.
    If we do not build that base, if we do not teach kids to 
read, guess where they end up? They end up in special ed, and 
they end up dropping out, and they end up in the prisons that 
you talked about. And so lack of resources means that we are 
cutting back on the number of reading specialists going into 
schools, cut back on professional development, and we need to 
continue to dramatically invest in those areas that are the 
highest leverage, and I do not think any of us could argue 
there is nothing on the curriculum side and the instruction 
side more important than instruction in reading and literacy.
    Ms. Hall. I mean, the impact in Atlanta will be the same. 
We have used the Reading First coaches to really provide the 
job-embedded professional development I have talked about, and 
we will have to find another way because we cannot not fund 
that position. We are going to have to look to see how do we 
continue to provide literacy coaches.
    And we are actually now expanding in Atlanta. We are also 
placing literacy coaches in our high schools, but the Reading 
First coaches were fundamental because I believe the victory is 
going to be won in the elementary schools of America. We have 
to get kids performing at or above grade level before they 
leave our elementary schools, and, you know, we have been using 
our Reading First dollars to provide that kind of support for 
teachers.
    Mr. Klein. I think, unfortunately, Mr. McKeon, this Reading 
First is caught up in one of these ideological fights, and I do 
not think it is a constructive fight. There is nobody here who 
would not tell you the greatest challenge we have--and it has 
to be at the earliest age--is to get our kids reading. You can 
pretty well predict what is going to happen to a child 
depending on early grade reading.
    And the war has become one of a phonics-based curriculum 
versus whole language, and I know to anybody outside the 
education world--the truth of the matter is kids need phonics, 
they need significant, particularly high poverty kids, 
vocabulary improvement, which is absolutely critical. They need 
to learn to read in context. So they need to read a lot. And, 
finally, comprehension. If you can decode, that is essential, 
but if you can only decode, it is vastly insufficient.
    And when my colleague, Arne, says hold some things tight 
and some things loose, I think the school districts ought to 
have discretion over certain areas like that so that we can 
detoxify all these political fights which have their adherence 
to one particular thing.
    And, finally, reading curriculum has to be in the hands of 
your most talented teachers because that is your greatest 
challenge, and that is why I think the federal government every 
time, whether it is supporting coaches, supporting people who 
will take the reading art form of teaching to a very different 
level.
    Ms. Rhee. In our analysis of the Reading First program in 
the District, what we found was that there were significant 
gains being made in the schools that were actually implementing 
the program with fidelity, but in other schools that were 
supposedly implementing the program that did not, we did not 
see very many gains at all.
    So I think the lesson for us is that this is all tied back 
to human capital. When we did not have a leader in the school 
but had a very clear grasp on what the program was supposed to 
be doing and how then that leader did not ensure that those 
staff members were trained properly, they attended the 
training, and they were then implementing the curriculum.
    So I think it for us all falls back to the fact that we 
have to have a focus on human capital. We have to make sure 
that we have leaders with a very clear vision and that they can 
manage their staff to ensure that whatever reading curriculum 
they are using that they are implementing it well.
    Mr. McKeon. Several years ago--if I could just, Mr. 
Chairman--we had----
    Chairman Miller. You are on your colleagues' time. You can 
do whatever you want.
    Mr. McKeon. Thank you.
    Several years ago, we had a young man sitting right there 
who was teaching in the D.C. system, and he said he had been 
teaching for a couple of years, and he was ready to quit 
because he was supposed to be teaching third graders how to 
read, and nobody ever taught him how to teach reading. 
Fortunately, somebody got hold of him, principal, they got him 
some extra training, and a few years later now, he was fully 
enjoying his work and, you know, he was getting satisfaction 
the kids were learning. So that intervention was very 
important.
    But this program, rather than kill it, I would sure like to 
see us fix it and keep the funding going out there for reading.
    Chairman Miller. Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    Dr. Klein, you mentioned that Congress should ratchet up 
accountability, and how should we do that? We get asked very 
often for more flexibility. Can we provide flexibility and 
maintain or strengthen accountability?
    Mr. Klein. Yes, here is how I think you should do it. Thank 
you. I think you should ratchet it up in two ways.
    One, I really think we have to move to a growth model. 
Every one of us who deals in this area understands the number 
of students who are proficient in math can depend on what 
community you are in and not what the school is doing, and so 
if you focus on progress, you can compare apples to apples.
    Second--and I know this is politically complex. My mayor 
always says, ``We will never have national standards. The 
Democrats will not do standards. The Republicans will not do 
national.''--but we need to have a national standard, a 
national assessments, so that then everybody can understand, if 
you are proficient in math in California and you are proficient 
in math in New York, that means the same thing because, right 
now, you have different states with different benchmarks. And 
Beverly talked about this.
    So, to me, if you look at our global competitors, you look 
at the countries that are doing well educationally on the 
global exams, you look at those countries, they all have 
national standards and national assessments, and we could, 
instead of having 50 separate set of assessments, if we pooled 
our money, brought in the leading experts in the world, people 
in industry and people in universities, and said, ``What is an 
American child going to need in the 21st century to compete 
effectively? Here are the standards. When do you need to master 
algebra? When do you need to be able to do physics and 
chemistry and all of the other challenges?'' Then I think that 
would put real pressure.
    Now, you know, it would make it harder for people like if 
they were really tough, but I think you have to make it harder 
for people like me because it is not about me, it is about my 
kids, and 68 percent of American kids exit high school, all 
right, out of 100 who start in the ninth grade--68 percent. By 
the time they graduate college, 3 years in a 2-year school or 6 
years in a 4-year school, only 18 percent out of that 68 
percent--and most of them drop out in the first year.
    So getting them a high school degree is critical, but if 
you only get them a high school degree, you have not begun to 
do the work, and the only way to do this is for all of us to 
say, ``This is what it means to be an educated kid coming out 
of the 12th grade in America today,'' because the piece of 
paper and the graduation ceremony are terrific, but if the kid 
does not have the skills, we have cheated that kid.
    Mr. Kildee. Thank you very much.
    As a corollary to that, Mr. Duncan, you mentioned that 
basically goals are good in No Child Left Behind, but how we 
get there needs some changes or maybe some flexibility. Could 
you expand upon that?
    Mr. Duncan. Well, I think philosophically I am pretty much 
on the same page, but I think, again, we need these national 
standards, national benchmarks, and it has to begin from 
international comparison. Our students today in Chicago are not 
competing against Chicagoans, against children from Illinois or 
against children from New York. They are competing on an 
international economy, and the fact that we have 50 different 
bars for our children and 50 different hurdles our children are 
trying to jump over, that does not make any sense.
    And given, I think, the good pressure of No Child Left 
Behind, states have incentives to continue to lower standards, 
to dummy them down so that more and more students appear to be 
passing, and, again, while that helps people politically, it 
sets students up for failure later in life, and so I think by 
having some very clear, you know, high standards, a clear 
common benchmark that we are all shooting for together, but 
then give us all lots of autonomy to get there, but then hold 
us accountable for the results.
    And so I do not think you should tell us how to do it, but 
to all be as creative as he can and Michelle and Beverly and 
myself, but, you know, hold us accountable for the results and 
then watch best practices. So, again, I think this loose-tight 
debate, I think, is a really important one, and I think the 
initial steps of No Child Left Behind were absolutely in the 
right direction philosophically. I think those two levers were 
sort in the wrong proportion.
    Mr. Kildee. Let me ask you this, too. We are talking 
amongst ourselves up here about some differentiated 
consequences. Right now, if a school misses by an inch or 
misses by a mile, they have missed, and the consequences are 
the same. Could you talk about, maybe you two----
    Mr. Duncan. Yes, I think that is----
    Mr. Kildee [continuing]. Differentiated consequences?
    Mr. Duncan [continuing]. Really important. I think often we 
are killing an ant with a sledgehammer, and I think we each 
have schools literally--I mean, these are sort of the 
exception, but it is important--where one or two children did 
not meet the bar, and then the whole school is labeled a 
failure.
    And so I think what you need to do is where certain 
children--white, black, Latino, whatever it might be--are not 
being successful, we need to focus on those students very 
specifically and not label entire schools a failure and do 
other things.
    Secondly, going back, if you change the model and look less 
at absolute test scores, but look at growth, look at gain, that 
is a much more precise, much more accurate measure of are you 
changing students' lives? What value are you adding to them 
every single year? So a different model will help you get where 
you are trying to go.
    Mr. Kildee. Could Ms. Rhee just respond briefly, Mr. 
Chairman?
    Ms. Rhee. I absolutely agree. I just talked yesterday with 
a principal. Her school did not meet AYP. They missed the math 
target by .21 percentage points. Now that school actually saw 
huge growth this year. So a level of disappointment from that 
school, I mean, and I could not really sort of answer that 
question well. It is significant because we have, you know, one 
school that is missing it by .21 percentage points and other 
schools that are missing it by 21 percentage points. They 
cannot be classified, in my opinion, in the same way, and the 
real way to look at this is, again, as my colleague just said, 
is by growth.
    Mr. Kildee. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Miller. Mr. Castle?
    Mr. Castle. Thank you, Mr. Chairman.
    I, too, think this has been an excellent panel with a lot 
of great discussion. I would like to get into a little bit of a 
different area, developing some of the things that you have 
stated, and that is what we are doing at the federal level and 
what we can do.
    I am a strong believer that No Child Left Behind has 
produced incentives that have been helpful in terms of 
education. I think you have struck on that, and, as you, I am 
sure, know, there is a lot of dissension about that, 
politically here in Congress and certainly among educators in 
this country. Time is up. We need to rewrite this, and we were 
unable to get that done this year, at least so far, and we go 
into continuing with the way it is if we do not rewrite it, and 
my sense is we need to continue to work on this.
    So my question to you is--and I have heard you. I have 
listened to everything you have said here this morning. I have 
listened to your suggestions--what concepts or ideas do you 
have in terms of how we should handle No Child Left Behind, 
and, for that matter, is there any federal role in education 
with respect to the reauthorization, the changes in place?
    I have listened to the national standards and assessments--
I am, by the way, one Republican who does not believe that is 
necessarily a bad idea--and I have listened to the growth 
model. I am interested in development of the growth model. Is 
the growth model separate from some sort of a measurement of 
standards and assessments, or is it in combination with that so 
you could have either-or or on the way to meeting certain 
standards at some point?
    And one other question I would throw in there: Do you 
believe in some sort of a uniform graduation rate in this 
country? As you may know, the measurement across the various 
states is essentially different from state to state with 
respect to graduation rates. I happen to believe that we should 
have some sort of standardized rate. So I am interested in 
that.
    I would be interested in your viewpoints, any suggestions 
you have in what we could be doing to both get this No Child 
Left Behind reauthorization done and perhaps to improve it. It 
is an open-ended question to anybody who is willing to 
volunteer.
    Mr. Bloomberg. Let me first just add one thing. I am not a 
professional educator. My background is employing people, and 
whether they miss by 1 percent or 10 percent, you either get 
the job or you do not.
    In New York City--and I assume it is true throughout this 
country--we are giving our youngsters high-stakes tests all the 
time. The youngster has to decide whether to hang around with 
people that have a gun or drugs. They have to decide whether to 
drink and drive. They have to decide whether to get pregnant, 
get married, stay in school. These are all the high-stakes 
tests that our kids are facing every single day.
    And the comment of national and testing actually came from 
Bill Bennett when he was Secretary of Education, and there was 
a movement towards national testing.
    I think you have to be careful in terms of setting a limit 
or a standard for what percentage of the kids graduate. In New 
York City, we have raised our standards, not only in our school 
system, but the standards to work in New York City. You have to 
have a high school diploma in order to get a job with our 
sanitation department--or a GED--and that does not mean 
necessarily that all high school diplomas are the same.
    In the real world, we do not test our people other than 
maybe in the first application for a job whether you have a 
diploma. After that, we start to talk to them and see whether 
they really know what they are talking about, whether they can 
frame a question and understand an answer and work together 
collaboratively and collectively.
    The danger with just saying X percentage have to graduate 
is every state, every school district will just meet that 
standard because they want to get the money. If you have a 
national test that tries to measure academic achievement and 
ability to reason and knowledge of the law and knowledge of 
accounting, things that every single one of us has to know--you 
know, we tend not to focus on the fact that this is a country 
of laws and that all of us have a budget. We have to get a 
paycheck every couple of weeks, and we have to figure out how 
much we can afford to spend on this and that and the other 
thing.
    Those are the kinds of things we should measure in testing, 
and those should be our objectives rather than just a physical 
number. We are trying to raise the number of our students that 
graduate, and the papers, the editorial boards, tend to hold 
you responsible for having that number higher, and we are all 
proud of it when we increase it. But the real answer here is we 
are not trying to give our students a piece of paper. We are 
trying to give them an education.
    Mr. Castle. I agree with that entirely, by the way, Mayor, 
and in talking about graduation, I am just concerned about the 
differing methods of graduation rates that are used around the 
country. I am not trying to determine the number who should 
graduate.
    Mr. Bloomberg. Everybody measures differently, and I think 
of one criticism I have always heard again, again, and again 
from Joel and everybody else about No Child Left Behind is you 
can dumb down your standards in order to qualify----
    Mr. Castle. Exactly.
    Mr. Bloomberg [continuing]. And the requirement to be able 
to function in a worldwide society is not different from one 
place to another.
    Mr. Castle. Precisely.
    Chairman Miller. The gentleman's time has expired.
    Mr. Payne?
    I would just say that Mayor Bloomberg is going to have to 
leave in about 4 or 5 minutes. If you have a question you want 
to direct to him first and then----
    Mr. Payne. No. Well, no. Just to commend him on the 
outstanding work that he has done in New York. And I was just 
going to mentioned that former Mayor Koch graduated from Newark 
South Side High School.
    But just a question about national standards. Number one--
and, Dr. Hall, you may recall Newton Street School in Newark--
now there is a program at Seton Hall University where they have 
the college there, my alma mater Seton Hall, and the teachers' 
union and the central office have come together to see about 
improving the educational system at that particular school, 
which has been a failing school. So we are watching this model 
pretty closely to see if that could change things around.
    But I just have a question about national standards, which 
I think is certainly something that we should strive towards. 
However, in our city, even though now we are starting to embark 
on a school improvement program, many of the schools in the 
city are over 100 years old. I spoke at a graduation of 
Charlton Street School about a year or 2 ago, built in 1848.
    So, talk about national standards is great, but what about 
the inequity in funding? We have the Abbott decision in New 
Jersey, we are struggling to continue to have it funded because 
we all know that there is totally inequity in funding, I think. 
Jonathan Kozol talked about that in ``Savage Inequalities'' 
when he talked about the difference in school funding, and if 
you have a wealthy school system or if you have philanthropic 
corporations like, say, we have in New York or Atlanta, you get 
a lot of cooperation from the business community. If you are in 
an area that has no businesses and has a very low tax base and 
you are saying we should have national standards, however, 
there is not equity in funding, how do we overcome that?
    Mr. Bloomberg. Let me say something before I have to go.
    Thank you, Mr. Chairman. I am sorry I do have another 
appointment.
    As we talked before, my mother graduated from a high school 
in your district. The high school is still there, still 
functioning, same building. I do not have any idea what the 
quality of it was then or is now. My mother did learn to read, 
although they made her write with her right hand, and she had 
learned to write with her left before then, so she now does it 
both ways.
    I think two answers to your question: One, we focus on what 
we call fair funding. We found when we took office that the 
schools where the parents did not have much political power, 
which were mainly minority schools, but not always, they got 
underfunded by $2,000 or $3,000 a year per capita on a base of 
about $14,000 a year.
    What we have tried to do when we had more money is we did 
not take away money from those that were being highly funded, 
but we gave all the money to those who were being lower funded 
so that now fundamentally in New York City all schools get 
funded by the chancellor the same per capita. There are some 
small adjustments for English language learners, small 
adjustments for special ed. There are some federal and state 
programs that require us to do some things differently, but 
fundamentally we are trying within the New York City school 
system to give every principal the resources per capita that 
the other principals have. That is one answer to your question.
    The other thing is it is true that some districts do not 
have money and some districts do. New York City exports $12 
billion to our state government that then redistributes that 
throughout the state to help areas of our state that have not 
had the luxury of lots of businesses generating taxes.
    And my third answer is life is not fair. I think it is true 
that there are parts of this country where they do not have the 
tax base, maybe the cost of living is a little bit less, but 
not enough, but those kids are going to have to compete on a 
world basis anyways, and, you know, the teachers are going to 
have to do more with less, and the elected officials are going 
to have to find ways to do more with less. They have a greater 
challenge.
    But sitting around and not giving them an education because 
you do not have the resources is not the right answer because, 
whether you give them an education or not, they are going out 
into the same world with the kids who happen to be luckier, who 
happen to grow up from wealthy families or families that look 
like the Norman Rockwell painting of two kids and two parents, 
or families that value education.
    We have a group of kids in our school system. Parents have 
come to the United States to work, do not plan to stay here 
very long, do not see there is any reason to learn English, and 
they come from a tradition where education is not valued. Those 
kids need the same education that my kids do. It is tougher for 
us to give it to them, and maybe they will not get there, but I 
can tell you exactly what happens if you do not give them the 
education.
    Congressman, you talked about going to the jails. You can 
sit there and you can say if you do not get an education--you 
can plot statistically, not every one, but on average exactly 
what is going to happen to that child for the rest of that 
child's life, and shame on all of us if we let it happen. And I 
just wanted to say thank you for all of you for your focus----
    Chairman Miller. Mr. Mayor, thank you for taking your time.
    Mayor Fenty, you face the same problem. I do not know if 
you wanted to comment. I know you were also leaving, but if you 
wanted to comment on this before you leave----
    Mayor Fenty. No, I just want to appreciate your indulgence, 
Mr. Chairman. I would just urge, as I leave and the real 
experts are going to stay, that if you can, in addition to 
funding some of the changes recommended in No Child Left 
Behind, look at the teacher quality issue. On the local level, 
I know it is a political football and a political nightmare.
    On the national level, it is probably even more of one, but 
to the extent that we can provide more resources at the local 
level so that these four individuals and others like them can 
incentivize teachers, rather than having to keep them around 
through the tenure and other ways, the children are going to be 
a lot better off.
    So we are dealing directly with that right now. We have a 
lot of support from Congress, and I think we make that 
nationwide in the next No Child Left Behind Act, I think the 
country is going to be better off for it.
    Chairman Miller. Thank you.
    And, again, thank you for your time.
    Mayor Fenty. Thank you.
    Chairman Miller. Mrs. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman, and thank you for 
having this great hearing.
    You know, in 1995, I served in the Illinois state 
legislature when we turned the Chicago Public Schools over to 
Mayor Daley, and I think when you look back in a career and as 
a legislator--I think that that will be one of my proudest 
moments because I think it really changed the dynamics in 
Chicago so much, and I am very proud of that vote, and I am 
very proud of Mr. Duncan for all the work that he has done to 
make the Chicago public schools so good.
    We have been talking a lot about teachers and the 
importance of teachers and just what does it take to hire. You 
know, even when you have so many people or you do not have, to 
hire a really good teacher, what do you look for to make sure 
that you have the best available?
    Maybe, Chancellor Rhee, you could start with that.
    Ms. Rhee. So, before I came into this role as chancellor, 
for 10 years, I ran an organization called the New Teacher 
Project that was dedicated to recruiting and retaining teachers 
in urban school districts across the country, and I think that 
what we learned through that process was a few sort of key 
things: one, that you really have to think about teacher 
recruitment in urban and high-needs rural districts in a very 
different way.
    The people coming into those challenging situations have to 
have a very specific mindset. They have to truly believe that 
it is possible for poor minority children to learn at the same 
high levels. They have to understand very clearly what the 
challenges are that they are going to face in terms of the 
poverty and the violence and the sort of environmental factors 
that they are going to be confronted with and still believe 
that despite all of those obstacles that they are personally 
responsible for making sure that every single one of their kids 
grows academically, and I think that mindset is one of the most 
important things that we can have.
    We know that subject area knowledge matters greatly. There 
is less sort of evidence about the route that people take into 
education having a correlation between that and student 
achievement. We have seen that there are lots of alternative 
certification programs--Teach for America, the New Teacher 
Project, some of the teaching fellows programs that are in 
existence--that broaden the net, that bring, you know, talented 
mid-career professionals, for example, into teaching, and it is 
important to sort of look at how we broaden the number of 
people who are potentially interested in education.
    And I think that at the end of the day--and we talked a lot 
about this amongst the four of us--we have to have a system and 
a culture in which we can provide the right incentive. We have 
to have good support mechanisms in place for those teachers. 
But, at the end of the day, we have to ensure that the teachers 
who are producing the dramatic results for our kids are 
recognized and rewarded in that way.
    The last thing I am going to say is that there is a 
tremendous amount that can be done at the systemic level that 
can help to recruit the best teachers into the highest needs 
school districts. The earlier that school districts hire, the 
more likely it is that they will be able to bring in the best 
candidates, and there are lots of barriers to being able to 
hire teachers early.
    There are the teachers' unions' contracts and how they 
govern and the movement of current teachers. There are 
budgeting issues. There are school closure and consolidation 
issues. All of those things have to be moved up in the timeline 
so that the new teachers can be hired earlier, in the February 
and March timeframe, because that is when the best candidates 
are available.
    Mrs. Biggert. Thank you. I think that was very complete.
    So maybe I will turn to another since I do not have too 
much time. Mr. Duncan, you have worked, I know, a lot with 
parents to bring parents into the schools, and there was some 
talk about this, that you do not want to mention that maybe 
sometimes parents are trying to get too involved in the 
schools.
    But how do you get parents involved in their children's 
education really, and it is so important, you know, from 
probably before birth, so that the kids are ready for school, 
but also that they participate, not to run the schools, but 
really to back up their kids to help them as they move to the 
school system?
    Mr. Duncan. I think so often it is very easy to criticize 
parents and say they are not engaged enough or that is part of 
the problem, and before I came to the board, I worked in the 
inner-city community for a long time and saw that parents, 
despite whatever education or lack of education they had, were 
extraordinarily interested in their children's education and 
wanted something better, and so before we blame parents, I 
think we need to really be self-critical and look in the mirror 
first.
    I would say historically we have had a culture in which, 
frankly, parents were not invited in. They were supposed to 
drop their children at the school door, you know, come pick 
them up at the end of the day, maybe come a couple of times a 
year for report card pick-up, but they were really kept 
outside, and what we are trying to do is dramatically change 
that culture.
    Going into this fall, we will have 150 schools that are 
what we call community schools that are open 12, 13, 14 hours a 
day, 6 days a week, with a wide variety of after-school 
programming not just for children, but for all their brothers 
and sisters and parents--GED classes, ESL classes, family 
literacy night, family counseling, pot luck dinners.
    We have schools now where you literally have 100 to 150 
parents come to school every day not for their children's 
education but for their own, and I am just convinced that when 
families learn together and where schools truly become the 
heart and the center of a neighborhood, a community anchor, 
there are just tremendous dividends for children.
    And so I really think that we have to collectively continue 
to challenge a culture that kept parents out and really think 
about how do we invite them, how do we open the doors, you 
know, computer classes and many things that we can and should 
do that parents want to have to access to, and we should co-
locate all those services in our schools.
    I would say our schools are these great community assets. 
We have 600 schools, every neighborhood in Chicago. Every one 
has classrooms. They all have computer labs. They all have 
libraries. They all have gyms. Many have swimming pools. Those 
do not belong to me. They do not belong to the engineers' 
union. They belong to the community. We have opened 25 health 
clinics in the schools.
    And so the more we open our doors, the more we get a 
mindset in which parents are welcome and needed, I think we can 
reach the vast majority of parents. There may be some parts 
where we cannot, but we can get a heck of a lot of more than we 
are getting today.
    Mrs. Biggert. Thank you.
    Chairman Miller. Thank you.
    Mrs. McCarthy?
    Mrs. McCarthy. Thank you, Mr. Chairman.
    I have a lot of questions. So I want to thank everybody for 
their testimony, but, hopefully, I will get as many questions 
in as I can. A couple of them are going to be to Chancellor 
Klein, and then I am going to open up the other questions to 
everybody.
    I see in July of 2009 the contract that you had with the 
teachers and the schools, the principals expires. Do you think 
that will have a good chance of being renewed during that time?
    Also, one of the things that we sort of thought was 
collaborating with one of nine partnership support 
organizations hired to provide support for the New York City 
schools, and I was just wondering how that worked.
    The other thing is when you are looking at the school and 
working on bringing the scores up, how have you been dealing 
with children that are being served with IDEA learning 
disabilities, and have you been able to also reduce class size? 
Has that made a difference?
    And we are dealing with suburban schools, but, obviously, 
we know that. I live in a suburban area. I have several 
minority schools, underserved schools, one that has been taken 
over by the state for the last 6 years and not seeing too much 
of an improvement.
    So, if I could throw those questions out, especially on the 
performance pay. That was the other thing I wanted to go back 
on. Seeing Randi Weingarten now being the head of the AFT, do 
you think that she can basically say this is working in New 
York, which is certainly a cosmopolitan area where we try to 
test an awful lot of things? Do you think she would be open for 
us to work with her on the federal level to see if we could get 
something like this done?
    Thank you.
    Chairman Miller. Chancellor Klein, deal or no deal? 
[Laughter.]
    Mr. Klein. I think the answer is deal. I would not speak 
for Randi. I give her a lot of credit for having negotiated 
this deal with us. My sense is, like Arne and Michelle and 
Beverly have talked about, once people get used to it, it 
becomes easier to expand it. I expect it will be expanded. Our 
principals are an entirely different field.
    In fact, our IDEA students, our students with special 
needs, are, indeed, improving. This year, they actually 
outperformed the other students in general ed on our exam. They 
are still way, way too low, but, sure, they are moving forward.
    I think reducing class size--we have reduced it across the 
board, not as much as we would have liked because we have 
invested heavily in our teachers' pay as a way to retain and 
keep, and, you know, in a world of limitless dollars, you know, 
I could tell you a million things that I could use more money 
for, but you have to make strategic choices.
    And I know, speaking for myself, and I believe for those of 
us who do this work, teacher quality is the biggest investment, 
and we keep doubling down and tripling down in that area, and I 
would continue to do so. I wish I could lower class sizes. I 
wish I could have more wraparound programs, after school and 
everything else, but I am absolutely convinced that the game-
changer in terms of student performance is the quality of the 
teachers.
    I know Mr. McKeon said before--I thought it was funny, but 
it is actually sad--that people know who the best teachers are, 
and they get involved and get them for their kids. I tell 
everyone that works for me your assignment is to be the voice 
for the voiceless.
    There are many people in America who have purchase in 
public education, know how to get their kids in the best 
schools, get their kids to the best teachers, but how about the 
kids who really do not have a champion or a rabbi to make sure 
that they are taken care of? And that is the assignment of the 
rest of us and making sure that the dichotomy that Michelle 
talked about of going literally across the hall to two 
different classes that are day and night with the same high 
poverty kids--we have to redress that. The way I like to say it 
is a class of 20 with a poor teacher is not remotely as good as 
a class of 30 with a great teacher, and that has been our 
principal focus.
    Ms. Rhee. Can I make one quick statement on that?
    This is where I get myself in trouble. I always get myself 
in trouble for being very frank, but I feel like it is 
important to do this.
    I think that, though there have been some instances across 
the country where the school districts have been able to work 
in collaboration with the teachers' unions to push pay for 
performance and differential pay structures, I think, for the 
most part, there is still a significant amount of opposition 
and pushback to this.
    My colleague in P.G. County, John Deasy, who was trying to 
push a pretty, you know, sort of minimal pilot program, you 
know, had national folks sending letters out to all of his 
members saying, ``Do not vote for this.'' And my own union 
president here in Washington, D.C., faces tremendous pressure 
from his colleagues saying, ``You better not sign this 
contract. It is going to ruin everything for the rest of us.''
    So I do not want us to sort of sit here and pretend that we 
are all heading down this path of ensuring that we have 
performance pay that is based on student achievement levels in 
this country. That is not the case. That is not the dynamic 
that is in play in most of our school district, and I think 
that from my vantage point, being a Democrat, I think it is 
incredibly important for the Democratic Party to step up on 
this and to really push the unions across the country to say 
that we have to recognize and reward our most effective 
educators.
    If we want teaching to become the profession that we all 
know that it should, that has to happen, and that we have to 
really challenge and push the teachers' unions and the 
leadership right now in this country to have this differential 
pay not based on the sort of softer things, but really focused 
on student achievement level.
    Mrs. McCarthy. I should say the chairman actually tried to 
do that, and I still think that we will be working on that with 
Leave No Child Behind.
    Chairman Miller. Thank you.
    Mrs. McCarthy. I yield back.
    Chairman Miller. Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    Chancellor Rhee, you and I talked a little bit earlier, and 
you were talking about the fact that you and your counterpart 
in the teachers' union are going to go out into the community. 
So I would ask you at this point in time to foresee what you 
see as the two or three most significant arguments against 
performance pay that will be brought in to those discussions 
and your answers and the union's answer to those.
    Ms. Rhee. Yes. So the union president and I will be out 
talking to teachers, talking to community members about what we 
believe the benefits of this contract will be.
    For the most part, what we have been hearing is that people 
are scared that the system is not going to be fair. So I think 
that it is important for us as we go out to talk about a number 
of things, first, that teachers will have options about which 
pay system they want to be in so that they know that they are 
empowered, that all of our teachers know very clearly that 
regardless of which option you choose, that every teacher's 
salary is going to go up significantly. I think that is an 
important thing to think about.
    But, most importantly, I think it is giving the teachers 
some evidence that we are not going to be making these 
decisions capriciously or arbitrarily and that they are not 
going to be left just in the hands of principals to make, but 
that we were going to be basing those decisions on the data.
    I think when you talk like that, one of the first things 
that comes up from people, is they say, well, you know, you are 
not taking into account the fact that we do not control 
everything, you know, our kids are coming in with all of these 
sort of strikes against them, and we cannot control the parents 
sort of backing us, and that sort of thing, so we cannot really 
control whether or not the student achievement levels are going 
to move or not, and, at that point, you know, from my vantage 
point, is when we have to stay we need educators in our school 
district who are saying that, despite all of those obstacles, 
you really do believe that as a teacher you have the ability to 
move the achievement of your kids, and if you do not believe 
that, then this is probably not the district for you to teach 
in.
    Mr. Tierney. Thank you.
    I think money is a big factor here. Obviously, these 
contracts--whatever you think of the contracts that have been 
negotiated in the past between municipalities and teachers, 
they are there and they have to be dealt with. So, if you are 
going to move teachers in a particular direction, they have to 
be negotiated, something has to be offered up. A lot of times 
that is money, and a lot of our communities say they do not 
have the money.
    So I am looking at the partnership between mayors and 
superintendents and wondering does that have to be the 
partnership there, that the mayor has that control over the 
school system so that the money is more likely to come when 
those deals are struck, or can we still move in this direction 
when you have a school committee in charge of the schools--a 
school board in a sense--and find a way to do that because most 
communities I am aware of do not have financial flexibility on 
the school committee. It is going to go to the mayor and the 
city council at some point anyway or the board of selectmen or 
whatever.
    Mr. Klein. That is where I think there is an important 
federal role. You know, the marginal dollars in education 
matter. The federal government puts in significant dollars, and 
I think you could incentivize this by putting in dollars to pay 
for excellence, to pay for high-quality, high-achieving 
teachers, and then school districts would be able to devise 
plans, and I quite frankly think, as I said in my opening 
testimony, Mr. Tierney, that would be the best use of federal 
money because there is something wrong when our kids with the 
greatest needs are not remotely getting their fair share of the 
highest quality teachers, and teaching is the magic ingredient 
in education.
    And so if you were to take the Title 1 monies, for example, 
and recast them into significant incentive programs to pay for 
people who are getting results tied to a meaningful federal 
accountability system so that it would not be arbitrary and 
also to say to people if you are a great math teacher, instead 
of teaching in this neighborhood, we will pay you additional 
with federal dollars to go teach in Central Brooklyn or the 
South Bronx. That would have a huge impact.
    And I commend this committee because you put this forward, 
and we wish you had put it forward in more robust form, but you 
put it forward, and I think you have to keep putting it forward 
because that is where you are going to get your returns.
    Mr. Tierney. Thank you.
    I yield back, Mr. Chairman.
    Chairman Miller. Thank you.
    Mrs. Davis of California.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    And thank you to all of you. You are an impressive group, 
and it is wonderful to have you here.
    I would like to zero in on one issue of the investing in 
quality teachers--and it is a bias of mine, so I will state 
that upfront, and I think the chairman knows that--National 
Board for Professional Teaching.
    And, Mr. Duncan, you have mentioned the growth in 6 years, 
11 to 800 and something, I think. Could you tell me just a 
little bit more about how you got there in terms of the 
incentives?
    And I would really be interested, Chancellor Rhee, also in 
your appraisal of that because I think one of the concerns that 
we all have is how do you get the best teachers into the 
schools that need them the most, and yet, on the other hand, 
you really have to build within your teacher cadre the best, 
and I am wondering whether there are other--I know there are 
other vehicles, it is certainly not a panacea in any way, but 
ways to help teachers go in that journey of collective 
teaching.
    As far as I know, that is one of the best tools, and I 
would really be interested in whether that is something that we 
should put some higher priority on in No Child Left Behind, 
find a way to talk about it so, you know, it does not include 
the bias of national standards. Help me to try and think about 
this a little bit more.
    Mr. Duncan. We made a big bet on this for a couple of 
reasons. First of all, I worried a lot about a lack of career 
ladders for teachers, how do you sort of keep them motivated, 
how do you not lose them. I am also a big believer in external 
standards because I always worry about the dumbing down of 
local stuff. So I, for example, I love the international 
baccalaureate curriculum. I love advanced placement because 
there is a bar that we all have to reach.
    Well, NBC, National Board Certification, is that same 
national standard. It is very, very rigorous. As you know, only 
about half the teachers roughly that go through each year pass. 
But we started early on. We just thought this was a huge area 
where, again, we had not played at all where we could get 
dramatically better.
    And what I like most about it is it is basically your best 
teachers going back to get better, and I know this has gotten 
large. Early on, I tried to meet with all the new National 
Board Certified teachers every single year, and what I heard 
consistently is they all said it was about the hardest thing 
they had ever done professionally, and they also said it was 
the most valuable. Not one ever came back and said it was not 
worth the journey.
    And I just think when we talk to our students about being 
lifelong learners and continue to improve, we need to walk the 
walk, not just talk the talk, and so when you have your best 
teachers going back and getting better, I think it just sets a 
tone that is so critically important.
    Mrs. Davis of California. Can I ask you what incentive did 
you use? Do you think it should be monetary? Otherwise, what--
--
    Mr. Duncan. Well, it is almost embarrassing. We gave some 
very, very small monetary incentives, and we had a great 
partnership. This is actually a total win-win with the union. 
The union was, you know, right along for the ride----
    Mrs. Davis of California. Yes.
    Mr. Duncan [continuing]. And we have an outside fund, the 
Chicago Public Education Fund, a local foundation that has been 
a great partner, who really took the lead in driving this. We 
gave some small financial incentives early. We actually 
recently negotiated the teachers' contract, and, for the first 
time, we actually put a little bit more money in there. It is 
about, you know, $750 a year.
    So folks are not doing this for the money. Yes, I think it 
is important to have that. What we really tried to create was a 
sense of prestige, that these are really our future leaders and 
how do we better use them. I would love to--we are very 
resource constrained--pay them more, but they are not doing it 
for the money. They are doing it because they think it is the 
right thing to do.
    Mrs. Davis of California. And quickly, because we are on 
limited time and I want to go to the others as well, how does 
that jive with the idea that we should be rewarding people for 
the achievement of their students, because one of the major 
criticisms is that that does not guarantee that they are 
getting kids where they need to go?
    Mr. Duncan. It does not. That is a great question. I do not 
think it is contradictory. I think we should absolutely we 
reward folks for student performance and for growth. I think 
part of how those get better is going through the NBC process. 
So I think this is a strategy for teachers, as they continue 
through that career ladder, for them not to get stale and 
continue to get better and challenge themselves. I do not see 
this as mutually exclusive at all.
    Mrs. Davis of California. And, Dr. Hall, you can chime in, 
too.
    Chancellor Rhee?
    Ms. Rhee. I think a couple of things. One, we have been 
looking very specifically at how to move away from the input, 
measuring the inputs of teachers and more looking at the 
output, so basically measuring teacher quality by the 
effectiveness of the teachers in the classroom.
    And I think one thing that is worth saying is that--you 
asked the question how do we make sure that we get the best 
teachers to the children who need them the most, and one of the 
things that I think that is relevant to say here, particularly 
as we are talking about differentiated compensation--and 
Chancellor Klein alluded to this earlier--is that it is 
important not just to give a financial incentive to people who 
are moving into lower-performing schools or more high poverty 
schools because, quite frankly, we have lots of teachers in 
those schools right now who are not performing particularly 
well, and to subsidize those people, in my mind, is a waste of 
money.
    It has to be coupled with if you are showing results, if 
you are working in one of those schools and you are producing 
results for kids, then something should absolutely click on and 
you should get some kind of a differential pay, but we should 
not incent people simply for being at those schools. So that is 
the first thing.
    I think the second piece----
    Chairman Miller. I am going to have to cut you off.
    I know Dr. Hall wanted to respond, and I have to get 
through these. We are going to have votes here in just a 
minute, so I am going to marshal the time a little more. I am 
sorry to do that, Michelle.
    Dr. Hall, did you want to comment on----
    Ms. Hall. I just wanted to say we, too, have been 
supporting the National Board Certified teachers' development. 
The numbers are increasing in Atlanta public schools for all of 
the reasons that Arne articulated.
    We do have a career ladder for teachers in Atlanta because 
we think that is a part of the problem. Before, if you were a 
master teacher, the only way you could see yourself moving 
forward would be to leave a classroom and we are trying to 
change that through having these different roles--model teacher 
leader roles, coaching, et cetera--and we have felt that the 
National Board Certified teacher process helps to qualify those 
people.
    But, of course, we are also looking at whether or not these 
people were good teachers to begin with looking at what they 
were doing before we vet, and we have provided small monetary 
incentives for them to participate. At one time when we had 
Governor Barnes in Georgia, he also had at the state level some 
statewide incentives for the teachers to participate, but we 
have continued to do that locally because we are trying to get 
teachers who are already demonstrating that they could do the 
job to really becoming more proficient. We think this process 
leads to that, and then we utilize them in the system.
    Chairman Miller. Mr. Davis of Illinois?
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    You know, as I listened to the discussion, I could not help 
but be reminded of two of my experiences. One, I spent 6 years 
working in probably one of the most difficult situations in the 
Chicago schools. I never will forget the day that we collected 
38 handguns, five blackjacks, four pairs of brass knuckles, and 
10 switchblades. It has been a while.
    But my point is and my question, Arne, is I know that you 
have been successful beyond the concept of monetary incentives. 
I mean, yes, you have the grant, but that has not covered 
nearly the kind of impact that has been needed to get teachers 
into some of the underperforming schools and some of the 
difficult situations.
    I also served on the local school council at the jail, and 
you have teachers in there.
    What are the other approaches, though, that you have used 
beyond the notion of pay for performance or monetary incentives 
to get teachers into some of these difficult situations?
    Mr. Duncan. I think we have all tried to create a sense of 
mission, and I think teachers are not in teaching to make a 
million dollars, and I think any money we give them is a small 
piece of what this is about.
    Teachers go into teaching because they are very idealistic, 
because they want to make a different in students' lives. They 
come in with the best of intentions and, historically, 
unfortunately, we have burned out too many of them.
    And so what we have to do is to continue to fuel the sense 
of idealism, to support them, to listen to them. Many teachers 
struggle with classroom management skills, many teachers 
struggle when they do not feel listened to, and so how we 
better mentor, how we better support, and how we really put a 
spotlight on those teachers that are doing a great job----
    As you know, we have taken teachers on bus tours of 
communities that historically they might have been scared of. 
We have used local ministers and local business leaders to 
really embrace them and say we want you to come to North 
Lawndale, we want you to come to Austin, we want you to come to 
Englewood, we will be here to support you, and I think teachers 
want to be part of that broader community that is making 
significant changes.
    Mr. Davis of Illinois. Thank you very much.
    Mayor Bloomberg discussed this with Representative Payne a 
great deal before he left, the notion of national standards, 
and I adhere to that, and I accept that, and I understand the 
need for that. But I am concerned. How do we compensate for 
some of the funding inequities that we know exist at local 
levels where you may find one school district spending one-
third or half of what another school district is spending per 
pupil?
    Are there some approaches to compensation where at least in 
terms of the labeling, we look for some additional support or 
additional help for those districts that have putting forth the 
best good forth effort that they have and yet they are going to 
come up short because of all the inequities that already exist?
    Mr. Klein. I think it is a great question, and I know the 
mayor talked about it. Let me add two thoughts.
    I think we start on the same page, that is lowering the 
standards because you invest less resources is not going to 
serve our children. I think the reason to have the standards is 
to say this is what the future of this country depends on.
    And the second thing I would do, if I were working through 
all these issues, and I am just going to put out an idea, the 
devil is in the details, but you could have a local state index 
of what is expected in this investment and then tie federal 
dollars to those expectations.
    Obviously, some communities have far less resources. Some 
states use one formula across the state. Other states allow it 
to be based on real estate taxes, which is inevitably 
inequitable because higher valued communities are able to put 
more money. But if I were to do this, I would certainly try to 
create some form of national index.
    And the thing that everybody has to understand is we are in 
this together. You know, people talk about kids in prison, kids 
who are unemployed or underemployed, those are going to be 
costs to this nation. They are not going to be costs to my 
community. They are going to be costs to this nation. And, on 
the other hand, successful kids competing in a global economy 
are going to be benefits. So, if I were to do it, I would work 
through such a formula.
    Mr. Duncan. If I could add quickly, what I really think is 
if we went to national standards, that would force these hard 
conversations around funding gaps that people sort of skirt 
now, and if people really understood how critically it was 
important to get everyone to this bar where you had these huge 
inequities, I think it would shine a spotlight on funding that 
is separate and unequal, and so I think it would help us get to 
where we need to go and not take away from the top, but bring 
up the bottom, which I think we desperately need to do.
    Mr. Davis of Illinois. Well, Dr. Hall, would you----
    Ms. Hall. I would also like to add that there has been a 
real perception out there that there is an awful lot of waste 
within many of our urban school districts in terms of our 
business operations and what we are really doing with the 
dollars that we do have, and I think now there are enough 
districts that are doing a good job of managing the dollars, 
driving more and more as best they can to instruction, and 
people often look at that also and begin to change the 
conversation in terms of what is really going on as opposed to 
continuing this belief that we really do not know what to do 
with the dollars when we do have them, and I think that is a 
part of the conversation we certainly did not enter into today, 
but needs to also be heard.
    Chairman Miller. Mr. Altmire?
    Mr. Davis of Illinois. Thank you, Mr. Chairman.
    Mr. Altmire. Thank you, Mr. Chairman.
    Each of you, in your testimony, talked about standardized 
testing and the idea of teaching to the test versus a depth of 
understanding of concepts, and I wanted, in, you know, what is 
going to be 4 minutes for four of you, if you could each 
quickly just summarize what is the evidence, to your knowledge, 
that indicates that even though test scores may have gone up--
or is this your experience--that the depth of understanding of 
subject matter and curriculums has gone down? What is your view 
on that argument?
    Mr. Klein. So my argument is that the reason I think the 
depth of understanding has gone on is because I have read the 
tests and I know what it takes to pass a math test and to pass 
an English language arts test. I would be the first to admit--
and, indeed, one of the reasons I am a proponent of national 
standards and national assessments--is we need to raise our 
standards and we need to raise the quality of our testing.
    Having said that, in New York City, when a child reads at 
level one on a grade of four on our standardized test, that 
means that child does not read, and that is a failure, and if 
you do not read, then your ability to do deep cognitive 
thinking, your ability to engage in significant problem solving 
is not going to happen. So I would be the first to say we could 
raise the standards and make them harder.
    But do not buy the argument--I think it is a fallacious 
argument--that when more kids are reading on grade that does 
not mean that their education is not improving. Should it 
improve much more? Are there other things we should test? Yes.
    But when Beverly Hall reports the results she is reporting, 
or Michelle or Arne, when they report those results, what that 
reflects is increased--not yet perfect, but increased--teaching 
quality and learning in our schools, and there is not a teacher 
in the world who does not think that a level one student is 
performing at an entirely different level from a level three, 
and that is what is so critical to this discussion.
    Mr. Altmire. Anyone else?
    Mr. Duncan. Just quickly, I think, again, the quality of 
the assessment is really the key to your question. I think it 
is one of the things that Illinois has done pretty well, and 
the tests themselves are a lot less about filling the bubble 
sheet and more about writing essays and critical thinking and 
reading the passage and, you know, articulating your views upon 
that. I think those are the skills our students need to be 
successful. The quality of the assessments is the key to your 
question.
    Mr. Altmire. Great.
    Ms. Rhee. That would be the same because we have what we 
call within the D.C. assessment the constructed response where 
we have open-ended questions and students are required to solve 
proof or write essays, and that is a very good indication of 
the quality of instruction that they are getting.
    I think the other thing that we have tried to really talk 
to our principals about is the fact that the research shows 
that children who have access and exposure to a broad-based 
curriculum, including music and art, et cetera, actually do 
better academically. So we are trying to move schools and 
principals away from just thinking about how do we only teach 
these tested subject areas to the understanding that a broader 
curriculum is going to result in better academic achievement 
overall.
    Ms. Hall. And I will just close by saying what I said 
earlier. When I went to Atlanta, I knew that when the students 
began to show gains that people would question whether or not 
it had to do with the type of assessment. Hence, our 
volunteering to participate in the National Assessment of 
Educational Progress TUDA initiative, and I think that has 
validated.
    Sure, I was scared because we were digging out of a very 
deep hole, and I knew initially we were not going to look that 
good, but over time, what it has said is, yes, the gains are 
real. What is showing up on the state assessment is also 
showing up on the National Assessment of Education Progress, 
and we are not there. I mean, we have a long way to go, but we 
are showing sustainable, you know, progress every year building 
one year on the other, grade level by grade level, which says 
that the teaching and learning is improving across all the 
schools.
    Mr. Altmire. Thank you all very much.
    Chairman Miller. Mr. Hinojosa?
    Mr. Hinojosa. Thank you, Mr. Chairman.
    I want to commend you for bringing us the best of the best 
of witnesses to come and talk about these issues that are so 
important to us.
    I am going to be brief in saying that I strongly support 
the points that you all have made, especially with the 
foundation of the art of learning, and that is to have reading 
and writing literacy and that that can possibly be started 
early in the first, second, and third year of a child, to have 
family literacy, which teaches parents the importance of that 
art of loving books so that they can read and write early, 
first, second, third, fourth year.
    So that leads me then to the concern that I want to 
address, and that is the graduation rates. Our crisis in 
graduation rates is particularly concentrated in our large 
urban school districts, and I would ask Chancellor Klein and 
then Dr. Duncan of Illinois to please address the question that 
I am going to carefully word.
    You need to know that Congressman Davis here and 
Representative Bobby Scott, Raul Grijalva from Arizona, and I 
introduced the Graduation Promise Act to address the schools 
that are struggling the most to produce high school graduates. 
So my question is what graduation rates do your schools need to 
meet the adequate yearly progress either by meeting the target 
or making safe harbor that impacts the No Child Left Behind?
    Mr. Duncan. A couple thoughts: If you are trying to stop 
the dropout rate, you cannot wait until junior, senior year. 
You have lost those students. So we have tried to put a huge 
focus on freshman and sophomore year.
    We have created a scorecard that we produce every single 
year for every high school. One of the most important 
indicators is what we call the freshman on track rate.
    Mr. Hinojosa. Okay.
    Mr. Duncan. We put a huge amount of our internal 
accountability system, how we rate principals, how we pay them, 
based upon their ability to drive the freshman on track rate 
because if you are waiting to--our graduation rate is a 5-year 
cohort rate, and if you wait until the end of that, you have 
lost those students, and so we tried to put a huge spotlight on 
what goes on during that freshman year. What we have seen is a 
huge drop for us between eighth and ninth grade around 
attendance, and, obviously attendance, when you are missing 
days, leads to truancy which leads to dropout.
    So they actually brought back 19,000 of our incoming 
freshman this year a month early for a program called Freshman 
Connections to get a series of academic supports, but also 
social and cultural, and ease that transition to high school. 
There are lots of other things we are trying to do, smaller 
schools, more innovative schools. Half of our new schools are 
high schools. So there is a disproportionate push there.
    But at the end of the day you have to do it much earlier 
than we have thought about. What we are doing is holding 
schools each year accountable for dramatically increasing their 
freshman on track rate, and then over time, we think that will 
lead to driving down those dropout rates.
    Mr. Hinojosa. Very good answer.
    Chancellor Klein?
    Mr. Klein. I agree it was a very good answer, and I would 
echo it. We are doing very similar things.
    We look at ninth grade to tell because you can almost 
predict the kids who do not accumulate the credits and do not 
pass the necessary state tests in the ninth grade--they are on 
a spiral downward.
    What we have done in New York--we have shut down about 40 
large dysfunctional high schools, and we have opened up--we are 
working with the Gates Foundation and others--250 new small 
high schools, and we have almost in those schools doubled the 
graduation rate. You know, we put a lot of high poverty kids 
who were 2 years behind in a school with 3,000 kids, and we 
wonder why they do not succeed, and we have totally transformed 
that.
    The final thing--and I think this came up in some of the 
questioning--I would say is graduation rates vary so much both 
from the way different states calculate them and also from the 
requirements they set. So, to me, in New York, we just raised 
the standard--and I supported my commission around this--from a 
passage rate of 55 percent to a passage rate of 65 percent in 
order to get your degree on the Regents, the state exams.
    Now that is going to make it harder for me to graduate 
kids, and that could negatively affect my graduation rate, but 
the truth is if you cannot get 65 percent on a math or an 
English Regents, it does not matter that you get a degree. You 
will not be prepared. So I think Congress could do that.
    Mr. Hinojosa. Thank you, Chancellor. Good answer.
    Mr. Chairman, do I have one question----
    Yes. To Chancellor Rhee, what are you doing to ensure that 
you have enough well-prepared teachers for students who are 
English language learners?
    Ms. Rhee. We are putting in place a very aggressive 
recruitment effort on the front end. We are looking 
specifically to recruit mid-career professionals through a 
program called D.C. Teaching Fellows, so people who have the 
content knowledge and the ability to speak very fluently in 
another language who might be working in another profession and 
giving those people incentives to become certified through 
their first year of teaching.
    Mr. Hinojosa. Thank you.
    Thank you, Mr. Chairman.
    Chairman Miller. Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman.
    And thank you, wonderful witnesses. I have learned so much 
from you today.
    My background before I got here was human resources. I was 
a human resources professional for 20 years, and I am a huge 
supporter of pay for performance. I actually designed pay plans 
and performance evaluation systems, trained and implemented 
over the years.
    My companies were high-tech manufacturers. So I know 
absolutely for sure that when you are measuring an assembler or 
a technician that you can measure quite easily because they 
have widgets that they work with, the widgets are all the same, 
and you measure the quality of a printed circuit board when it 
is finished. It either works or it does not work. And so you 
can measure quality.
    But when it came to measuring employees who actually had 
experience and responsibility over other people, it became much 
more difficult. So we know that children and students and 
teachers are not widgets. We know that we cannot measure, if 
they are plugged in, if they work or not, because they are all 
designed differently. And I know for sure that one of 
challenges you have in introducing pay-for-performance programs 
is to make sure that they are fair and objective and 
defensible.
    So would you tell us how you are working on keeping your 
systems, your programs, fair and objective and defensible, 
because that is what it is going to take, I believe, to get all 
the teachers to buy into what would be in their best interests 
in the long run?
    Dr. Hall?
    Ms. Hall. Well, we have come at pay for performance a 
little differently from everybody else here, I think. We 
decided that we would set specific targets, student achievement 
targets, school by school based on where the school is and 
where it needs to be in order to be successful, and that we 
would reward the entire school community if they meet those 
targets.
    It has been transformational--and that is not being 
overstated--in terms of its impact on the school community 
coming together and everyone taking ownership ultimately for 
student achievement results. Whether you are a core teacher, a 
non-core teacher, whether you are, you know, the bus driver who 
needs to get the kids there in time in the morning and 
understands why, everyone is invested in whether or not the 
school meets 100 percent of its targets, 90 percent, 80 
percent, because they get compensated proportionately up to 70 
percent or more.
    And so we have found that people have found that to be 
extremely fair. Even our ``higher-performing'' schools who 
initially found the targets to be even tougher because they are 
almost where they need to be, but they still have groups of 
students that they need to move and more students they need to 
have exceeding standards, they, too, have come to embrace the 
notion that paying everyone who meets these targets--and each 
year, we recalculate them based on how the school has done the 
year before--is fair and equitable, and so----
    Ms. Woolsey. So they each got the same amount of dollars or 
the same----
    Ms. Hall. Depending on the percent----
    Ms. Woolsey [continuing]. Percentage?
    Ms. Hall. Well, no. The classified employees, the non-
instructional, get a different scale from the teacher and the 
principals, but, yes, they all get some compensation based on 
whether or not the school meets 70 percent or more of their 
targets.
    Mr. Klein. What we did on that was actually very similar, 
but it had a fascinating twist in it and we negotiated it with 
the union, and that is if we give each school a target, you are 
expected to move your kids up by X percent, if you meet the 
target, for each teacher in the school, you get $3,000. So if 
you have 100 teachers, you get $300,000.
    Then you form in the school a committee, a compensation 
committee, which you will be very familiar with, and that has 
the principal and his designee and two teachers elected by the 
teachers. The four of them sit down, and they now take that 
$300,000 and divide it up. They can give everyone the same. The 
one thing they cannot do under contract is base it on 
seniority, and, this year, 200 of our schools were eligible, I 
think a significant number are going to get those bonuses, and 
then we will see what kind of differentiation.
    But do it at the local level and let there be some 
creativity.
    Mr. Duncan. A couple quick things: I think the idea of not 
being all or nothing, but gray data so the real high performers 
get dramatically more, and, you know, you can participate at 
different levels.
    Secondly, obviously, the devil is in the details. How you 
compensate the P.E. teacher, the librarian, again, you have to 
look at the whole school and look at the growth of that school 
so that everyone buys in.
    And then, third, I think something we have all tried to do 
is not just talk about teachers, but focus on every adult in 
the building--the custodian, the security guards, the lunchroom 
attendant. When you go into a very high-performing school, 
every adult in that building is saying, ``Are you taking your 
homework home? Where is your backpack? What is going on?''
    And so we are really trying to not do us versus them, but 
get everyone pushing the same direction. The idea of team, I 
think, is really important.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Chairman Miller. Mr. Sarbanes?
    Mr. Sarbanes. Thank you, Mr. Chairman.
    I was the liaison for the city-state partnership for 8 
years, which was the partnership that you are familiar with, 
Chancellor Rhee, in Baltimore City between the State of 
Maryland and Baltimore City. It was a unique governance 
structure. It remains unique in the country, I think, because 
the governor and the mayor of Baltimore jointly appoint the 
board that oversees.
    And the mayors are not here, but my question is about 
governance structures. We have one exception. But how important 
do you think it is that the mayor have the control over the 
system that is indicated in a number of these, or is it just 
getting the right people because you could say there are four 
or five models for the way you govern things. You could get the 
right people to work, and everybody will say the model is a 
great one. If you get the wrong people, it will not and they 
will say the model is no good. So just your thoughts real 
quick.
    Ms. Rhee. So I would say it is a little of both. I think, 
having worked with most of the large urban school districts in 
this country over the past 15 years, I will say that I think 
that the school board structure is a very, very difficult one 
to navigate through.
    I have worked in cities where the business community has 
come together to sort of, you know, elect a slate of reform-
minded school board members, and I think something happens when 
you become a school board member that you sort of lose your 
mind or something. and then they all kind of, you know, go off 
the reservation.
    So I think it is very, very, very difficult to have a 
school board structure where, you know, you are not sort of 
caught up in the politics. I think there is no way in my mind 
that I would have been able to make the reforms that I have 
over the past year without the full backing of the mayor. There 
is just no way that it would have happened.
    Mr. Sarbanes. Dr. Hall, do you want to respond to that 
because you have a different situation, right?
    Ms. Hall. Yes. You know, I went to Atlanta from Newark, 
and, at the time, I was the state-appointed superintendent of 
Newark. There was no board. If you recall, when the State of 
New Jersey took over that system, the board was eliminated, and 
the superintendent was sort of the czar, and that had both its 
pluses and its minuses because what happened was a tremendous 
alienation from the community feeling that this is being 
imposed on them.
    And I guess Atlanta where there had been a history of 
problems with the school boards and the superintendent--I spoke 
about the superintendent's level when I got there, and what we 
had, however, in Atlanta was a community, I guess, feeling that 
this just had to stop. They had had enough. They had reached 
the point where they were going to hold both the superintendent 
and the board accountable for getting this thing done, and we 
also had a governor at that time, Governor Barnes, who was also 
very, very fed up with what was going on with the Atlanta 
Public Schools.
    Mr. Sarbanes. Okay.
    Ms. Hall. So, when we had all those forces working 
together, we were able to put in place a board and to put into 
the law governing the Atlanta Public Schools certain 
requirements from the board. There is a very strong ethics 
component in the charter governing Atlanta Independent School 
District that if board members actually step what I call below 
the line into managing the District, there are very real 
consequences, including removal from the board of education.
    Mr. Sarbanes. Okay. To be continued. Thank you.
    Chairman Miller. To be continued.
    Thank you very much for your time, your expertise, and all 
the work that you are doing in the districts.
    And members will have 14 days to submit extraneous material 
and questions for the hearing record
    And the committee will stand adjourned.
    Thank you to everyone.
    [Statement of the National Alliance of Black School 
Educators, submitted by Mr. Miller, follows:]

       National Alliance of Black School Educators,
                               310 Pennsylvania Avenue, SE,
                                     Washington, DC, July 16, 2008.
Hon. George Miller; Howard P. McKeon; Mike Castle;
Committee on Education & Labor, U.S. House of Representatives, 
        Washington, DC.
    Dear Honorable Committee Members: On behalf of our President Dr. 
Deborah Hunter-Harvill and the National Alliance of Black School 
Educators (NABSE) and our 140 affiliates, we appreciate this 
opportunity to make further comments beyond our September 10th 
testimony on the Elementary and Secondary Education Act (ESEA). Our 
organization has over 5400 members, with a structure comprised of 
commissions and affiliates that represent teachers, school board 
members, retired educators, superintendents of schools, central office 
staff, administrators, principals, and higher education faculty and 
researchers. The diverse professional roles of our members offer wide 
expertise that produces rich and coordinated conversations and actions 
that speak directly to the needs of children of African descent. NABSE 
continues to commend you on your efforts to improve our nation's 
educational opportunities. As the Congress moves forward on its 
reauthorization of the ESEA, your precedent-setting action of providing 
America's citizenry with your thinking in draft discussion documents is 
powerful. We urge you to continue this transparency throughout the 
process of reauthorizing the ESEA. We would like to direct our 
commentary today to the issue of quality education as a right for every 
American child, or as popularly termed ``Education as a Civil Right.''
    There are three views on how to ensure ``Education as a Civil 
Right.'' The first is to amend the United States Constitution to 
include education as an explicit fundamental right. The second is that 
education is an implicit fundamental right under the current U.S. 
constitution and that a future Supreme Court should confirm this right 
when it comes before The Supreme Court again. The third view is that 
education is already an explicitly recognized constitutional right 
under all fifty state constitutions and need only be appropriately 
implemented.
    The National Alliance of Black School Educators (NABSE) wishes to 
explore the third concept, with a focus on Congress's role in assisting 
states in fulfilling their constitutional obligations and Congress's 
responsibility, pursuant to the Equal Protection Clause of the 
Fourteenth Amendment, to do so. Forty eight years ago, Congress and 
education advocates joined on a path toward leveling the playing field 
intentionally for underserved children. The authorization of the ESEA 
of 1965, coupled with provisions of Title IV of the Civil Rights Act of 
1964, initiated the appropriate and necessary role of the federal 
government in guaranteeing equal educational opportunity nation wide.
    Notwithstanding the important impact of this legislation, neither 
state nor federal efforts have yet produced the same educational 
resources for African American and other minority and disadvantaged 
students that are available to other groups. It is in the national 
interest to markedly increase the educational resources and financial 
capital available to poor children of African descent, poor schools, 
and poor school districts. It is precisely for this reason that the 
federal government must continue to play a strong supplemental role. 
Research shows that the level of educational attainment is heavily 
dependent on the quality of the educational opportunities over a long 
period of time. However, in playing that supplemental role through its 
carrot and stick approach, we suggest that Congress anchors another 
concept in its reauthorization.
    A tremendous amount of language and ink are spent in the current 
law on accountability, bench marks, sanctions, and mandatory 
restructuring. We have always supported measures of accountability; 
however, we propose that that accountability more rigorously be applied 
at the state level. It is, in fact, the states who have the 
constitutional authority and obligation to guarantee that Education is 
a Civil Right.
    The legal grounding of educational rights has changed considerably 
over the history of the ESEA. At the time of ESEA's first enactment, 
state educational rights were entirely undeveloped. All fifty states 
had constitutional clauses that obligated them to provide education, 
but the import of the clauses was largely ignored or unenforced. In 
subsequent years, however, state supreme courts established that these 
clauses guarantee a certain qualitative level of education, warrant 
application of state equal protection to educational funding schemes, 
or create a fundamental right to education. Based on these conclusions, 
courts have ordered major remedies in over half of the states. Even 
when remedies were not forthcoming, courts still established that 
students have a state constitutional right to education.
    Three important principles have emerged from these state court 
decisions, some of which reveal that the traditional thinking about 
education and the federal role are no longer accurate. First, the 
constitutional responsibility for delivering education rests solely 
with the state. School districts only exercise delegated authority. The 
state always remains responsibility for ensuring that school districts 
have sufficient resources to deliver education and that they deliver it 
in a manner consistent with constitutional standards. Any failure in 
these respects is ultimately attributable to the state. Second, the 
constitutional right to education has quantifiable and qualitative 
components. These components are explicitly identified in state Supreme 
Court decisions and in the expansive statutory and regulatory 
frameworks of every state. Third, federal involvement in education does 
not jeopardize principles of federalism. Congress's current legislation 
poses no risk because its role has been limited to supplemental funds 
and entails little, if any, substantive monitoring of educational 
opportunities. However, even an effort in regard to substantive 
measures would no longer pose federalism concerns because states have 
developed their own standards, on which Congress need only to rely.
    Given the changes in state educational rights, the nature of 
Congress's role must also change. Now more than ever, it is incumbent 
upon Congress to incorporate in its role the monitoring of substantive 
opportunities that students receive, and ensuring they are equal. Past 
objections to such a role are largely premised on the same rationale 
that dominated the Supreme Court's decision in San Antonio v. 
Rodriguez. The Court rejected the federal courts' substantive 
involvement in education primarily for two reasons. First, at the time, 
there was a lack of any meaningful or enforceable state rights to 
education. Second, the Court's believed it was incapable of making 
qualitative judgments about education without usurping states' rights 
and exceeding judicial competency. Since San Antonio, state 
constitutions and state supreme court decisions have resolved both of 
these issues by explicitly recognizing educational constitutional 
rights and defining their qualitative components. In fact, these very 
developments in state law now dictate that Congress must act.
    Congress has an obligation, pursuant to the Equal Protection Clause 
of the Fourteenth Amendment, to ensure that states are, in fact, 
delivering an education consistent with the states' own qualitative 
measures. Doing so does not require Congress to make any substantive 
decisions about education. Rather, it simply entails Congress 
monitoring whether states are meeting their respective substantive 
constitutional obligations. States are free to determine what type of 
education they wish to provide, or offer no education at all. But once 
a state exercises its discretion to provide education as a 
constitutional right and it determines that right has qualitative 
components, the federal equal protection clause imposes an obligation 
to provide that right to all students on an equal basis. Thus, it is 
also Congress's responsibility to ensure that it does not allocate 
funds to state systems that deliver unequal educational opportunities 
in violation of equal protection. Section 5 of the Fourteenth Amendment 
specifically authorizes and obligates Congress to further the dictates 
of equal protection through its legislation.
    In too many communities, data reveal that certain students are not 
receiving educational opportunities that comport with their state 
constitution. In most states, poor, minority, and rural school 
districts struggle to provide an adequate education, while their 
suburban counterparts have all of the requisite resources. Such systems 
fail the requirements of equal protection, and Congressional action 
that sanctions or furthers these failures is inconsistent with 
Congress's own equal protection responsibilities.
    Congress, however, can separate itself from equal protection 
violations and, in fact, further equal educational opportunities in two 
ways. First, it can require the federal government to monitor whether 
states are meeting their own qualitative constitutional 
responsibilities in education, conditioning the receipt of federal 
funds on states' meeting their own standards, or making progress toward 
them. Second, Congress can use its spending power to assist states in 
closing the gaps of unequal educational opportunities. The amount of 
supplemental funds it has provided in the past, and the manner in which 
it has disbursed them, have been insufficient to close these gaps. 
Congress must increase the spending levels and it must adjust the 
criteria by which it awards these funds to ensure that the funds 
equalize opportunities between schools, rather than only within 
schools. Ultimately, such changes are consistent not only with 
Congress's equal protection obligations, but also with its own stated 
purpose of the ESEA: To respond to ``the special educational needs of 
low-income families and the impact that concentrations of low-income 
families have on the ability of local educational agencies to support 
adequate educational programs'' and ``to expand and improve their 
educational programs by various means (including preschool programs) 
which contribute particularly to meeting the special educational needs 
of educationally deprived children.''
            Respectfully Submitted,
                     Quentin R. Lawson, Executive Director,
                       National Alliance of Black School Educators.
                               Dr. LaRuth Gray, Consultant,
                                   to the NABSE Board of Directors.
                                 ______
                                 
    [Questions submitted to witnesses and their responses 
follow:]

                                             U.S. Congress,
                                     Washington, DC, July 24, 2008.
Hon. Michael R. Bloomberg, Mayor,
City of New York, New York, NY.
    Dear Mayor Bloomberg: Thank you for testifying at the July 17, 2008 
hearing of the Committee on Education and Labor on ``Mayor and 
Superintendent Partnerships in Education: Closing the Achievement 
Gap.''
    Representative Ruben Hinojosa (D-TX), chairman of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
questions:
    1. In the Department's report, there is no data provided from 
Illinois or New York on the academic achievement of English language 
learners in the content areas. How do you hold schools and the district 
accountable for ensuring that English language learners achieve to the 
same standards as all other students and for ensuring that they have 
full access to the curriculum in a manner that is understandable to 
them as required under the Supreme Court case Lau v. Nichols?
    2. What graduation rates do your schools need to meet to make AYP 
either by meeting the target or making ``safe harbor''?
    3. I along with Rep. Scott, Rep. Grijalva, Rep. Davis, and many of 
my colleagues on this committee introduced the Graduation Promise Act 
to address the schools that are struggling the most to produce high 
school graduates. What are your views on the need for a large scale 
effort in this area?
    Please send an electronic version of your written response to the 
questions to the Committee close of business on Wednesday, July 30, 
2008--the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                                             U.S. Congress,
                                     Washington, DC, July 20, 2008.
Joel I. Klein, Chancellor,
New York City Department of Education, New York, NY.
    Dear Mr. Klein: Thank you for testifying at the July 17, 2008 
hearing of the Committee on Education and Labor on ``Mayor and 
Superintendent Partnerships in Education: Closing the Achievement 
Gap.''
    Representative Ruben Hinojosa (D-TX), chairman of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
questions:
    1. In the Department's report, there is no data provided from 
Illinois or New York on the academic achievement of English language 
learners in the content areas. How do you hold schools and the district 
accountable for ensuring that English language learners achieve to the 
same standards as all other students and for ensuring that they have 
full access to the curriculum in a manner that is understandable to 
them as required under the Supreme Court case Lau v. Nichols?
    2. What graduation rates do your schools need to meet to make AYP 
either by meeting the target or making ``safe harbor''?
    3. I along with Rep. Scott, Rep. Grijalva, Rep. Davis, and many of 
my colleagues on this committee introduced the Graduation Promise Act 
to address the schools that are struggling the most to produce high 
school graduates. What are your views on the need for a large scale 
effort in this area?
    Please send an electronic version of your written response to the 
questions to the Committee close of business on Wednesday, July 30, 
2008--the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

 New York City Department of Education Response to July 23rd Questions 
                             for the Record

                               question 1
    In the Department's report, there is no data provided from Illinois 
or New York on the academic achievement of English Language Learners in 
the content areas. How do you hold schools and the district accountable 
for ensuring that the English Language Learners achieve to the same 
standards as all other students and for ensuring that they have full 
access to the curriculum in a manner that is understandable to them as 
required under the Supreme Court case Lau v. Nichols?
    The Office of English Language Learners (ELLs) continues to 
implement Children First reform initiatives that bolster a more 
rigorous and responsive education for ELLs. By building on the momentum 
of the Chancellor's seven ELL directives (2003), and refining 
initiatives to help schools meet comprehensive accountability measures, 
the Office is creating a stronger, more supportive staffing 
infrastructure, rigorous professional development, coherent programs, 
better materials and resources, and comprehensive parent outreach.
    The Best Practices Initiative identifies schools that have shown 
significant academic improvements for ELLs and shares with schools 
citywide how these improvements were made. ELL specialists visit 
schools that have demonstrated strong gains for ELLs in English 
language arts, mathematics, science and/or social studies based on a 
review of ELL performance data. In addition, practices and outcomes 
from schools that have piloted academic interventions geared toward 
improving ELLs academic achievement are studied and shared. Schools are 
recruited and encouraged to share innovations and practices that have 
produced reliable results through citywide conferences and/or 
intervisitations. Descriptions of promising practices are provided on 
the Web site for similarly situated schools interested in replicating 
them.
    The Bilingual Special Education Initiative is building a better 
process to ensure the provision of equitable instructional outcomes for 
ELLs with special needs. Through the initiative, the Office of ELLs 
works closely with the Office of Special Education Initiatives to 
support districts and schools with intervention strategies, 
assessments, and instruction for ELLs with special needs. The 
initiative contributed to a recent guide, ``Practitioner's Guide with 
Primary Emphasis on Assessing Achievement as Part of an Evaluation for 
Special Education,'' which, along with training modules, has been 
disseminated citywide and provides the basis for wide-scale 
professional development for clinicians.
    The Classroom Resource Initiative works with all initiatives to 
identify, develop, and disseminate the core curriculum instructional 
materials and assessments necessary for schools to best support their 
ELLs. In 2007-08, core instructional materials for ELLs have been 
purchased centrally and delivered to schools. Periodic assessments for 
ELLs have been implemented citywide. Also, specialized SIFE diagnostic 
assessments are in the final stages of development.
    The Dual Language Network Initiative provides planning, 
implementation and global technology grants along with technical 
assistance, resources and citywide networking events for schools 
implementing dual language programs and those interested in the dual 
language model. Each year, the initiative links schools (and other 
interested parties) with local, state and nationwide researchers and 
practitioners, providing high quality networking events, like the 2008 
Dual Language Symposium and the Dual Language Leadership Institute. The 
initiative continues to expand the number of programs in New York City 
(currently 70), as well as language offerings-which now include Haitian 
Creole, Russian, Korean, and French-adding to existing Spanish and 
Chinese programs. Plans to offer more dual language programs that 
extend into middle school and high school are being developed by 
several schools in order to develop program sustainability. The 
initiative partners with researchers from the Center for Applied 
Linguistics and leaders in the dual language field-Dr. Sonia Soltero, 
Dr. Margarita Calderon, Mimi Met, Dr. Sandra Mercuri, Lore Carrera-
Carillo, and Annette Smith--to help cohorts of schools create action 
plans for stronger programs. These experts work closely with groups of 
principals, administrators and teachers of prospective and actual 
programs through a Dual Language Leadership Institute. Also, the 
initiative identifies and coordinates intervisitations with exemplary 
programs so that they can share their best practices with other 
schools.
    Language Allocation Policy (LAP) Initiative: Released in 2004, the 
Language Allocation Policy provides a coherent policy for the 
distribution of English and native language use in ELL instruction. A 
LAP tool kit, created in 2004 and revised in 2007-08, provides 
resources and structures to support school-based teams with planning 
for ELL instruction. The LAP Initiative continues to update resources 
and provide professional development on how to prepare a LAP that 
guides the schools in creating programs for ELLs that are challenging 
and rigorous. In addition, because the LAP is now a part of the 
school's Comprehensive Education Plans, ELL specialists assist schools 
in creating and revising LAPs on an annual basis to ensure that there 
is instructional coherency within and across ELL programs.
    The Literacy Initiative provides a variety of professional 
development opportunities, resources and intervention programs for ELL 
educators and staff with the goal of narrowing the achievement gap 
between ELLs and English proficient students. Large conferences, like 
Scaffolding the Academic Uses of English for ELLs, targeted workshops 
on assessments and strategies, and the multi-leveled ELL Literacy 
Leadership Institute (ELL-I) build school communities committed to ELL 
literacy. The ELL-I works with administrators, teachers, and parent 
coordinators so that school communities analyze their practices, 
establish long term goals for literacy development for ELLs, and 
develop action plans to achieve these goals. The institute relies on 
the expertise of ELL literacy researchers and authors such as Diane 
August (Center for Applied Linguistics), Margarita Calderon (Johns 
Hopkins University), Pauline Gibbons and Jennifer Hammond (University 
of Technology in Sydney, Australia), Myriam Met (University of 
Maryland), Mary Capellini, David and Yvonne Freeman (The University of 
Texas at Brownsville), and Katharine Davies Samway (San Jose 
University), Lori Helman (University of Minnesota), Sandra Mercuri 
(Fresno Pacific University). Launched in the 2006-07 school year, the 
institute has already reached more than 350 school staff from 100 
school teams and expects an additional 300 to participate during the 
2008-09 school year. Also, ELL specialists are creating a K-12 English 
as a Second Language scope and sequence document that is aligned to the 
English Language Arts standards. This document will provide guidance 
for educators who are strengthening their curriculum. Finally, the 
initiative provides schools citywide with literacy and language support 
interventions designed to differentiate literacy instruction for ELLs. 
Web-based programs for elementary and middle school ELLs like Achieve 
3000, Award Reading, and Imagine Learning English give students 
additional demonstrations of classroom concepts using technology while 
providing teachers with information on usage and pre- and post-
assessment results. Programs like Reading Instructional Goals for Older 
Readers (RIGOR) focus on accelerating language, literacy and content 
understanding for struggling learners.
    The Math Initiative strives to raise the academic achievement of 
ELLs by building a strong network among school-based math and ELL 
leaders through professional development events, conferences and action 
plans. The initiative provides schools with access to expert 
mathematics researchers such as Mark Driscoll (Center for Leadership 
and Learning Communities), Grace Kalemanik (Center for Leadership and 
Learning Communities), Donna Gaarder (WestEd), Harold Asturias 
(Lawrence Hall of Science) and Nicholas Branca (San Diego State 
University). In 2007-08, the Math Initiative, in addition to enhancing 
the content and methodology of middle school math educators, focuses on 
the development of mathematics academic language in middle and high 
school students. Through workshops, institutes, seminars and a citywide 
conferences, the initiative provide educators with the theoretical 
underpinnings and the practical strategies required to raise ELL 
achievement in mathematics. The initiative continues to strengthen a 
math leadership structure which uses QTEL math institute strategies to 
create curriculum enhanced lessons. More than 4,200 professionals have 
participated in mathematics initiative professional development since 
2004.
    The Middle School Initiative works closely with middle school staff 
through targeted professional development institutes. The 2007-08 year 
features ongoing institutes e.g., Looking at ELLs Work in the Middle 
School, Middle School Mathematics and Academic Language Seminar, 
Tertulia and Professional Learning for Spanish NLA Teachers, 
Differentiated Instruction for Effective Teaching of Mathematics for 
ELLs, Using Released Test Items to Improve ELL Mathematics Instruction, 
and Scaffolding Academic Uses of English in Middle School ELA for ELLs. 
Also, all Office of ELLs-sponsored conferences on world and dual 
language programs, strengthening academic language, mathematics, 
science, best practices and ELL subpopulations (e.g., SIFE, LTEs) 
provide sessions and panel discussions specifically for middle school 
staff featuring experts and middle school practitioners. Finally, the 
initiative provides coaching to more than thirty high-needs middle 
schools as well as one-on-one technical assistance from ELL specialists 
through the Adopt-a-Middle-School program.
    The Native Language Arts (NLA) Initiative provides bilingual 
administrators and educators with critical native language classroom 
resources and professional development institutes necessary to provide 
native language learning according to state standards. Native language 
classroom libraries are strengthening classroom instruction in 
bilingual classrooms citywide. Since 2003, $2.27 million dollars have 
been spent on Spanish classroom libraries, $1.21 million on Asian 
Language libraries (including Bengali, Chinese, Korean, and Russian), 
and $72,000 on Haitian Creole classroom libraries. Schools have 
implemented academic interventions with supports in Spanish (Achieve, 
Imagine Learning, Destination Math, RIGOR), Mandarin (Imagine 
Learning), Vietnamese (Imagine Learning), Haitian Creole (Imagine 
Learning), Japanese (Imagine Learning), Korean (Imagine Learning), 
Portuguese (Imagine Learning), and French (Imagine Learning). This 
year, several NLA committees are creating resources for NLA teachers, 
e.g., a six level Scope and Sequence and Curriculum for High School 
Spanish NLA to strengthen programs citywide so that more students reach 
proficiency at the AP level. In 2007-08, special offerings for NLA 
educators included institutes on Spanish, literacy and science. A 
series of Spanish NLA professional development provides an opportunity 
for teachers to strengthen their language and literature content, learn 
new strategies to add to their repertoire, and visit the rich and 
varied Spanish cultural resources available to our students.
    The Parent Outreach Initiative. Parents of ELLs especially should 
feel welcome in NYC schools and be fully informed of the instructional 
program options available to their children. More than 3,500 parents 
participate each year in activities sponsored by the ELL Parent 
Outreach Initiative, in collaboration with other DOE offices (e.g., 
Office of Parent Engagement, Translation and Interpretation Unit). 
Annual citywide conferences provide parents of ELLs with an opportunity 
to see key officials and policymakers; attend informational workshops; 
meet school and community-based organization; and peruse educational 
materials from publishers that showcase learning materials for ELLs in 
a variety of native languages. The initiative also provides specialized 
training focused on literacy and math so that parents can participate 
in the academic lives of their children (e.g., The Math and Parents in 
Partnership Program is in its third year). The initiative conducts 
outreach and training sessions for school staff and community groups in 
order to increase the capacity and awareness of those who work with ELL 
parents. Finally, the initiative develops school-based resources to 
assist staff who work with ELL parents (see ELL Parent Information 
Case).
    Quality Teaching for English Learners (QTEL) Professional 
Development Institutes: Educational consultants at WestEd, in 
collaboration with Office of ELLs staff, provide a host of multi-day 
professional development opportunities for educators (bilingual and 
monolingual) and region and school-based leaders. The institutes have 
reached almost 500 educators in 2007-08 and thousands of educators 
citywide since 2003.
    <bullet> Beginning ESL is for secondary ESL teachers who work with 
beginning ESL students. This institute promotes communicative 
competence in English for secondary students by presenting activities 
that stimulate students' conversational situations, enhancing their 
capacity to produce well-defined spoken and written text.
    <bullet> ``Building the Base I'' gives participants a firm grasp of 
QTEL strategies-mainly effective scaffolding strategies to facilitate 
the linguistic transition of ELLs. It provides a solid base for any 
educator called to teach ELLs or foreign language students, especially 
those with ELLs in their general education classrooms.
    <bullet> English Language Arts QTEL for secondary school English 
Language Arts teachers develops participants' understanding of how to 
scaffold instruction for ELLs with grade-appropriate rigorous texts 
within a variety of genres. The institute provides the theoretical 
understanding and corresponding strategies so that educators can 
effectively engage ELLs in acquiring the standards-based content and 
academic language needed to succeed in secondary school.
    <bullet> Math QTEL pivots around instructional scaffolding-
providing support structures-to help ELLs transition to English while 
strengthening academic language in mathematics. It develops 
participants' theoretical understanding and practical knowledge of 
effective practices for teaching students who are learning English and 
math content simultaneously. The institute includes practical lesson 
planning and building thematic units, while also arming teachers with 
the attitudes, knowledge, and dispositions to work effectively with 
adolescent language learners.
    <bullet> Science QTEL for secondary education science teachers 
develops participants' theoretical understanding and practical 
knowledge of effective instructional practices for teaching students 
who are learning English and science content simultaneously. This 
institute is for science teachers who need strategies to raise the 
academic performance of ELLs in their classrooms.
    <bullet> Social Studies QTEL for high school social studies 
teachers develops participants' expertise in teaching English learners 
rigorous content and uses of academic English to succeed in US History 
and Government courses. The institute provides teachers with a firm 
foundation of the theoretical understanding and practical applications 
necessary for scaffolding standards-based, grade-appropriate content.
    <bullet> Spanish QTEL helps bilingual, dual language and foreign 
language educators develop tools and processes for teaching academic 
Spanish to native Spanish-speaking students.
    The Science Initiative provides staff development to raise the 
academic achievement of ELLs in science. Working closely with West Ed, 
the initiative provides institutes that strengthen content, provide 
strategies for ELLs in science, and connect teachers with the wealth of 
science institutions around the city that are available to students. 
Workshops and institutes establish school-level partnerships 
encouraging ESL and science teachers to participate as teams.
    The Secondary Schools Initiative ensures that middle and high 
schools, both large and small, receive support for a quality education 
that moves ELLs towards achieving post-secondary success. Sustained 
professional development builds academic literacy and language in 
content area subjects such as mathematics, social studies, English, and 
science. Secondary schools are provided with exemplars of a standards-
based curriculum, instructional materials provided in home languages 
and accessible English, and high quality teachers with expertise in 
English language development. Under the initiative, groups of educators 
are developing scope and sequence documents for ESL, foreign language, 
and native language arts for grades 6-12. These will be accompanied by 
curriculum maps and units of study. Also, the initiative developed a 
summary of research and promising practices, Designing Better High 
Schools for ELLs, to help high schools structure their ELL programs to 
be more flexible and responsive to the needs of adolescent ELLs.
    The Small Schools Initiative provides sustained support to school 
leaders and their teams as they develop a quality program for ELLs. ELL 
specialists work with small school communities to identify common areas 
of need. A comprehensive technical assistance support program helps 
schools review and conduct needs assessment surveys to identify and 
address high-needs areas for ELLs small schools. The initiative also 
provide professional development, such as a four-day institute for 
teachers, coordinators and administrators on programming and scheduling 
rigorous instructional programs aligned to CR Part 154 mandates. A tool 
kit is being developed targeting the needs of small schools. In 
collaboration with of the Office of Portfolio Development, new small 
schools opening in the 2008-09 school year will receive summer 
professional development and technical assistance.
    The Social Studies Initiative strives to raise ELL academic 
achievement through project-based learning and an English as a Second 
Language (ESL)/Literacy approach. The Global History and Geography 
Enrichment Program is designed for ESL/bilingual teachers to support 
ninth and tenth graders at beginning and intermediate literacy levels 
with Regents requirements. Teams of ELL specialists, teachers, social 
studies content experts and literacy consultants have developed a 
Global History & Geography Curriculum Guide for ELLs. This curriculum 
guide, which can be used as a supplement to the ninth grade Global 
Studies Core Curriculum, provides exemplars that effectively integrate 
specific reading and writing strategies as well as scaffolds to teach 
Global Studies. In 2007-08, the guide, consisting of lessons and 
student journals, was piloted in classroom during and after school. In 
some settings, the content area specialist co-taught with the ESL 
specialist to effectively support students with content area knowledge 
as well as academic language. Professional development includes 
institutes on using the guide along with content libraries and 
instructional materials. Additional professional development will be 
provided in the 2008-09 school year for schools that opt to use the 
guide
    Students with Interrupted Formal Education (SIFE) Grants Project 
provides funding, professional development and technical assistance so 
that schools create instructional models to accelerate language and 
academic learning for SIFE. The initiative has expanded support to 
include long-term ELLs, provided more tailored professional development 
and instructional service options for 47 grant recipients, and refined 
its structure to provide funding and technical assistance to 
demonstration sites within the school system. The initiative also 
continues to work with the CUNY Graduate Center on ongoing research and 
diagnostic assessments as well as with state policymakers on SIFE 
identification. A diagnostic assessment to identify Spanish and English 
speaking SIFE will be available beginning September 2008.
    The World Languages Initiative prepares City students to be well-
equipped with cultural and foreign language skills required for our 
global society. The initiative provides a citywide conference that 
provides educators with school planning information and classroom 
strategies for developing effective world language programs. Targeted 
institutes focus on helping educators develop curriculum. Additionally, 
ELL specialists and leaders from the field are working together to 
develop a scope and sequence for Spanish and Chinese. The scope and 
sequence (grades K-12) documents will guide world language instruction 
that is aligned to national and State standards. Also, a learning 
community of teachers, in collaboration with The World Language 
Department of Queens College, work together to write curriculum units 
to foster students' awareness of world cultures and strengthen 
linguistic skills.
    The Writing Initiative looks at writing as an integral part of the 
success of each ELL in every subject. This initiative provides one- and 
two-day professional development sessions that look at the various 
genres in which ELLs are required to perform, such as expository (e.g. 
reports and essays) writing. Professional development sessions give 
participants practical and research-based strategies that build ELLs' 
writing skills, allowing students to express their opinions, write 
about a wide array of subjects, and convey meaning accurately within 
content-areas.
                               question 2
    What graduation rates do your schools need to meet to make AYP 
either by meeting the target or making ``safe harbor''?
    For NCLB/state accountability, the graduation rate cohort will be 
used to determine if the district or school meets the graduation-rate 
requirements. The state standard for graduation rate is 55%. The 
graduation-rate cohort consists of all students, regardless of their 
current grade status, who were enrolled in the school on October 6, 
2005 (BEDS day) and met one of the following conditions: first entered 
grade 9 (anywhere) during the 2002-03 school year (July 1, 2002 through 
June 30, 2003); or in the case of ungraded students with disabilities, 
reached their seventeenth birthday during the 2002-03 school year. For 
a school to meet AYP in ELA and/or math via safe harbor at the 
secondary level, it must make the State Standard or its Progress Target 
for graduation rate.
---------------------------------------------------------------------------
    Note. Progress Targets are determined at the secondary level for 
groups that do not meet the State Standard. To make AYP for graduation 
rate, the ``All Students'' group must meet the State Standard or its 
Progress Target.
---------------------------------------------------------------------------
                               question 3
    I along with Rep. Scott, Rep. Grijalva, Rep. Davis, and many of my 
colleagues on this committee introduced the Graduation Promise Act to 
address the schools that are struggling the most to produce high school 
graduates. What are your views on the need for a large scale effort in 
this area?
    The New York City Department of Education strongly supports the 
need for a large scale effort to address schools that are struggling 
the most to produce high school graduates. In particular, we support 
the Graduation Promise Act's provisions to authorize $2.5 billion in 
new funding to:
    <bullet> Create a federal-state-local secondary school reform 
partnership focused on transforming the nation's lowest performing high 
schools;
    <bullet> Build capacity for high school improvement and provide 
resources to ensure high school educators and students facing the 
highest challenges receive the support they need to succeed;
    <bullet> Strengthen state systems to identify, differentiate among, 
and target the level of reform and resources necessary to improve low 
performing high schools and ensure transparency and accountability for 
that process;
    <bullet> Advance the research and development needed to ensure a 
robust supply of highly effective secondary school models for those 
most at risk of being left behind, and identify the most effective 
reforms; and
    <bullet> Support states to align their policies and systems to meet 
the goal of college and career-ready graduation for all students.
    In offering this support, it is necessary to put school turnaround 
and replacement efforts into the context of overall secondary school 
reform in New York City and discuss how these efforts move us toward 
high school diplomas that signify college- and work-readiness for the 
21st century.
    Six years ago, Mayor Bloomberg and Chancellor Klein created 
Children First, a bold agenda to reform New York City's public 
schools--the nation's largest school system. Children First directly 
addresses the greatest challenge and opportunity in public education 
today: preparing our students to succeed, to become thoughtful and 
productive citizens, and to contribute to the city's vibrancy and 
competitive advantage. Under Children First, the overarching goal of 
the New York City Department of Education (DOE) is to develop, support, 
and sustain 1,450+ great schools, providing every student in the city 
access to a high quality education and the chance to succeed. The DOE 
is not building a great school system, rather a system of great 
schools.
    Significant progress has been made under Mayor Bloomberg and 
Chancellor Klein. Launched in 2003, Children First has stabilized a 
formerly unbalanced system, eliminated layers of bureaucracy, pushed 
more than $350 million from central and regional administration into 
the schools, and set new and rigorous academic standards supported by 
strong curricula. Today, the system is stronger and tangible progress 
has been made--the four-year high school graduation rate has reached 
60%, the highest level since the city began calculating the rate in 
1986
    The NYC DOE's new eighth grade promotion standards hold students to 
higher expectations and will ensure that students who are promoted out 
of middle school are effectively prepared for the rigors of high 
school-level work. Once students successfully meet this threshold, they 
are provided with a portfolio of high quality secondary school options 
that put them on a path to realize their educational and life goals.
    Building a portfolio of high-quality education options that meet 
the diverse needs of New York City's 1.1 million students and their 
families has been a centerpiece of the reforms. To accomplish this, 
internal DOE stakeholders--the Chancellor's Office, the Office of 
Portfolio Development, the Office of Multiple Pathways to Graduation, 
the Division of Teaching & Learning--have collaborated with external 
support partners to develop a range of meaningful programs designed to 
target high-need student populations, organized around two 
complementary sets of strategies aimed at improving the 4-year and 6-
year graduation rates:
    1. Preventative Strategies that focus on providing students with 
rigorous, personalized, and engaging academic options that would 
prevent them from falling off-track and becoming overage-under credited 
(OA-UC). The Gates Foundation has been a strong partner in this work, 
which includes:
    <bullet> New small schools that offer high quality educational 
options to all students based on the principles of academic rigor, 
personalization, and community-based partnerships; to date, the DOE has 
created over 230 new schools.
    <bullet> Charter Schools are independent public schools, governed 
by their own not-for-profit boards of trustees, which operate on the 
terms of five-year performance contracts known as charters. All 
students eligible for admission to a traditional public school can 
apply to a charter school. Students are admitted through a lottery, but 
charter schools do give preference to siblings of students already 
enrolled in the school and students living in the charter school's 
district.
    <bullet> Small learning communities (SLCs)--small academic 
communities of approximately 400 students within larger comprehensive 
middle and high schools. Each SLC has a dedicated group of 
administrators and staff focused on providing students with a 
challenging curriculum and helping them graduate on time and prepared 
for college or the workplace.
    <bullet> Career and technical education (CTE)--Rigorous career and 
technical education options attract students by enhancing the range of 
pathways and options that lead directly into meaningful post-secondary 
educational and/or workforce opportunities for our students. High 
quality CTE programs directly align to the needs and demands of 
industry and equip students with the relevant skills and competencies 
to successfully compete in the 21st century economy.
    2. Recuperative Strategies that focus on improving academic 
outcomes for students who have already become OA-UC by putting them 
back on-track and creating multiple pathways to graduation. Multiple 
pathway options for over-age under-credited students include:
    <bullet> Transfer High Schools are small, academically rigorous 
high schools designed to reengage students who have dropped out or who 
have fallen behind and now have fewer credits than they should for 
their age (these students are called ``over-age and under-credited''). 
These schools provide a personalized learning environment and 
connections to career and college opportunities. Students graduate with 
a high school diploma from their transfer high school. Each transfer 
school determines admissions criteria individually. Guidance counselors 
at students' original high schools must contact each prospective school 
directly to set up an interview for admission or to learn more about 
the school.
    <bullet> Young Adult Borough Centers are evening academic programs 
designed to meet the needs of high school students who might be 
considering dropping out because they are behind academically or 
because they have adult responsibilities that make attending school in 
the daytime difficult. Eligible students are at least 17.5 years old, 
have been in school for four or more years, and have 17 or more 
credits. Students graduate with a diploma from their home school after 
they have earned all of their credits and passed all of the required 
exams while attending a YABC.
    <bullet> Learning to Work Programs offer in-depth job readiness and 
career exploration opportunities designed to enhance the academic 
components of select Young Adult Borough Centers, Transfer Schools, and 
GED programs. The goals of Learning to Work are to assist students in 
overcoming some of the obstacles that impede their progress toward a 
high school diploma and lead them toward rewarding post-secondary 
employment and educational experiences. Learning to Work offers 
academic support, career and education exploration, work preparation, 
skills development, and internships.
    <bullet> GED Programs with Learning to Work are available for 
students who wish to prepare for the General Education Development 
(GED) exam. Students who receive a passing score on the GED exam earn a 
High School Equivalency Diploma. We have developed new full and part-
time GED programs that are blended with the Learning to Work program. 
These programs prepare students for the GED and help them develop 
connections to meaningful post-secondary opportunities.
    Actively managing this portfolio of school options is a critical 
lever in sustaining and expanding opportunities for all students to 
reach graduation. Rather than prescribing interventions, federal and 
state efforts should build capacity within local districts to 
continually optimize their portfolio of school options, replacing poor 
performing schools, improving underperforming school and documenting 
effective practices of high performing schools.
    An actively managed portfolio of schools, coupled with empowered 
leadership and strong accountability are key levers to ensure that all 
of our students are prepared for postsecondary success. The next 
generation of accountability must increase the emphasis on graduation 
rates and postsecondary readiness, which are often overlooked in the 
current focus on improving student test scores. In order to make these 
factors an integral part of the next wave of accountability, fewer, 
higher, and clearer standards should be defined at federal and state 
level, with then maximum discretion for district innovation to achieve 
results, including increased funding with fewer strings attached.
                                 ______
                                 
                                             U.S. Congress,
                                     Washington, DC, July 24, 2008.
Arne Duncan, Chief Executive Officer,
Chicago Public Schools, Chicago, IL.
    Dear Mr. Duncan: Thank you for testifying at the July 17, 2008 
hearing of the Committee on Education and Labor on ``Mayor and 
Superintendent Partnerships in Education: Closing the Achievement 
Gap.''
    Representative Ruben Hinojosa (D-TX), chairman of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
questions:
    1. In the Department's report, there is no data provided from 
Illinois or New York on the academic achievement of English language 
learners in the content areas. How do you hold schools and the district 
accountable for ensuring that English language learners achieve to the 
same standards as all other students and for ensuring that they have 
full access to the curriculum in a manner that is understandable to 
them as required under the Supreme Court case Lau v. Nichols?
    2. What graduation rates do your schools need to meet to make AYP 
either by meeting the target or making ``safe harbor''?
    3. I along with Rep. Scott, Rep. Grijalva, Rep. Davis, and many of 
my colleagues on this committee introduced the Graduation Promise Act 
to address the schools that are struggling the most to produce high 
school graduates. What are your views on the need for a large scale 
effort in this area?
    Representative Danny K. Davis (D-IL), member of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
questions:
    1. The Chicago bonus pay program is known for having worked closely 
with teachers and teachers' unions to develop it. Can you give more 
detail on what this united effort looks like and how it has helped the 
program?
    2. Can you discuss how the stakeholders established the formula for 
the bonus pay, such as what variables are considered and what 
percentage each variable carries?
    3. In your testimony, you mentioned the teacher pipeline efforts. 
Could you explain these efforts in greater detail?
    4. Could you share with the Committee more details about how 
Chicago encourages high quality teachers to teach in the lowest 
performing schools?
    Please send an electronic version of your written response to the 
questions to the Committee close of business on Wednesday, July 30, 
2008--the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                            Chicago Public Schools,
                                   S. Clark St., 5th Floor,
                                        Chicago, IL, July 30, 2008.
Hon. George Miller, Chairman,
Committee on Education and Labor, U.S. House of Representatives, 
        Washington, DC.
    Dear Mr. Miller: Representative Ruben Hinojosa (D-TX), chairman of 
the Higher Education, Lifelong Learning and Competitiveness 
Subcommittee and member of the Early Childhood, Elementary and 
Secondary Education Subcommittee, has asked that you respond in writing 
to the following questions:
    1. In the Department's report, there is no data provided from 
Illinois or New York on the academic achievement of English language 
learners in the content areas. How do you hold schools and the district 
accountable for ensuring that English language learners achieve to the 
same standards as all other students and for ensuring that they have 
full access to the curriculum in a manner that is understandable to 
them as required under the Supreme Court case Lau v. Nichols?
    ELLs are tested in Reading and Math in grades 3-8, and Science in 
grades 4 & 7 on the state assessment. ELLs participate in the bilingual 
program that provides them instruction (to the same standards) in the 
native language and English as a Second Language (ESL). Students are 
assessed on their English proficiency annually and take classes in 
their native language and English, depending on their English 
proficiency. Students are allowed to participate in the bilingual 
program for three years or longer, if necessary, until they have 
demonstrated English proficiency on the state assessment.
    2. What graduation rates do your schools need to meet to make AYP 
either by meeting the target or making ``safe harbor''?
    The high school graduation rate must be 75% in school year 07-08 to 
make AYP. There is no safe harbor for graduation rate.
    3. I along with Rep. Scott, Rep. Grijalva, Rep. Davis, and many of 
my colleagues on this committee introduced the Graduation Promise Act 
to address the schools that are struggling the most to produce high 
school graduates. What are your views on the need for a large scale 
effort in this area?
    It is clear that large-scale federal reform is necessary to address 
the dismally high dropout rates that our highest-need schools are 
facing. In Chicago alone, nearly 42% of our students drop out of high 
school without attaining a diploma and there are over 20 comprehensive 
high schools with drop out rates higher than 50%. Despite these 
startling figures, there is hope. We know that by better targeting our 
most needy students through engaging, rigorous and relevant curriculum, 
social and emotional supports, and personalized learning environments 
with caring adults we can reach those who are most at-risk and steer 
them on a path toward success. Achieving these things will require 
providing high-quality options for all students, developing capacity of 
teachers and leaders within secondary schools, and targeting resources 
towards those schools and students that have the highest need.
    Representative Danny K. Davis (D-IL), member of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
questions:
    1. The Chicago bonus pay program is known for having worked closely 
with teachers and teachers' unions to develop it. Can you give more 
detail on what this united effort looks like and how it has helped the 
program?
    In 2006, CPS convened a team of educators and community 
stakeholders, including CTU representatives, CPAA representatives, 
teachers (DRIVE), funders/foundations, and other central office 
administrators in researching and developing the TIF grant proposal. 
After receiving the TIF grant award in November 2006, the REAL Program 
(now called Chicago TAP) established a planning committee to continue 
the planning and implementation activities. The planning committee 
included many of the same people from the original grant committee. 
Concurrently, CPS and CTU were negotiating a Memorandum of 
Understanding regarding the REAL Program pilot with the assistance of 
Franczek and Sullivan. During the negotiations, we also received 
guidance and support from national AFT personnel, Louise Sundan 
(Minnesota TAP) and Rob Weil, National AFT Educational Issues. As a 
result of the agreement, we established a Joint Council, chaired by 
Arne Duncan and Marilyn Stewart, consisting of 5 members selected by 
CPS and 5 members selected by CTU to continue monitoring and guiding 
the direction of the program's implementation. The Joint Council 
currently consists of three (3) teachers and one (1) principal in 
Chicago TAP schools, six (6) CPS or CTU administrators, and the 
president of The Chicago Public Education Fund. This group meets twice 
per month and has shown great commitment and dedication to making sure 
that this program is implemented with fidelity and also transparency.
    2. Can you discuss how the stakeholders established the formula for 
the bonus pay, such as what variables are considered and what 
percentage each variable carries?
    Based on the nationally recognized TAP model, the performance bonus 
awards are comprised of two components:
    <bullet> Teachers Skills, Knowledge and Responsibilities (SKR) as 
measured by teachers' observations using the TAP Instructional Rubric 
and an end-of-year Responsibilities Survey
    <bullet> Student Achievement gains as measured by Value Added 
(School wide Gains and Classroom-level Gains)
    In Year 1 of implementation for each Cohort, the performance bonus 
award is weighted 25% based on Teachers' SKR score, and 75% based on 
School-wide Student achievement gains. Below, the percentages change 
over time and classroom level student achievement gains are phased in 
as the implementation progresses.
    The table below illustrates the percentages of each variable.


------------------------------------------------------------------
                                                         Year 2*               Year 3               Year 4
------------------------------------------------------------------
Teachers' SKR (4-6 Observations and                      40% (Average         40% (Average   40% (Average $1,600
 Responsibilities Survey)........................             $1,600)              $1,600)
School-wide gains................................        50% (Maximum         40% (Maximum   40% (Maximum $1,200
                                                              $2,000)              $1,600)
Classroom level gains............................  10% (Maximum $400) 
  20% (Maximum $800)   30% (Maximum $1,200 
------------------------------------------------------------------

    For teachers in non-tested subjects or grades (Kindergarten, 1st 
grade, Art, PE, etc.), the performance bonus award is weighted 40% 
based on Teachers' SKR score and 60% based on School-wide Student 
Achievement Gains.
    3. In your testimony, you mentioned the teacher pipeline efforts. 
Could you explain these efforts in greater detail?
                       teacher pipeline programs
    Like many public school districts across the nation, the Chicago 
Public Schools (CPS) continues to experience a growing need for high-
quality teachers who are committed to raising academic achievement in 
the most challenged schools. One avenue toward meeting this demand is 
through the Teacher Pipeline Programs which are designed to attract 
educators and professionals into CPS classrooms.
    The Teacher Pipeline Programs aligns its purpose with the Human 
Capital Initiative to ensure that outstanding leaders are staffed into 
CPS classrooms. The second purpose is to identify and aggressively 
recruit high quality teachers within 6 to 18 months from their 
certification especially in those subject areas of high need. 
Therefore, CPS will hold a pipeline of quality teachers to address 
teacher vacancies for two academic years. Listed below are overviews 
and outcomes for the three programs: Teaching Residency & Internship 
Program (TRIP), Student Teaching Program, and Alternative Certification 
Program.
              i. teaching residency & internship programs
    Overview: The CPS Teaching Residency and Internship Programs are 
designed to provide talented education majors with an opportunity to 
experience living and teaching in the city of Chicago with hopes they 
return to the district as new hires upon graduation and certification. 
This highly selective program attracts the best teachers nationally and 
is a model for other programs. Pre-service teachers teach under the 
guidance of veteran CPS and Nationally Board Certified Teachers. These 
teachers are identified 12 to 18 months from their certification.
            Outcomes
    <bullet> Over 825 online applications were received, representing 
47 universities
    <bullet> Applications received represented 24 states including: 
Kentucky, Indiana, Michigan, Minnesota, Missouri, Wisconsin, 
Pennsylvania, California, Oregon, Arizona, North Dakota, Georgia, 
Louisiana, Florida, New York and Maine.
    <bullet> University representation include: University of IL 
Urbana, University of Michigan, DePaul University, Illinois State 
University, Michigan State University, University of Wisconsin-Madison, 
Clark-Atlanta University, Miami University of Ohio, University of 
Missouri in Columbia, Ohio University, Loyola University of Chicago, 
Western Illinois University, etc.
    <bullet> 70 Interns participated in 2006 and 19 Interns 
participated in 2007
    <bullet> 93 Teaching Residents participated in 2006 and 86 Teaching 
Residents participated in 2007
    Comment: The program retired in 2007 and is currently being 
restructured for summer 2009 to increase capacity and ensure the 
program is aligned with other district initiatives.
                      ii. student-teaching program
    Overview: This program assists outstanding pre-service teachers by 
offering a unique urban teaching experience, support and guidance 
through the final phases of the traditional teacher certification 
program. Upon successful completion of their CPS student teaching 
experience, the Student Teaching Program aggressively seeks to retain 
and hire those effective student teachers. CPS student teachers are 
highly recommended teacher candidates, as they have already 
demonstrated their commitment and passion to CPS. These teachers are 
identified 6 to 12 months from their certification.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Recently, the Student Teaching Program piloted the Student Teaching 
Application Process where individuals must be selected to conduct their 
student teaching work in the district. This will become a standard 
practice within the coming year.
                 ii. alternative certification programs
    Overview: These programs are designed to attract outstanding 
leaders to become teachers in CPS and to significantly impact the 
academic achievement of our city's children. Individuals enrolled in 
these highly-selective programs provide classroom learning with the 
content knowledge based on academic and professional experiences. Their 
backgrounds lend themselves to teaching high-need subject areas as 
math, science, world languages in Spanish and Chinese, bilingual 
elementary education, and special elementary education. These teachers 
are identified 6-8 months from their certification.
            Outcomes
    The Chicago Teaching Fellows Program experienced another successful 
recruitment season for the 2007-2008 academic year. Listed below are 
the following outcomes:
    1. Recruitment data for 2007-2008 Academic Year:
    <bullet> 5,592 logins
    <bullet> 2,075 applications submitted
    <bullet> 1,688 Eligible Candidates
    <bullet> 1,026 Scheduled Interviews
    <bullet> 122 Have successfully completed the Summer Institute and 
are eligible to teach in the fall as Teacher of Record.
    2. Demographics
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    NOTE: This is self-reporting information. 58.19% of the Fellows 
identified themselves as non-minority and the remaining 41.80% as 
minority. (51/122)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    3. Education
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    4. Could you share with the Committee more details about how 
Chicago encourages high quality teachers to teach in the lowest 
performing schools?
    Overview: The Department of Human Resources--Recruitment & 
Workforce Planning partnered with The New Teacher Project to recruit 
and identify high quality teachers for the reconstituted schools known 
as the Model Hiring Initiatives (MHI) for Turnaround Schools.
    The expected outcome for this initiative is to ensure vacancies are 
staffed by a highly qualified and effective teacher by the start of the 
school year. Also, this initiatives will provide: (1) a branded 
marketing campaign (2) hiring strategies focused on building rigorous 
teacher selection models especially in high need subject areas such as 
math, science, physical education and other subject areas when needed 
(3) workshops for schools to learn about effective hiring practices, 
projecting vacancies, marketing, and creating interview protocols at 
the school and (4) focused support for principals to ensure teacher 
vacancies are filled with quality educators by the start of the new 
school year.
    For the 2008-2009 school year, CPS will open six reconstituted 
(turnaround) schools. Three schools will be managed by the Chief 
Education Office and three will be managed by the Academy of Urban 
School Leadership.
    Chief Education Office
    Harper High School
    Nicolas Copernicus Elementary School
    Robert Fulton Elementary School
    Academy of Urban School Leadership
    Orr Academy High School
    Howe School of Excellence
    Morton School of Excellence
    The branded marketing campaign for the Turnaround Schools is:
    Teach Chicago Turnarounds--Change Schools, Change Lives
    http://www.teachchicagoturnarounds.org/
    Approximately 275 educators will be hired to change the school 
climate by teaching and aggressively setting high expectations for 
positive learning and success. As of July 28, 2008--about 88% of 
qualified teachers have been identified to teach in the Elementary and 
High School Turnaround Schools.
    Listed below are indicators of how the recruitment efforts have 
progressed.
    <bullet> 2,172 individuals have submitted resumes
    <bullet> After the initial screening, 404 candidates have been 
identified as qualified teachers
    <bullet> 62% have advanced degrees
    <bullet> 30% have graduated from a school considered a ``Top 50 
School of Education'' by U.S. News & World Reports
    <bullet> 3% are Nationally Board Certified Teachers
    <bullet> Over 9,500 hits have been recorded on the Teach Chicago 
Turnarounds website across 37 countries/territories as of July 28, 
2008.
                 turnaround school teacher competencies
    The collaborative efforts among the Chicago Public Education Fund, 
The New Teacher Project, Public Impact, CPS Department of Human 
Resources--Recruitment & Workforce Planning and the Office of School 
Turnaround resulted in a systematic approach to identifying principals 
specifically for Turnaround Schools. The outcome led to identifying a 
set of principal competencies needed to open and operate a 
reconstituted school. Those set of principal competencies became the 
foundation to recruit and select teachers who held the same 
dispositions and instructional effectiveness.
    The competencies for Turnaround School Teachers are the following:
    I. Driving for Results Cluster--Relentless focus on learning 
results.
    <bullet> Achievement: The drive and actions to set challenging 
goals and reach a high standard of performance despite barriers.
    <bullet> Initiative and Persistence: The drive and actions to do 
more than is expected or required in order to accomplish a challenging 
task.
    <bullet> Monitoring and Directive: The ability to set clear 
expectations and to hold others accountable for performance.
    <bullet> Planning Ahead: A bias towards planning to derive future 
benefits or to avoid problems.
    II. Influencing for Results Cluster--These enable working through 
and with others.
    <bullet> Impact and Influence: Acting with the purpose of affecting 
the perceptions, thinking and actions of others.
    <bullet> Interpersonal Understanding: Understanding and 
interpreting others' concerns, motives, feelings and behaviors.
    <bullet> Teamwork: The ability and actions needed to work with 
others to achieve shared goals.
    III. Problem Solving Cluster--These enable solving and simplifying 
complex problems.
    <bullet> Analytical Thinking: The ability to break things down in a 
logical way and to recognize cause and effect.
    <bullet> Conceptual Thinking: The ability to see patters and links 
among seemingly unrelated things.
    IV. Personal Effectiveness Cluster--These enable success in a 
highly challenging situation.
    <bullet> Self-Control: Acting to keep one's emotions under control, 
especially when provoked.
    <bullet> Self-Confidence: A personal belief in one's ability to 
accomplish tasks and the actions that reflect that belief.
    <bullet> Flexibility: The ability to adapt one's approach to the 
requirements of a situation and to change tactics.
    <bullet> Belief in Learning Potential: A belief that all students, 
regardless of circumstances, can learn at levels higher than the 
current achievement indicates.
    Each candidate was interviewed through a rigorous selection model. 
The manner in which we did this was by developing and utilizing 
selection tools to determine the appropriate teachers for the 
reconstituted schools.
    Turnaround School Principals are the ultimate hiring authority for 
their respective schools. A comprehensive training module was provided 
for the six Turnaround School Principals to integrate and implement the 
Teacher Turnaround School Competencies. Five sessions were delivered by 
The New Teacher Project and the Department of Human Resources provided 
feedback on how to integrate theory with practices and CPS policies. As 
stated previously, the schools have identified 88% of the instructional 
staff based on these Teacher Turnaround School Competencies.
            Sincerely,
                                               Arne Duncan,
                                           Chief Executive Officer.

          FY2008 Recruitment & Workforce Planning Initiatives

                                overview
    The Chicago Public Schools (CPS) recruitment strategy is to attract 
and focus on quality candidates versus the quantity of candidates. This 
is the district's guiding principle in identifying individuals who hold 
the highest potential for success in teaching children and leading 
school reform in a large urban setting.
    The Department of Human Resources--Office of Recruitment and 
Workforce Planning developed various teacher pipeline programs and 
recruitment enhancement strategies to ensure challenged schools had 
early and direct access to quality teacher candidates who are committed 
to delivering effective instruction.
    Listed below are various initiatives that are based on these 
principles:
    I. Teacher Pipeline Programs
    <bullet> Alternative Certification Program
    <bullet> Student Teaching Program
    <bullet> Teaching Residency & Internship Program
    II. Recruitment Enhancement Strategies
    <bullet> Model Hiring Initiative--Turnaround Schools
    <bullet> Model Hiring Initiative--Area 14
    III. Recruitment Enhancement Strategies
    <bullet> Strategic Human Resources--Principal Workshops
    <bullet> Fellowship in Urban School Leadership
    IV. University Outreach
    <bullet> Dean's Summit
                      i. teacher pipeline programs
    Like many public school districts across the nation, the Chicago 
Public Schools (CPS) continues to experience a growing need for high-
quality teachers who are committed to raising academic achievement in 
the most challenged schools. One avenue toward meeting this demand is 
through the Teacher Pipeline Programs which are designed to attract 
educators and professionals into CPS classrooms.
    The Teacher Pipeline Programs aligns its purpose with the Human 
Capital Initiative to ensure that outstanding leaders are staffed into 
CPS classrooms. The second purpose is to identify and aggressively 
recruit high quality teachers within 6 to 18 months from their 
certification especially in those subject areas of high need. 
Therefore, CPS will hold a pipeline of quality teachers to address 
teacher vacancies for two academic years. Listed below are overviews 
and outcomes for the three programs: Teaching Residency & Internship 
Program (TRIP), Student Teaching Program, and Alternative Certification 
Program.
    A.) Teaching residency & internship programs
    Overview: The CPS Teaching Residency and Internship Programs are 
designed to provide talented education majors with an opportunity to 
experience living and teaching in the city of Chicago with hopes they 
return to the district as new hires upon graduation and certification. 
This highly selective program attracts the best teachers nationally and 
is a model for other programs. Pre-service teachers teach under the 
guidance of veteran CPS and Nationally Board Certified Teachers. These 
teachers are identified 12 to 18 months from their certification.
            Outcomes
    <bullet> Over 825 online applications were received, representing 
47 universities
    <bullet> Applications received represented 24 states including: 
Kentucky, Indiana, Michigan, Minnesota, Missouri, Wisconsin, 
Pennsylvania, California, Oregon, Arizona, North Dakota, Georgia, 
Louisiana, Florida, New York and Maine.
    <bullet> University representation include: University of IL 
Urbana, University of Michigan, DePaul University, Illinois State 
University, Michigan State University, University of Wisconsin-Madison, 
Clark-Atlanta University, Miami University of Ohio, University of 
Missouri in Columbia, Ohio University, Loyola University of Chicago, 
Western Illinois University, etc.
    <bullet> 70 Interns participated in 2006 and 19 Interns 
participated in 2007
    <bullet> 93 Teaching Residents participated in 2006 and 86 Teaching 
Residents participated in 2007
    Comment: The program retired in 2007 and is currently being 
restructured for summer 2009 to increase capacity and ensure the 
program is aligned with other district initiatives.
    B.) Student-teaching program
    Overview: This program assists outstanding pre-service teachers by 
offering a unique urban teaching experience, support and guidance 
through the final phases of the traditional teacher certification 
program. Upon successful completion of their CPS student teaching 
experience, the Student Teaching Program aggressively seeks to retain 
and hire those effective student teachers. CPS student teachers are 
highly recommended teacher candidates, as they have already 
demonstrated their commitment and passion to CPS. These teachers are 
identified 6 to 12 months from their certification.
    Recently, the Student Teaching Program piloted the Student Teaching 
Application Process where individuals must be selected to conduct their 
student teaching work in the district. This will become a standard 
practice within the coming year.
    C.) Alternative certification programs
    Overview: These programs are designed to attract outstanding 
leaders to become teachers in CPS and to significantly impact the 
academic achievement of our city's children. Individuals enrolled in 
these highly-selective programs provide classroom learning with the 
content knowledge based on academic and professional experiences. Their 
backgrounds lend themselves to teaching high-need subject areas as 
math, science, world languages in Spanish and Chinese, bilingual 
elementary education, and special elementary education. These teachers 
are identified 6-8 months from their certification.
    Outcomes: The Chicago Teaching Fellows Program experienced another 
successful recruitment season for the 2007-2008 academic year. Listed 
below are the following outcomes:
    A.) Recruitment data for 2007-2008 Academic Year:
    <bullet> 5,592 logins
    <bullet> 2,075 applications submitted
    <bullet> 1,688 Eligible Candidates
    <bullet> 1,026 Scheduled Interviews
    <bullet> 122 Have successfully completed the Summer Institute and 
are eligible to teach in the fall as Teacher of Record.
                  ii. recruitment enhancement programs
    Overview: In partnership with The New Teacher Project, the Office 
of Recruitment & Workforce Planning developed teacher recruitment 
supports for specific schools called Model Hiring Initiatives (MHI) for 
Turnaround Schools and Area 14. The majority of work is completed 
during the summer months in anticipation for the first day of school.
    The expected outcome for both initiatives is to ensure vacancies 
are staffed by a highly qualified and effective teacher by the start of 
the school year. Also, both initiatives will provide: (1) a branded 
marketing campaign (2) hiring strategies focused on building rigorous 
teacher selection models especially in high need subject areas such as 
math, science, physical education and other subject areas when needed 
(3) workshops for schools to learn about effective hiring practices, 
projecting vacancies, marketing, and creating interview protocols at 
the school and (4) focused support for principals to ensure teacher 
vacancies are filled with quality educators by the start of the new 
school year.
    A.) Model hiring initiative--turnaround schools
    For the 2008-2009 school year, CPS will open six reconstituted 
(turnaround) schools. Three schools will be managed by the Chief 
Education Office and three will be managed by the Academy of Urban 
School Leadership.
    Chief Education Office
    Harper High School
    Nicolas Copernicus Elementary School
    Robert Fulton Elementary School
    Academy of Urban School Leadership
    Orr Academy High School
    Howe School of Excellence
    Morton School of Excellence
    The branded marketing campaign for the Turnaround Schools is:
    Teach Chicago Turnarounds--Change Schools, Change Lives
    http://www.teachchicagoturnarounds.org/
    Approximately 275 educators will be hired to change the school 
climate by teaching and aggressively setting high expectations for 
positive learning and success. As of July 28, 2008--about 88% of 
qualified teachers have been identified to teach in the Elementary and 
High School Turnaround Schools.
    Listed below are indicators of how the recruitment efforts have 
progressed.
    <bullet> 2,172 individuals have submitted resumes
    <bullet> After the initial screening, 404 candidates have been 
identified as qualified teachers
    <bullet> 62% have advanced degrees
    <bullet> 30% have graduated from a school considered a ``Top 50 
School of Education'' by U.S. News & World Reports
    <bullet> 3% are National Board Certified Teachers
    <bullet> Over 9,500 hits have been recorded on the Teach Chicago 
Turnarounds website across 37 countries/territories as of July 28, 
2008.
    B.) Model hiring initiative--Area 14
    In partnership with The New Teacher Project, Office of Recruitment 
& Workforce Planning have provided focused teacher recruitment support 
for the Englewood Community in Chicago, known as Area 14. This area is 
comprised of 23 elementary schools that reside in a neighborhood 
experiencing poverty and high criminal activities. The goal is to 
collaborate with each Area 14 school to ensure that (1) the schools are 
able to hire as early as possible; (2) school staff is trained and 
given resources to make the best teacher hiring decisions; and (3) all 
teacher vacancies are filled with quality teachers before the start of 
the 2008-2009 school year.
    This strategy provides intensive recruitment enhancements that are 
supported by technology and prescreening of candidates. As of July 1, 
2008 the following indicators have occurred that successfully 
demonstrates how this initiative as progressed.
    <bullet> Over 1,000 resumes have been prescreened and analyzed for 
Area 14 schools
    <bullet> After the Initial Screening, 463 candidates have been 
identified as qualified teachers
    <bullet> Nearly 40% of these candidates hold multiple endorsements
    <bullet> Many candidates have more than 2 years of experience of 
classroom teaching
    <bullet> Many candidates are qualified to teach in high-need 
subject areas
                       iii. principal initiatives
    School leaders must have strong competencies in evaluating 
instruction, implementing data-driving decisions, and providing staff 
development. Also, principals are charged with having an efficient 
operations building that produces the school's capacity to be 
effective, accountable, and successful. The recruitment pipeline for 
identifying administrators who hold these competencies were generously 
supported by The Chicago Public Education Fund.
    A.) The fellowship in urban school leadership
    Overview: The Fellowship is a school leadership experience that 
provides future district administrators an opportunity to explore the 
strategies and methods that are transforming Chicago Public Schools. 
Fellowship in Urban School Leadership invites outstanding experienced 
and aspiring principals from around the country to experience why CPS 
is a national model for urban school reform. Fellowship participants 
share a passion and commitment to urban school leadership and an 
interest in building careers at CPS. Focused on instructional 
leadership, change management and data-driven decision making, this 
fellowship offers a rigorous combination of professional development, 
school-based project practicum, principal mentor and a former 
successful CPS principal that serves as a supervising principal for the 
Fellows. Complimentary housing, local transportation and cultural 
events provide candidates a comprehensive understanding of what a 
world-class city has to offer and in return, a clear understanding of 
what students expect and need.
    Listed below are program characteristics that were delivered from 
July 6, 2008 through July 25, 2008.
    <bullet> Fellows were hosted at various CPS summer schools to 
identify day to day school operations and priorities implemented at the 
school level.
    <bullet> Fellows shadowed a CPS principal and participated in 
school activities, programs and explored various cultural venues that 
enhanced school-based learning.
    <bullet> Fellows participated in professional development 
specifically designed for this program; entitled ``Leadership for 
Change'', which was delivered by Northwestern University's Kellogg 
School of Management.
    <bullet> Fellows completed data-driven projects that were unique to 
their host schools.
    <bullet> As prospective district administrators, Fellows had the 
opportunity to meet with CPS educational leaders to observe, share 
experiences, ideas and best practice reflecting our commitment to be 
the best urban school district in the nation.
    B.) Strategic human resources--principal workshops
    In partnership with The New Teacher Project, the Office of 
Recruitment & Workforce Planning scheduled another series of workshops, 
entitled ``Principal Strategic Human Resources Workshops.'' The 
curriculum is focused on the essential skills administrators need in 
order to effectively recruit, select, cultivate and hire high-quality 
teachers, particularly those in shortage subject areas.
    The relevance of this strategy is providing new district principals 
the tools and skills needed to identify those teachers whom they view 
as effective instructors committed to improving student achievement. 
Also, these sessions emphasize the importance of early hiring and early 
staffing which aligns with the district's Early Hiring Incentives for 
schools.
    In its second year, 109 principals who are considered first year 
principals in CPS were invited to attend. These sessions were scheduled 
throughout February thru April and focused on the following areas:
    <bullet> Developing Strategic Staffing Plan
    <bullet> Marketing Your School
    <bullet> Building an Interview Model
    <bullet> Conducting the Interview
    It is critical that school leaders have the tools and foundation to 
implement hiring strategies that attracts qualified and effective 
teachers since they are the hiring authorities at the school-based 
level as noted within the Board of Education policies.
                        iv. university outreach
    In its second year, Recruitment & Workforce Planning hosted the 
Annual Dean's Summit to provide information regarding the district's 
priorities and hiring needs for the upcoming year. Over 70 national 
universities and 5 foundations were invited to attend.
    Listed below were the initiatives discussed at the Annual Dean's 
Summit.
            My voice, my survey
    Summary: This session discussed the findings of a district 
initiated report about satisfaction levels of parents and students 
regarding their school's performance on academics and school 
environment. The information enabled university students to be better 
prepared in understanding the school climate and the level of family 
involvement for each participating school.
            Turnaround schools
    Summary: The Office of School Turnarounds presented the district's 
mission to lead the transformation of the lowest performing schools 
into higher achieving schools--without moving students from their 
respective schools. These strategies include maximizing internal 
capacity; developing coordinated programmatic strategies, and 
establishing funding partners with nonprofit and corporate communities.
            Leadership and talent management for principals
    Summary: In February 2007, Chicago Public Schools and the Chicago 
Public Education Fund implemented an initiative focused on aggressively 
recruiting transformational leadership talent who have succeeded in 
significantly improving the academic achievement in high needs schools. 
These initiatives include The Fellowship in Urban School Leadership for 
external CPS candidates and Pathways to School Leadership for current 
CPS educators who hold high-potential talent.
            Student teaching program
    Summary: The program is designed to identify quality student 
teachers by offering an intensive student teaching experience that will 
support their career development during the final phases of their 
certification program. The 2008 Student Teaching Application, Screening 
Model and the University Agreements were discussed and the process on 
how the district identifies and supports Student Teachers.
                                 ______
                                 
                                             U.S. Congress,
                                     Washington, DC, July 23, 2008.
Hon. Adrian M. Fenty, Mayor,
District of Columbia.
    Dear Mayor Fenty: Thank you for testifying at the July 17, 2008 
hearing of the Committee on Education and Labor on ``Mayor and 
Superintendent Partnerships in Education: Closing the Achievement 
Gap.''
    Representative Ruben Hinojosa (D-TX), chairman of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
questions:
    1. In the Department's report, there is no data on certified 
bilingual or English as a second language teachers for Washington, D.C. 
For Georgia, it was reported that there was a need for an additional 
5,000 teachers in this specialty area over the next 5 years. What are 
you doing to ensure that you have enough well-prepared teachers for 
students who are English language learners? What are you doing to equip 
your current teachers to meet the needs of these students?
    2. What graduation rates do your schools need to meet to make AYP 
either by meeting the target or making ``safe harbor''?
    3. I along with Rep. Scott, Rep. Grijalva, Rep. Davis, and many of 
my colleagues on this committee introduced the Graduation Promise Act 
to address the schools that are struggling the most to produce high 
school graduates. What are your views on the need for a large scale 
effort in this area?
    Representative Danny K. Davis (D-IL), member of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
questions:
    1. As you are aware, I also serve as Chairman of the House 
Authorizing Subcommittee on the District of Columbia, and the 
Subcommittee recently finished considering legislation to bring the 
District's Charter School program and board under the City's control. 
It seems that here in the District, and around the country for that 
matter, we have gotten so far away from the original conception of 
charter schools, which were to be innovative models of education, 
experiments in fact, that would ultimately transfer into our public 
schools. However, that is not what we are seeing. Instead, we just see 
the creation of more charter schools. The KIPP model does not make its 
way into Hines Junior High, but into a new KIPP school. What is your 
administration doing to make the sharing of information between public 
charter schools and traditional public schools more of a priority than 
the addition of new charter schools?
    2. In your opinion, how do we make the District's public schools 
more attractive to parents?
    3. What parental involvement initiatives are you or Chancellor Rhee 
proposing to supplement the City's comprehensive educational reform 
efforts?
    4. Last week, the City Council approved new regulations for 
homeschooling. The standards set for homeschooling parents are created 
by, enforced by, and assessed for compliance by the Office of the State 
Superintendent of Education (OSSE) at its sole discretion. Such a set 
of regulations provides no impartial due process protections for 
homeschooling parents given that the standards are set, controlled, and 
measured by OSSE. How will you direct OSSE to preserve the due process 
rights for parents conducting constitutionally-protected activities?
    Please send an electronic version of your written response to the 
questions to the Committee close of business on Wednesday, July 30, 
2008--the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
                                             U.S. Congress,
                                     Washington, DC, July 23, 2008.
Michelle Rhee, Chancellor,
District of Columbia Public Schools, Washington, DC.
    Dear Ms. Rhee: Thank you for testifying at the July 17, 2008 
hearing of the Committee on Education and Labor on ``Mayor and 
Superintendent Partnerships in Education: Closing the Achievement 
Gap.''
    Representative Ruben Hinojosa (D-TX), chairman of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
questions:
    1. In the Department's report, there is no data on certified 
bilingual or English as a second language teachers for Washington, D.C. 
For Georgia, it was reported that there was a need for an additional 
5,000 teachers in this specialty area over the next 5 years. What are 
you doing to ensure that you have enough well prepared teachers for 
students who are English language learners? What are you doing to equip 
your current teachers to meet the needs of these students?
    1. What graduation rates do your schools need to meet to make AYP 
either by meeting the target or making ``safe harbor''?
    2. I along with Rep. Scott, Rep. Grijalva, Rep. Davis, and many of 
my colleagues on this committee introduced the Graduation Promise Act 
to address the schools that are struggling the most to produce high 
school graduates. What are your views on the need for a large scale 
effort in this area?
    Please send an electronic version of your written response to the 
questions to the Committee close of business on Wednesday, July 30, 
2008--the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

          Responses to Questions for the Record From Ms. Rhee

    Dear Chairman Miller: Thank you for inviting me to testify at the 
July 17, 2008 hearing of the Committee on Education and Labor on 
``Mayor and Superintendent Partnerships in Education: Closing the 
Achievement Gap.''
    I appreciate the opportunity to respond to Representative Ruben 
Hinojosa's follow up questions. The questions, along with my answers, 
follow below:
    1. In the Department's report, there is no data on certified 
bilingual or English as a second language teachers for Washington, D.C. 
For Georgia, it was reported that there was a need for an additional 
5,000 teachers in this specialty area over the next 5 years. What are 
you doing to ensure that you have enough well prepared teachers for 
students who are English language learners? What are you doing to equip 
your current teachers to meet the needs of these students?
    This year, DCPS instituted a certification process for language 
programs at all our schools. This will ensure that schools have 
effective English Language Learners (ELL) and Language Delivery Models. 
We want to ensure that we also have enough certified teachers to 
fulfill the needs of our ELL's. The certification process for schools 
will allow us to manage programs and make accurate estimates about 
personnel needs.
    In addition, while the number of DCPS students with ELL needs has 
not increased recently, the interest in learning a second language as 
enrichment has. Therefore, we are developing new language immersion 
programs and are making special efforts to recruit teachers trained in 
Dual Language and Foreign Language Instruction and provide current 
teachers with new training opportunities in these areas to staff those 
programs.
    We have partnerships with the Chinese Embassy and the Embassy of 
Spain that allow us to bring teachers from both countries to the 
District to teach our students. About 18 teachers from these countries 
will be teaching in DCPS schools during coming school year. These 
relationships are great benefits to DCPS, addressing some of our major 
language needs as well as offering a cultural exchange that benefits 
our countries and our students.
    Another challenge continues to be closing the achievement gap 
experienced by many of our ELL's. Toward this end, we are instituting 
an aggressive professional development plan for all teachers for the 
upcoming year which will include Cross-Cultural Language and Academic 
Development Training (CLAD) and Content and Language Integration as a 
Means of Bridging Success (CLIMBS). CLAD is a course designed to 
prepare ESL teachers around core teaching areas, such as lesson 
planning around themes and focusing on scaffolding. CLIMBS is a course 
designed to help all educators in applying the WIDA English Language 
Proficiency (ELP) standards in their classroom instruction using a 
sheltered instruction approach.
    In addition, by examining the data in schools across our district, 
we are trying to identify the existing programs and practices that are 
most successful for our ESL students, so that we can replicate those 
practices. This year teachers will receive mentoring and embedded 
professional development to implement those practices in their 
classrooms.
    Finally, will work with The Office of the State Superintendent of 
Education (OSSE) over the coming year to redefine our certification 
guidelines for ESL teachers and create new pathways to ESL 
certification in partnership with some of our local universities. 
Regarding recruitment, we continue to recruit nationally and 
internationally. As we prepare for the coming school year, we are 
working closely with schools to ensure that our classrooms are equipped 
with appropriate materials in the languages that our students speak.
    2. What graduation rates do your schools need to meet to make AYP 
either by meeting the target or making ``safe harbor''?
    The three indicators for AYP for DCPS are proficiency rates on 
Reading and Math, testing participation rate, attendance rate (for 
elementary and middle schools only) and graduation rate (for high 
schools only). The graduation rate is defined as ``the total number of 
graduates for a given year with a regular diploma divided by the sum of 
the number of graduates (for that year) and dropouts for the current 
year and the three preceding years.'' This definition was developed by 
a previous DCPS administration and will be used until SY2009. We 
expect, in cooperation with OSSE, to create a new definition that will 
go into effect after SY2009. The current graduation rate target for 
DCPS schools is 66.23%. Schools that meet or exceed this target achieve 
this component of AYP. Schools below the target also can achieve AYP if 
their graduation rate has increased by one percentage point from the 
prior year. The Class of 2007 graduation rate is included in the 2008 
AYP calculations for high schools.
    3. I along with Rep. Scott, Rep. Grijalva, Rep. Davis, and many of 
my colleagues on this committee introduced the Graduation Promise Act 
to address the schools that are struggling the most to produce high 
school graduates. What are your views on the need for a large scale 
effort in this area?
    I certainly think that a strong effort is needed in this area. 
Under my leadership, we are conducting transcript audits of all DCPS 
High School students, to ensure that every student is on track to 
graduate and that every schedule reflects the courses that students 
truly need in order to fulfill the district's graduation requirements. 
In addition, we are structuring our course offerings at 9th and 10th 
grade so that students are better prepared to be successful in reading 
and mathematics. We are providing a double dose of these subjects to 
students who are performing below grade level, at these grade levels, 
to help them ``catch up'', so that they can begin to experience the 
academic success that will keep them in school. We are also providing a 
variety of pathways to enable students to make up classes that are 
required for graduation that they have failed, including evening 
classes, weekend course offerings and alternative settings. By creating 
these additional options, we are helping prevent students from falling 
too far behind their peers, which means, again, that they will be more 
likely to stay in school. Finally, we are planning professional 
development for our high school teachers that will help them develop 
challenging lessons that have ``real world'' applications, to keep 
students engaged and motivated to learn.
            Best wishes,
                                 Michelle Rhee, Chancellor.
                                 ______
                                 
                                             U.S. Congress,
                                     Washington, DC, July 23, 2008.
Beverly Hall, Ed.D, Superintendent,
Atlanta Public Schools, Atlanta, GA.
    Dear Dr. Hall: Thank you for testifying at the July 17, 2008 
hearing of the Committee on Education and Labor on ``Mayor and 
Superintendent Partnerships in Education: Closing the Achievement 
Gap.''
    Representative Ruben Hinojosa (D-TX), chairman of the Higher 
Education, Lifelong Learning and Competitiveness Subcommittee and 
member of the Early Childhood, Elementary and Secondary Education 
Subcommittee, has asked that you respond in writing to the following 
questions:
    1. In the Department's report, there is no data on certified 
bilingual or English as a second language teachers for Washington, D.C. 
For Georgia, it was reported that there was a need for an additional 
5,000 teachers in this specialty area over the next 5 years. What are 
you doing to ensure that you have enough well prepared teachers for 
students who are English language learners? What are you doing to equip 
your current teachers to meet the needs of these students?
    2. What graduation rates do your schools need to meet to make AYP 
either by meeting the target or making ``safe harbor''?
    3. I along with Rep. Scott, Rep. Grijalva, Rep. Davis, and many of 
my colleagues on this committee introduced the Graduation Promise Act 
to address the schools that are struggling the most to produce high 
school graduates. What are your views on the need for a large scale 
effort in this area?
    Please send an electronic version of your written response to the 
questions to the Committee close of business on Wednesday, July 30, 
2008--the date on which the hearing record will close. If you have any 
questions, please do not hesitate to contact us.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

          Responses to Questions for the Record From Ms. Hall

    1. In the Department's report, there is no data on certified 
bilingual or English as a second language teachers for Washington, D.C. 
For Georgia, it was reported that there was a need for an additional 
5,000 teachers in this specialty area over the next 5 years. What are 
you doing to ensure that you have enough well prepared teachers for 
students who are English language learners? What are you doing to equip 
your current teachers to meet the needs of these students?
    The Atlanta Public Schools' enrollment is about 3 percent English 
language learners, and we have not been experiencing the same dramatic 
growth in English language learners that the suburban districts in the 
metro area and many of the rural counties in the state are seeing. 
Despite this, we still need both teachers who specialize in English-
for-Speakers-of-Other-Languages and content-area teachers familiar with 
delivering instruction effectively to ELL students. To develop our 
workforce of ESOL teachers, the district offers a year-long endorsement 
program, one of many in-house professional development opportunities, 
that allows APS teachers certified in other areas to add the ESOL 
qualification to their state certificates. On a larger scale, our ESOL 
teachers are currently undergoing ``Train the Trainer'' courses so that 
they will be able to go into every school and train the entire faculty 
in the Sheltered Instruction Observation Protocol (SIOP), a research-
based framework of best practices for ELL students. This protocol 
focuses on individual assessment of students and differentiation of 
instruction based on a student's level of language skill. This approach 
is revolutionary for our ESOL teachers because it focuses on content-
area instruction in addition to English language instruction. Research 
shows that this type of assessment and differentiation also benefits 
native English speakers in the classroom.
    2. What graduation rates do your schools need to meet to make AYP 
either by meeting the target or making ``safe harbor''?
    In Georgia, high schools must achieve a 70 percent graduation rate 
to make AYP. Schools not achieving this rate can make AYP if the 
graduation rate improves 10 or more percentage points over the prior 
year, so long as the current year's rate is 50 percent or greater. In 
other words, a school that increased the graduation rate from 41 to 51 
percent would make AYP, and a school that increased from 25 to 35 
percent would not.
    3. I along with Rep. Scott, Rep. Grijalva, Rep. Davis, and many of 
my colleagues on this committee introduced the Graduation Promise Act 
to address the schools that are struggling the most to produce high 
school graduates. What are your views on the need for a large scale 
effort in this area?
    In Atlanta, we have found that the wholesale transformation of our 
high schools is absolutely critical to preparing students for success 
in the 21st century. The large, impersonal, cookie-cutter comprehensive 
high school model fails to provide the rigor, relevance and 
relationships that our children need, especially those students most in 
need of academic and social support. When I came to Atlanta, we 
targeted two of our strategic initiatives toward our high schools' 
performance: Project GRAD (Graduation Really Achieves Dreams), which is 
a K-12 initiative partially funded through Title I funds, and high 
school reform, which is partially funded by the Gates foundation.
    We introduced Project GRAD in 2000, and our first crop of Project 
GRAD scholars graduated from our high schools in 2004. The success of 
this program is irrefutable: from 2003 to 2007, graduation rates for 
Project GRAD high schools have improved stunningly. Project GRAD is now 
in three high schools--and all three schools now exceed the national 
graduation average for urban schools. South Atlanta High School's rate 
rose from 37 percent to 74.7 percent in just four years. Washington 
increased their rate from 62 percent to 86.8 percent. And Carver's rate 
leapt 43 percentage points from 23 percent to 66 percent.
    The challenges of reaching more students to raise these rates to 
our 90 percent systemwide on-time graduation goal led us to implement 
our second initiative: transforming our high schools into small 
learning communities and small schools. We piloted this program with 
the creation of the New Schools at Carver: five small schools, each 
with its own unique thematic focus. Carver's reform is a model of sea 
change. In addition to the aforementioned 43 percentage point 
graduation rate increase, all five of the new schools at Carver met the 
academic requirements for AYP in 2007, attendance is above 90 percent, 
and 85 students are already dually enrolled and earning credits at 
Georgia State University. Carver is located in a challenging 
neighborhood, but through high expectations, intimate learning 
environments and instruction relevant to 21st century skills, we're 
taking away the excuses and showing that we can and should expect 
success in urban schools. We will roll out this type of transformation 
to all high schools by the 2010-11 school year.
                                 ______
                                 
    [Whereupon, at 1:04 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
